<html>
<title> - H.R. 424, ``GRAY WOLF STATE MANAGEMENT ACT OF 2017''; H.R. 717, ``LISTING REFORM ACT''; H.R. 1274, ``STATE, TRIBAL, AND LOCAL SPECIES TRANSPARENCY AND RECOVERY ACT''; H.R. 2603, ``SAVING AMERICA'S ENDANGERED SPECIES ACT'' OR ``SAVES ACT''; AND H.R. 3131, ``ENDANGERED SPECIES LITIGATION REASONABLENESS ACT''</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]









 
   H.R. 424, ``GRAY WOLF STATE MANAGEMENT ACT OF 2017''; H.R. 717, 
``LISTING REFORM ACT''; H.R. 1274, ``STATE, TRIBAL, AND LOCAL SPECIES 
    TRANSPARENCY AND RECOVERY ACT''; H.R. 2603, ``SAVING AMERICA'S 
ENDANGERED SPECIES ACT'' OR ``SAVES ACT''; AND H.R. 3131, ``ENDANGERED 
                SPECIES LITIGATION REASONABLENESS ACT''

=======================================================================

                          LEGISLATIVE HEARING

                               before the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                               __________

                        Wednesday, July 19, 2017

                               __________

                           Serial No. 115-18

                               __________

       Printed for the use of the Committee on Natural Resources





[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]






         Available via the World Wide Web: http://www.fdsys.gov
                                   or
          Committee address: http://naturalresources.house.gov
                                 ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

26-389  PDF                     WASHINGTON : 2017 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
          
                     COMMITTEE ON NATURAL RESOURCES

                        ROB BISHOP, UT, Chairman
            RAUL M. GRIJALVA, AZ, Ranking Democratic Member

Don Young, AK                        Grace F. Napolitano, CA
  Chairman Emeritus                  Madeleine Z. Bordallo, GU
Louie Gohmert, TX                    Jim Costa, CA
  Vice Chairman                      Gregorio Kilili Camacho Sablan, 
Doug Lamborn, CO                         CNMI
Robert J. Wittman, VA                Niki Tsongas, MA
Tom McClintock, CA                   Jared Huffman, CA
Stevan Pearce, NM                      Vice Ranking Member
Glenn Thompson, PA                   Alan S. Lowenthal, CA
Paul A. Gosar, AZ                    Donald S. Beyer, Jr., VA
Raul R. Labrador, ID                 Norma J. Torres, CA
Scott R. Tipton, CO                  Ruben Gallego, AZ
Doug LaMalfa, CA                     Colleen Hanabusa, HI
Jeff Denham, CA                      Nanette Diaz Barragan, CA
Paul Cook, CA                        Darren Soto, FL
Bruce Westerman, AR                  A. Donald McEachin, VA
Garret Graves, LA                    Anthony G. Brown, MD
Jody B. Hice, GA                     Wm. Lacy Clay, MO
Aumua Amata Coleman Radewagen, AS    Jimmy Gomez, CA
Darin LaHood, IL
Daniel Webster, FL
Jack Bergman, MI
Liz Cheney, WY
Mike Johnson, LA
Jenniffer Gonzalez-Colon, PR
Greg Gianforte, MT

                 Todd Ungerecht, Acting Chief of Staff
                      Lisa Pittman, Chief Counsel
                David Watkins, Democratic Staff Director
                                 ------ 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 
                                 

                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Wednesday, July 19, 2017.........................     1

Statement of Members:
    Bishop, Hon. Rob, a Representative in Congress from the State 
      of Utah....................................................     2
        Prepared statement of....................................     3
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................     6
        Prepared statement of....................................     7
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     4
        Prepared statement of....................................     5
    Huffman, Hon. Jared, a Representative in Congress from the 
      State of California........................................     8
        Prepared statement of....................................     9

Statement of Witnesses:
    Corwin, Jeff, Biologist, Host of ABC's Ocean Treks with Jeff 
      Corwin, Marshfield, Massachusetts..........................    47
        Prepared statement of....................................    49
        Questions submitted for the record.......................    52
    Gohmert, Hon. Louie, a Representative in Congress from the 
      State of Texas.............................................    26
        Prepared statement of....................................    27
    Hegar, Hon. Glenn, Comptroller of Public Accounts, State of 
      Texas, Austin, Texas.......................................    32
        Prepared statement of....................................    33
        Questions submitted for the record.......................    38
    Holsinger, Kent, Manager, Holsinger Law, LLC, Denver, 
      Colorado...................................................    63
        Prepared statement of....................................    64
        Questions submitted for the record.......................    69
    Huizenga, Hon. Bill, a Representative in Congress from the 
      State of Michigan..........................................    28
        Prepared statement of....................................    29
    Newhouse, Hon. Dan, a Representative in Congress from the 
      State of Washington........................................    10
        Prepared statement of....................................    12
    Olson, Hon. Pete, a Representative in Congress from the State 
      of Texas...................................................    24
        Prepared statement of....................................    25
    Peterson, Hon. Collin C., a Representative in Congress from 
      the State of Minnesota.....................................    13
        Prepared statement of....................................    23
    Sheehan, Greg, Deputy Director, U.S. Fish and Wildlife 
      Service, Washington, DC....................................    40
        Prepared statement of....................................    42
        Questions submitted for the record.......................    45
    Willms, David, Policy Advisor to Wyoming Governor Matt Mead, 
      Cheyenne, Wyoming..........................................    53
        Prepared statement of....................................    55
        Questions submitted for the record.......................    60

Additional Materials Submitted for the Record:

    List of documents submitted for the record retained in the 
      Committee's official files.................................   123

  Submissions for the Record by Representative Gohmert
        Letters of support for H.R. 2603.........................    77

  Submissions for the Record by Representative Grijalva
        Humane Society Legislative Fund, July 24, 2017 letter in 
          opposition of H.R. 2603................................   121
        Union of Concerned Scientists, July 18, 2017 letter in 
          opposition of H.R. 424, H.R. 717, H.R. 1274, H.R. 2603, 
          and H.R. 3131..........................................   122

  Submissions for the Record by Representative Huffman
        Brown, Edmund G. Jr., Governor of California, June 23, 
          2017 letter to Matt Mead, Governor of Wyoming..........    96

  Submissions for the Record by Representative Peterson
        Letters of support for H.R. 424..........................    14

                                     

LEGISLATIVE HEARING ON H.R. 424, TO DIRECT THE SECRETARY OF THE 
INTERIOR TO REISSUE FINAL RULES RELATING TO LISTING OF THE GRAY 
     WOLF IN THE WESTERN GREAT LAKES AND WYOMING UNDER THE 
ENDANGERED SPECIES ACT OF 1973, AND FOR OTHER PURPOSES, ``GRAY 
  WOLF STATE MANAGEMENT ACT OF 2017''; H.R. 717, TO AMEND THE 
    ENDANGERED SPECIES ACT OF 1973 TO REQUIRE REVIEW OF THE 
  ECONOMIC COST OF ADDING A SPECIES TO THE LIST OF ENDANGERED 
    SPECIES OR THREATENED SPECIES, AND FOR OTHER PURPOSES, 
  ``LISTING REFORM ACT''; H.R. 1274, TO AMEND THE ENDANGERED 
   SPECIES ACT OF 1973 TO REQUIRE MAKING AVAILABLE TO STATES 
AFFECTED BY DETERMINATIONS THAT SPECIES ARE ENDANGERED SPECIES 
   OR THREATENED SPECIES ALL DATA THAT IS THE BASIS OF SUCH 
 DETERMINATIONS, AND FOR OTHER PURPOSES, ``STATE, TRIBAL, AND 
 LOCAL SPECIES TRANSPARENCY AND RECOVERY ACT''; H.R. 2603, TO 
   AMEND THE ENDANGERED SPECIES ACT OF 1973 TO PROVIDE THAT 
NONNATIVE SPECIES IN THE UNITED STATES SHALL NOT BE TREATED AS 
 ENDANGERED SPECIES OR THREATENED SPECIES FOR PURPOSES OF THAT 
 ACT, ``SAVING AMERICA'S ENDANGERED SPECIES ACT,'' OR ``SAVES 
 ACT''; AND H.R. 3131, TO AMEND THE ENDANGERED SPECIES ACT OF 
    1973 TO CONFORM CITIZEN SUITS UNDER THAT ACT WITH OTHER 
  EXISTING LAW, AND FOR OTHER PURPOSES, ``ENDANGERED SPECIES 
                LITIGATION REASONABLENESS ACT''

                              ----------                              


                        Wednesday, July 19, 2017

                     U.S. House of Representatives

                     Committee on Natural Resources

                             Washington, DC

                              ----------                              

    The Committee met, pursuant to notice, at 10:08 a.m., in 
room 1324, Longworth House Office Building, Hon. Rob Bishop 
[Chairman of the Committee] presiding.
    Present: Representatives Bishop, Gohmert, Lamborn, Wittman, 
Gosar, Tipton, LaMalfa, Radewagen, Bergman, Cheney, Johnson, 
Gianforte; Grijalva, Costa, Huffman, Lowenthal, Beyer, 
Hanabusa, Barragan, Soto, Clay, and Gomez.
    Also present: Representative Polis.
    The  Chairman. The Committee on Natural Resources will come 
to order.
    The Committee today is meeting to hear the testimony on 
several bills: H.R. 1274, State, Tribal, and Local Species 
Transparency and Recovery Act, offered by Mr. Newhouse--you 
have to get smaller titles than this; H.R. 424, the Gray Wolf 
State Management Act of 2017, by Collin Peterson; H.R. 717, 
Listing Reform Act, by Representative Olson; H.R. 2603, Saving 
America's Endangered Species Act, by Mr. Gohmert; and H.R. 
3131, Endangered Species Litigation Reasonableness Act, by 
Representative Huizenga.
    Under Committee Rule 4(f), any opening oral statements are 
going to be limited to the Chair, the Ranking Member, Vice 
Chair, and a Vice Ranking Member. Therefore, I ask unanimous 
consent that other Members' statements be made part of the 
record if they are submitted to the Subcommittee Clerk by 5:00 
p.m.
    Hearing no objections, we will do that. And I will 
recognize myself first for a 5-minute opening statement.

STATEMENT OF THE HON. ROB BISHOP, A REPRESENTATIVE IN CONGRESS 
                     FROM THE STATE OF UTAH

    The  Chairman. Thanks to our witnesses for being here. The 
Endangered Species Act was passed 40 years ago to try to 
recover and restore imperiled species. And, despite the best of 
intentions, all too often this Act has changed, the mission has 
changed, and has been misused to try to control land, to block 
a host of economic activities, like jobs, energy and 
infrastructure, and forest management. It also has proliferated 
costly litigation, which is actually taking taxpayers' 
resources away from actual conservation.
    In the past four Congresses, we have held over 50 hearings, 
with dozens of witnesses that have talked about the litigation 
costs, lack of transparent scientific data, consultation 
processes, both public and private, that is endless, failure to 
include states and stakeholders in the process, and also 
goalposts which simply keep moving, which promotes more 
petitions and more listings.
    That is why simply 2 percent of all the species that have 
ever been listed have ever been recovered. In short, ESA does 
not work. We have to find a way to reform it so it actually 
solves problems, not just continues on the process.
    Hopefully, working with our colleagues in the Senate and 
the Administration, we can lay a foundation for ESA reform that 
will do us well. That is why we are here today to talk about 
five bills, two of which were bipartisan, that will start the 
reform process, or at least lay a foundation for it.
    So, first, H.R. 1274, introduced by Mr. Newhouse, fosters 
greater Federal and state cooperation and data transparency.
    The second one we will talk about, H.R. 424 by Mr. 
Peterson--we welcome you here--is a bipartisan measure to 
ensure state management of gray wolves in the Western Great 
Lakes. This should be a model for success of the Endangered 
Species Act, but it has been hijacked by litigation to lose 
that concept. We need to restore it.
    H.R. 717, the Listing Reform Act by Representative Olson 
would allow consideration of economic factors in listing 
decisions.
    The fourth one, H.R. 2603, the SAVES Act by our colleague, 
Mr. Gohmert, will remove duplicative permitting requirements 
for non-native endangered species.
    And finally, H.R. 3131 by Representative Huizenga will cap 
the ESA-related attorney's fees, allowing them to prevailing 
parties only, and it will be similar to what we already do for 
Social Security and veterans' cases.
    We at this time want to say that we are looking forward to 
finding reforms as we move forward. I want our colleagues on 
that side of the dais to know we are reaching across the aisle 
to ask for your help and support, as long as the term 
``bedrock'' is not used as an adjective, but is only a noun for 
Fred Flintstone's hometown. Anything else for that word is 
total spin.
    So, I want to thank our witnesses for being here today, and 
thank the sponsors for joining us here today. I look forward to 
your testimony and the hearing.

    [The prepared statement of Mr. Bishop follows:]
   Prepared Statement of the Hon. Rob Bishop, Chairman, Committee on 
                           Natural Resources
    More than 40 years ago, the Endangered Species Act was enacted to 
protect and encourage recovery of imperiled species. Though passed with 
the best of intentions, the ESA has veered away from this mission. All 
too often, the Act has been misused to control land, block a host of 
economic activities important for jobs, our energy and resources 
infrastructure and forest management. It has proliferated costly 
litigation that drains taxpayer resources away from actual conservation 
efforts.
    Over just the past four Congresses, this Committee has held more 
than 50 hearings examining the ESA. Dozens of witnesses have testified 
about litigation costs, the failure to use transparent scientific data, 
endless consultation processes, negative economic impacts, failure to 
include states and stakeholders in the process, unachievable goalposts 
to de-list healthy species and promoting more petitions and listings 
over recovery. The results speak volumes: less than 2 percent of more 
than 1,500 listed species have ever recovered.
    It is my hope that, in coordination with our colleagues in the 
Senate and this Administration, we can lay the foundation for ESA 
reform that creates better outcomes for both species and communities. 
The five bills before us today--two of which are bipartisan, and two 
that previously passed the House in some form--would begin to lay this 
foundation.
    First, H.R. 1274, introduced by Representative Newhouse, fosters 
greater Federal and state cooperation and data transparency in species 
designations.
    Second, H.R. 424, introduced by Agriculture Committee Ranking 
Member Collin Peterson, is a bipartisan measure to de-list and ensure 
state management of gray wolves in the Western Great Lakes, maintain 
Wyoming management without further litigation, and provides a model for 
how recovered species should be managed under the ESA--by states that 
have proven capable of doing so.
    Third, H.R. 717, the Listing Reform Act, sponsored by 
Representative Pete Olson, would allow for the consideration of 
economic factors in listing decisions. Countless witnesses have 
testified in prior hearings about the impacts ESA can have on economic 
activity and private property rights. The bill also provides agencies 
more flexibility in processing listing petitions to mitigate excessive 
litigation, allowing the agency to focus resources on actual species 
conservation.
    Fourth, H.R. 2603, the ``SAVES Act,'' sponsored by our colleague 
Representative Gohmert, which removes duplicative permitting 
requirements for non-native endangered species.
    And finally, H.R. 3131, sponsored by Representative Huizenga, would 
cap ESA-related attorney's fees, allowing them only to prevailing 
parties, and bringing them into conformance with fee caps allowed for 
other types of citizen lawsuits against the government, such as Social 
Security and veterans. In recent years, ESA litigation has become a 
lucrative industry, draining resources away from conservation and 
placing taxpayer funds squarely in the pockets of environmental 
attorneys and special interest groups, often at rates of $500 or more 
per hour.
    We can improve outcomes for both species and taxpayers if we build 
consensus to address existing failures and pursue targeted, common-
sense reforms. I extend my hand to Ranking Member Grijalva and my 
colleagues from both sides of the aisle as we move forward today, and 
in the coming months, in this long overdue reform effort.
    I want to thank our witnesses and bill sponsors for being here 
today, and I look forward to hearing their testimony about these 
important measures.

                                 ______
                                 

    The  Chairman. With that, I will turn to Mr. Grijalva for 
any opening statement that he may have.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr.  Grijalva. Thank you, Mr. Chairman. The Endangered 
Species Act works, bedrock or not.
    [Laughter.]
    Mr.  Grijalva. Despite years of Republican efforts to pass 
bills weakening the Act and cut funding from agencies that 
protect and recover imperiled American wildlife, 99 percent of 
listed species have continued to survive, and 90 percent are on 
schedule to meet their recovery goals.
    And, despite an ongoing misinformation campaign by 
Republicans and their industry allies designed to turn the 
public against ESA, 90 percent of American voters support 
keeping the law intact. These facts are not up for debate, no 
matter how strongly opponents of the law believe that polluters 
and land developers should not have to watch out for wildlife.
    Deep down, my Republican colleagues know this. Instead of a 
full frontal assault, the advocates for extinction talk about 
the need to reform or modernize the Act. These transparent 
attacks on one of the most successful and popular conservation 
statutes in the history of the world are old, tired, and 
frankly, not fooling anybody.
    The Majority has served up a weird menu of bills before us 
today, some of which have been warmed over from the last time 
we went through this pointless exercise in 2014. Three years 
later, it looks even less appealing, and represents only a 
small sample of the 200-plus legislative proposals to weaken 
ESA that have been floated since Republicans took control of 
the House in 2011.
    I cannot say this strongly or frequently enough: ESA does 
not need congressional meddling to work better; what it needs 
is congressional support.
    The Fish and Wildlife Service and the National Marine 
Fisheries Service have provided us with more than 40 years of 
evidence that the law gives states, localities, landowners, and 
private interests an incredible amount of flexibility to 
proceed with development projects in ways that conserve fish, 
wildlife, plants, and the landscapes they need to survive. 
These agencies simply need us to provide adequate funding for 
them to do their jobs, and then get out of the way.
    Claims that complying with ESA kills jobs or impedes 
economic growth are simply not grounded in reality. The U.S. 
economy has more than tripled since the law was passed--from $5 
trillion in 1973 to $16 trillion now.
    Yes, we should put the brakes on projects that would wipe 
unique forms of life off the face of the Earth. We have a moral 
duty to preserve for future generations the ability to discover 
how species can benefit them. Will the cure from cancer come 
from nature? What about the road map to a new revolution in 
agriculture or energy? We will never know if we choose to 
squander biodiversity instead of protecting it.
    For Members of this 115th Congress to declare that we 
should get to decide which species live or die for all time is, 
quite frankly, arrogant and shameful. The flaws with these 
bills before us are self-evident: basing conservation decisions 
on politics instead of science; limiting access to the courts; 
making it easier for bad guys to poach and traffic elephants, 
lions, and rhinos, just so the mega-rich can shoot them without 
having to actually travel to Africa.
    These bills are an embarrassment and a waste of time. 
Regardless of what their sponsors say, the goal of each of 
these bills is to weaken ESA, and not to make it work better. 
Enacting these bills into law would drive the extinction of 
fish, wildlife, and plants in America and around the globe, and 
they must be defeated.
    With that, I yield back, Mr. Chairman. Thank you.

    [The prepared statement of Mr. Grijalva follows:]
   Prepared Statement of the Hon. Raul M. Grijalva, Ranking Member, 
                     Committee on Natural Resources
    The Endangered Species Act works.
    Despite years of Republican efforts to pass bills weakening the Act 
and cut funding for agencies that protect and recover imperiled 
American wildlife, 99 percent of listed species have continued to 
survive, and 90 percent are on schedule to meet their recovery goals.
    And, despite an ongoing misinformation campaign by Republicans 
designed to turn the public against the ESA, 90 percent of American 
voters support keeping the law intact. These facts are not up for 
debate, no matter how strongly opponents of the law believe that 
polluters and land developers shouldn't have to watch out for wildlife.
    Deep down, Republicans know this. So, instead of a full frontal 
assault, the advocates for extinction talk about the need to ``reform'' 
or ``modernize'' the Act. These transparent attacks on one of the most 
successful and popular conservation statutes in the history of the 
world are old, tired, and not fooling anyone.
    The Majority has served up a weird menu of bills before us today, 
some of which have been warmed over from the last time we went through 
this pointless exercise in 2014. Three years later, it looks even less 
appealing, and represents only a small sample of the 200-plus 
legislative proposals to weaken the ESA that have been floated since 
Republicans took control of the House in 2011.
    I cannot say this strongly, loudly, or frequently enough: the ESA 
does not need congressional meddling to work better. What it needs is 
congressional support.
    The Fish and Wildlife Service and the National Marine Fisheries 
Service have provided us with more than 40 years of evidence that the 
law gives states, localities, landowners, and private interests an 
incredible amount of flexibility to proceed with development projects 
in ways that conserve fish, wildlife, plants and the landscapes they 
need to survive. These agencies simply need us to provide adequate 
funding for them to do their jobs, and then get out of the way.
    Claims that complying with the ESA kills jobs or impedes economic 
growth are simply not grounded in reality. The U.S. economy has more 
than tripled since the law was passed: from $5 trillion in 1973 to $16 
trillion today.
    Yes, we should put the brakes on projects that would wipe unique 
forms of life off the face of the Earth. We have a moral duty to 
preserve for future generations the ability to discover how species can 
benefit them. Will the cure for cancer come from nature? What about the 
road map to a new revolution in agriculture or energy? We will never 
know if we choose to squander biodiversity instead of protecting it.
    For Members of this 115th Congress to declare that we should get to 
decide which species live or die--for all time--is arrogant and 
shameful. The flaws with the bills before us today are self-evident: 
basing conservation decisions on politics instead of science; limiting 
access to the courts; making it easier for bad guys to poach and 
traffic elephants, lions, and rhinos just so the mega-rich can shoot 
them without having to actually travel to Africa.
    These bills are an embarrassment and a waste of time. Regardless of 
what their sponsors say, the goal of each of these bills is to weaken 
the ESA, not to make it ``work better.''
    Enacting these bills into law would drive the extinction of fish, 
wildlife, and plants in America and around the globe, and they must be 
defeated.

                                 ______
                                 

    The  Chairman. Thank you. And I wish to hell you would quit 
trying to hide your true feelings behind rhetoric. Just say 
what you actually believe.
    [Laughter.]
    The  Chairman. I will now turn to Mr. Gohmert for 5 minutes 
for an opening statement, if he wishes to do so.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr.  Gohmert. Thank you, Mr. Chairman. Good morning and 
welcome to this vitally important hearing.
    The Endangered Species Act of 1973, or ESA, was passed with 
the best of intentions. As stewards of the Earth, it is our 
responsibility to care for and shepherd the animals under our 
dominion.
    Although it was intended to protect those species in most 
dire need, the Endangered Species Act is failing in its 
mission. In fact, the ESA often has the exact opposite effect, 
hindering instead of helping these species. States, counties, 
farmers, loggers and citizens from east Texas to the Great 
Lakes are all making it clear that the ESA is no longer 
working.
    The slate of bills we have before us today are but a small, 
necessary step in the right direction. Whether it be onerous 
permitting processes, lack of state and local stakeholder 
input, blatant disregard for relevant scientific data, or 
taxpayer dollars propping up environmental interest groups, the 
system in place is broken. These bills offer solutions.
    H.R. 424, introduced by our friend, Collin Peterson, would 
direct the Secretary of the Interior to reissue vital final 
rules from 2011 to 2012 that removed the gray wolf from the 
endangered species list in Wyoming and the Great Lakes area. 
Although litigious environmental groups have repeatedly blocked 
the return of management of gray wolves to their respective 
states, population increases have long warranted their de-
listing.
    It is difficult for anyone to say that they love and care 
about nature and ignore the damage that gray wolves have made 
when they are over-populated. It is mean, it is vicious, it is 
vile.
    While the U.S. Fish and Wildlife Service de-listed wolves 
in Wyoming in accordance with a March 2017 court order, the 
decision is still subject to judicial review without this 
critical legislation. The litigiousness of environmental groups 
complicating the gray wolf situation is but a symptom of a 
larger problem: the ease with which plaintiffs can be rewarded 
by suing the Federal Government under the Endangered Species 
Act.
    My colleague, Bill Huizenga, has introduced H.R. 3131. This 
bill would standardize attorney's fees awarded in suits by 
private parties against the Federal Government, making them 
conform to the Equal Access to Justice Act. Currently, the ESA 
does not require a party suing the Federal Government to 
prevail in order to recover attorney's fees, and there is no 
cap on hourly attorney's fees. This legislation will reform 
this process by requiring plaintiffs suing the government under 
the ESA to prevail in order to collect attorney's fees, and by 
capping those fees at $125 per hour.
    Building on the importance of saving the American 
taxpayer's hard-earned money, my friend and colleague from 
Texas, Representative Pete Olson, introduced H.R. 717. This 
bill will amend the Endangered Species Act to require the 
Secretary of the Interior or Commerce to review the economic 
cost of adding a species to the endangered species list.
    Under this proposed legislation, if the Secretary 
determines that adding a species to the endangered species list 
would result in significant, cumulative economic effects, the 
species would be precluded from being placed on the list. 
Further, this bill also takes steps to streamline the 
petitioning process, thereby cutting down on excessive 
litigation.
    Finally, both my bill, H.R. 2603, the SAVES Act, which de-
lists non-native species, returning certain regulatory 
authority back to the states, and Mr. Peterson's gray wolf 
bill, are solutions for the symptoms of a larger problem, and 
that is the lack of state and local input.
    Thankfully, Representative Dan Newhouse's H.R. 1274, the 
State, Tribal, and Local Species Transparency Act, goes a long 
way in addressing this exact problem. By increasing data 
transparency and including data submitted by localities, the 
listing process will more closely adhere to the realities on 
the ground.
    I thank the Chairman for holding this important hearing, 
and the witnesses for their testimony. I yield back, Mr. 
Chairman.

    [The prepared statement of Mr. Gohmert follows:]
Prepared Statement of the Hon. Louie Gohmert, Vice Chairman, Committee 
                          on Natural Resources
    Good morning and welcome to this vitally important hearing. The 
Endangered Species Act of 1973--or ESA--was passed with the best of 
intentions. As stewards of the Earth, it is our responsibility to care 
for and shepherd the animals under our dominion.
    Although it was intended to protect those species in most dire 
need, the Endangered Species Act is failing at its mission. In fact, 
the ESA often has the exact opposite effect, hindering instead of 
helping these species. States, counties, farmers, loggers and citizens 
from east Texas to the Great Lakes are all making it clear that the ESA 
is no longer working.
    The slate of bills we have before us are but a small, necessary 
step in the right direction. Whether it be onerous permitting 
processes; lack of state and local stakeholder input; blatant disregard 
for relevant scientific data; or taxpayer dollars propping up 
environmental interest groups, the system in place is broken.
    These bills offer solutions. H.R. 424, introduced by my friend, 
Rep. Collin Peterson, would direct the Secretary of the Interior to 
reissue vital final rules from 2011 and 2012 that removed the gray wolf 
from the endangered species list in Wyoming and the Great Lakes area.
    Although litigious environmental groups have repeatedly blocked the 
return of management of gray wolves to their respective states, 
population increases have long warranted their de-listing.
    While the U.S. Fish and Wildlife Service de-listed wolves in 
Wyoming in accordance with a March 2017 court order, the decision is 
still subject to judicial review without this critical legislation. The 
litigiousness of environmental groups complicating the gray wolf 
situation is but a symptom of a larger problem: the ease with which 
plaintiffs can be rewarded by suing the Federal Government under the 
Endangered Species Act.
    My colleague, Rep. Huizenga, has introduced H.R. 3131. This bill 
would standardize attorney's fees awarded in suits by private parties 
against the Federal Government, making them conform to the Equal Access 
to Justice Act. Currently, the ESA does not require a party suing the 
Federal Government to prevail in order to recover attorney's fees, and 
there is no cap on hourly attorney's fees. This legislation will reform 
this process by requiring plaintiffs suing the government under the ESA 
to prevail in order to collect attorney's fees, and by capping those 
fees at $125 per hour.
    Building on the importance of saving the American taxpayer's hard-
earned money, my friend and colleague from Texas, Rep. Olson, 
introduced H.R. 717. This bill will amend the Endangered Species Act to 
require the Secretary of the Interior or Commerce to review the 
economic cost of adding a species to the endangered species list.
    Under this proposed legislation, if the Secretary determines that 
adding a species to the endangered species list would result in 
significant, cumulative economic effects, the species would be 
precluded from being placed on the list. Further, this bill also takes 
steps to streamline the petitioning process thereby cutting down on 
excessive litigation.
    Finally, both my bill, H.R. 2603, The SAVES Act, which de-lists 
non-native species, reducing regulations and thereby empowering states, 
and Mr. Peterson's Gray Wolf bill, are solutions for the symptoms of a 
larger problem: lack of state and local input.
    Thankfully, Rep. Dan Newhouse's H.R. 1274, the State, Tribal, and 
Local Species Transparency Act, goes a long way in addressing this 
exact problem. By increasing data transparency and including data 
submitted by localities, the listing process will more closely adhere 
to the realities on the ground.
    I thank the Chairman for holding this important hearing, and the 
witnesses for their testimony today.
                                 ______
                                 
    The  Chairman. Thank you. I now recognize Mr. Huffman as 
giving the Democrat statement as the Vice Ranking Member. You 
have 5 minutes. Go for it.

   STATEMENT OF THE HON. JARED HUFFMAN, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF CALIFORNIA

    Mr.  Huffman. Thank you, Mr. Chairman. The slate of bills 
before us today is a painful reminder of how far we have moved 
away from the bipartisan agreement that Democrats and 
Republicans used to share over a core set of values, the values 
of conservation and respect for science, in particular.
    Both sides of the aisle used to agree that protecting 
America's natural heritage for the enjoyment of this generation 
and for future generations was a worthy goal, and that relying 
on sound science to guide conservation policy was the gold 
standard for natural resources management.
    Of course, our fish, wildlife, plants, and the landscapes 
that they need are a huge part of that heritage. When it was 
enacted in 1973, the ESA had incredibly strong bipartisan 
support. It passed the Senate unanimously and was voted 390 to 
12 out of the House of Representatives. I highlight that this 
happened during the height of the Watergate investigation--not 
exactly a high watermark of bipartisan cooperation with the 
executive branch. But the ESA, nevertheless, had that 
incredible bipartisan foundation.
    It has long been one of our most successful and broadly 
supported conservation laws, preventing the extinction of 99 
percent of the species that have received its protection over 
its 44-year run.
    Now remember, the ESA only kicks in when species are in 
real trouble, in danger of extinction, or when it is 
foreseeable that they will be in such danger.
    If an ER doctor was able to save 99 percent of the critical 
patients that came through the door of that ER, and put 90 
percent of them on a clear path to recovery, as the ESA has 
done with imperiled species, that doctor would receive 
universal praise.
    So, I think it is worth asking why the ESA receives so much 
criticism in this Committee. I suspect the answer is pretty 
simple: the law requires Federal agencies to use the best-
available science to make decisions to prevent extinction, 
regardless of who produced that science. That can be bad news 
for mining companies, the oil and gas industry, big developers, 
and others.
    For example, one of the bills before us today, H.R. 1274, 
statutorily deems anything submitted by states, tribes, or 
localities as the best available science, regardless of the 
quality of that information.
    Another bill, H.R. 717, would let economics over-ride 
science when Federal agencies are reviewing fish and wildlife 
that are in serious decline.
    Another bill, H.R. 2603, removes ESA protections from 
species that are not native to the United States, and that 
would essentially provide blank checks to private game ranchers 
in Texas to hunt the endangered African antelope, and wildlife 
traffickers to profit from the domestic sale of ivory, thereby 
exacerbating the ongoing African elephant poaching crisis. It 
is a bad idea.
    What these bills ignore is that protecting fish and 
wildlife is not just a good idea in principle; it is good for 
the economy and it is good for people. The salmon fishermen in 
my district and elsewhere on the West Coast, for example, 
depend on strong and functioning ESA protections for salmon 
runs, allowing them to continue catching healthy stocks. It is 
about protecting jobs and a way of life.
    The bottom line is that the ESA has worked, and it has 
remained untouched for more than 40 years because decisions 
under the law have to be made based on data and evidence. That 
is a pretty reasonable standard that we all should be able to 
uphold.
    The ESA is not causing drought, flood, or pestilence, as 
some have argued before this Committee. All it is doing is 
requiring us to consider the impact on fish, wildlife, plants, 
and habitat, and requiring us to avoid causing extinction.
    So, yes, we no longer just cut down as many trees, or catch 
as many fish, as possible without thinking about the future. It 
is the lesson of the Lorax, it is the tragedy of the commons. 
And, as I said before, it is not just for fish and wildlife, it 
is for future generations of people, as well.
    And, with that, Mr. Speaker, I yield back without once 
using the word ``bedrock.''
    The  Chairman. You just did it. You lost again.
    [Laughter.]

    [The prepared statement of Mr. Huffman follows:]
  Prepared Statement of the Hon. Jared Huffman, Vice Ranking Member, 
                     Committee on Natural Resources
    Thank you, Mr. Chairman.

    The slate of bills before us today is a painful reminder of how far 
we have moved away from the bipartisan agreement Democrats and 
Republicans used to share over a core set of values, and the values of 
conservation and respect for science, in particular.
    Both sides of the aisle used to agree that protecting America's 
natural heritage for the enjoyment of this generation and future ones 
was a worthy goal, and that relying on sound science to guide 
conservation policy was the gold standard for natural resources 
management.
    Of course, our fish, wildlife, plants, and the landscapes they need 
are a huge part of that heritage. When enacted in 1973, the ESA Act had 
strong bipartisan support. It passed the Senate unanimously, and was 
voted 390 for and 12 against in the House. I highlight that this was 
during height of the Watergate investigation--not exactly a high 
watermark of bipartisan cooperation with the executive branch.
    The Endangered Species Act has long been one of our most successful 
and broadly supported conservation laws, preventing the extinction of 
99 percent of the species that have received its protection over the 
past 44 years.
    Remember, the ESA only kicks in when a species is in danger of 
extinction, or when it's foreseeable that it will be in such danger. If 
an emergency room doctor saved 99 percent of the critical patients that 
came through the door, and put 90 percent of them on a clear and timely 
road to recovery as the ESA has done with imperiled species, that 
doctor would receive universal praise.
    So, why does the ESA receive so much criticism in this Committee? I 
suspect the answer is simple: the law requires Federal agencies to use 
the best available science to make decisions to prevent extinction, 
regardless of who produced that science, and that can be bad news for 
mining companies, oil and gas industry, big developers, and others.
    For example, one of the bills before us today (H.R. 1274) deems 
anything submitted by states, tribes, or localities to be the ``best'' 
available science, regardless of the quality of the information. 
Another bill, H.R. 717, would let economics over-ride science when 
Federal agencies are reviewing fish and wildlife that are on the 
decline. Yet another one, H.R. 2603 removes ESA protections from 
species that are not native to the United States. This bill would 
essentially provide blank checks to private game ranchers in Texas to 
hunt the endangered African antelope, and wildlife traffickers to 
profit from domestic sales of ivory, thereby exacerbating the ongoing 
African elephant poaching crisis.
    What these bills ignore is that protecting fish and wildlife is not 
just a good idea in principle, but good for the economy and for people 
as well. The salmon fishermen in my district and elsewhere on the West 
Coast, for example, depend on a strong and functioning ESA to protect 
salmon runs, allowing them to continue catching healthy stocks.
    The bottom line is that the ESA has worked, and has remained 
untouched for more than 40 years, because decisions under the law must 
be made based on data and evidence. That's a pretty reasonable standard 
to uphold.
    The ESA is not causing drought, or flood, or pestilence as some 
have argued before this Committee. All it's doing is requiring us to 
consider our impact on fish, wildlife, plants, and habitat--and 
requiring us to avoid causing extinction. So yes, we no longer just cut 
down as many trees, or catch as many fish, as possible without thinking 
about the future. But that's a good thing, as I said, not just for fish 
and wildlife but for future generations of people as well.
    It would be a welcome change if we were really talking about 
modernizing the ESA so that it works better for both people and 
wildlife. But these bills won't get us there.
                                 ______
                                 

    The  Chairman. All right. We thank you for the witnesses 
who are actually here, the panel.
    This is the drill. You all have been through this. You have 
5 minutes Your written statements are already in the record. 
Microphones have to be turned on. The clock is ahead of you. I 
will cut you off at the 5-minute level without trying to be 
rude.
    I will tell you now that, once you are done, we would 
invite you to stay with us and participate in the rest of the 
hearing. If you want to insult us by leaving, that is your 
right. You can claim you are busy, whatever you want to do, but 
know that you are more than welcome to stay for the entire 
hearing, as we go forward.
    So, we will do in this order, first of all, Mr. Newhouse, 
then we will go to Mr. Peterson, to Mr. Olson, to Mr. Gohmert 
up here, to Mr. Huizenga. You will be the clean-up hitter for 
us.
    So, actually, technically, you are the clean-up hitter. You 
are batting five.
    Mr. Newhouse, are you ready to lead us off? You are 
recognized for 5 minutes. Good to have you back on the 
Committee, by the way.

    STATEMENT OF THE HON. DAN NEWHOUSE, A REPRESENTATIVE IN 
             CONGRESS FROM THE STATE OF WASHINGTON

    Mr.  Newhouse. Thank you very much, Mr. Chairman. Ranking 
Member Grijalva, members of the Committee, it is great to be 
back with all of you, as well. And I want to thank you for the 
opportunity to address this Committee in support of my 
legislation, H.R. 1274. It is the State, Tribal, and Local 
Species Transparency and Recovery Act. And yes, we need a 
couple more words in there.
    This legislation is simple and it is logical. By including 
state and local entities in Federal determinations and decision 
making, we can improve policy making and reduce the impacts on 
states, municipalities, tribes, and local stakeholders, all 
while ensuring endangered species listing decisions include the 
best pertinent data involved in such matters.
    Federal agencies like the Fish and Wildlife Service are 
currently not required to share underlying data used in listing 
decisions made under the ESA with the states or the local 
entities that would be impacted by such listing decisions. 
These agencies too often overlook local conservation plans that 
are developed to ensure the protection of native species and 
habitats. These local efforts should not be disregarded, for 
oftentimes, the counties or the local municipalities are among 
the best sources of information. Local stakeholders deserve to 
know whether their hard work is taken into consideration long 
before the end result of a Federal listing decision is made 
public.
    My bill will amend the ESA to simply require that Federal 
agencies disclose all data used to promulgate a potential or 
final listing determination to the states and local 
jurisdictions affected by Federal regulatory actions.
    The legislation also gives local stakeholders the 
opportunity to verify, dispute, or complement the information 
the Federal agencies use in the ESA listings.
    There have been too many examples of states' data and 
species recovery plans having been effectively ignored by 
Federal agencies, even after earnest and costly efforts were 
made to develop comprehensive and effective plans at the local 
level. By providing states, tribes, and localities the data 
used to promulgate these proposed listings, an opportunity 
arises for local stakeholders to get involved and have their 
voices heard.
    Two cases in my own district in Central Washington come to 
mind regarding transparency of Federal decision making 
involving specific species.
    Earlier this year, the National Park Service, as well as 
Fish and Wildlife, released a draft plan to reintroduce the 
grizzly bear in the North Cascades ecosystem. Both agencies 
claimed the bears will be joining an existing grizzly 
population, however, the last confirmed sighting of a grizzly 
bear in that area was in 1996. The people living in these 
communities deserve to know what data the Federal agencies are 
basing their decisions on. I have expressed my deep concerns 
regarding the lack of sound science and data to support this 
decision, and will continue to do so.
    The case of the gray wolf also comes to mind. The 
Department of the Interior and the Fish and Wildlife Service 
published a proposed rule that would remove the gray wolf's 
listing over 4 years ago, and even found the best-available 
scientific and commercial information indicates that the 
currently listed entity is not a valid species under the Act.
    Yet, the wolf remains listed. The gray wolf is found in 
nearly 50 countries around the world and has grown 
substantially across its range. I can attest to that. I will 
continue to be a firm advocate of de-listing the gray wolf, and 
returning its management to the states.
    On a final note, Mr. Chairman, I often share with my 
constituents that, as a farmer, I consider myself a 
conservationist and a true steward of the gifts God has given 
us. Farmers are on the forefront of protecting our Nation's 
rich, natural heritage. I believe it is important that we 
preserve our forests, our natural resources, and wildlife for 
our children, as well as our grandchildren, to enjoy. This 
legislation will only strengthen that effort.
    By modernizing the Endangered Species Act, we can ensure 
its effectiveness in protecting imperiled species successfully. 
I look forward to working with you and with the Committee to 
move this legislation forward. And, again, thank you for the 
opportunity.

    [The prepared statement of Mr. Newhouse follows:]
   Prepared Statement of the Hon. Dan Newhouse, a Representative in 
           Congress from the State of Washington on H.R. 1274
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for the opportunity to address the Committee on 
Natural Resources in support of my legislation, H.R. 1274, the ``State, 
Tribal, and Local Species Transparency and Recovery Act.'' This 
legislation is simple, and logical--by including state and local 
entities in Federal determinations and decision making, we can improve 
policy making and reduce the impacts on states, municipalities, tribes, 
and local stakeholders, all while ensuring endangered species listing 
decisions include the best, pertinent data involved in such matters.
    Federal agencies like the U.S. Fish & Wildlife Service (FWS) are 
currently not required to share the underlying data used in listing 
decisions made under the Endangered Species Act of 1973 (ESA) with the 
states or local entities that would be impacted by such listing 
decisions. These agencies too often overlook local conservation plans 
developed to ensure the protection of native species and habitats. 
These local efforts should not be disregarded, for oftentimes, the 
counties or local municipalities are among the best sources of such 
information. Local stakeholders deserve to know whether their hard work 
is taken into consideration long before the end result of a Federal 
listing decision is made final and public.
    The State, Tribal, and Local Species Transparency and Recovery Act 
will amend the ESA to simply require that Federal agencies disclose all 
data used to promulgate a potential or final listing determination to 
the states and local jurisdictions affected by Federal regulatory 
actions. The legislation also gives local stakeholders the opportunity 
to verify, dispute, or complement the information Federal agencies use 
in an ESA listing. There have been too many examples of states' data 
and species recovery plans having been effectively ignored by Federal 
agencies, even after earnest and costly efforts were made to develop 
comprehensive and effective plans at local levels. By providing states, 
tribes, and localities the data used to promulgate these proposed 
listings, an opportunity arises for local stakeholders to get involved, 
and have their voices heard.
    Two cases in my own district in Central Washington come to mind 
regarding transparency of Federal decision making involving specific 
species. Earlier this year, the National Park Service and FWS released 
a draft plan to reintroduce grizzlies in the North Cascades Ecosystem 
(NCE). NPS and FWS claim the bears will be joining an existing grizzly 
population, however the last confirmed sighting of a grizzly bear in 
the NCE was in 1996. The people living in these communities deserve to 
know what data these Federal agencies are basing their decisions on. I 
have expressed my deep concerns regarding the lack of sound science and 
data to support this plan and will continue to voice them.
    The case of the gray wolf also comes to mind. The Department of the 
Interior and FWS published a proposed rule that would remove the gray 
wolf's listing over 4 years ago--and even found the ``best available 
scientific and commercial information indicates that the currently 
listed entity is not a valid species under the Act.'' Yet, the wolf 
remains listed. The gray wolf is found in nearly 50 countries around 
the world and has grown substantially across its range. I will continue 
to be a firm advocate of de-listing the gray wolf and returning its 
management to the states.
    On a final note, Mr. Chairman, I often share with my constituents 
that, as a farmer, I consider myself a conservationist and steward of 
the gifts God has given us. Farmers are on the forefront of protecting 
our Nation's rich, natural heritage. I believe it is important that we 
preserve our forests, natural resources, and wildlife for our children 
and grandchildren to enjoy. This legislation will only strengthen that 
effort. By modernizing the Endangered Species Act, we can ensure its 
effectiveness in protecting imperiled species successfully. I look 
forward to working with the Committee to move this legislation forward, 
and again thank you for the opportunity.
                                 ______
                                 
    Mr.  Newhouse. And, at the risk of the demise of my bill, I 
must excuse myself and go to another Committee hearing. Thank 
you, Mr. Chairman.
    The  Chairman. Thank you. Well, at least you gave us a nice 
segue into the next speaker, talking about farmers. We 
recognize the Ranking Member on the Ag. Committee.
    Mr. Peterson, it is nice to have you on this side of the 
building, on this side of the Floor for a change. You are 
recognized for 5 minutes.

 STATEMENT OF THE HON. COLLIN C. PETERSON, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MINNESOTA

    Mr.  Peterson. Thank you very much, Mr. Chairman, Ranking 
Member Grijalva, and other members of the Committee, for the 
invitation to speak in support of my bill, the Gray Wolf State 
Management Act of 2017.
    In 2011, the Fish and Wildlife Service determined that the 
gray wolves in Minnesota, Wisconsin, and Michigan no longer 
required Federal protection, based on two main factors. First, 
the gray wolf population numbers in each state remained well 
above established recovery goals set by the 1992 recovery plan 
for the eastern timber wolf. And second, the wolf management 
plans established by each state provided for long-term 
conservation of a viable wolf population in the region. While 
under state management from 2011 to 2014, gray wolf populations 
remained well above recovery goals.
    At the end of 2014, a single judge sitting in Washington, 
DC, that I would say had no clue about what is going on in our 
part of the world, created a mess by somehow deciding that the 
wolf had not established themselves, or re-established in their 
entire range.
    Somebody convinced this judge that the range of the wolf 
was all the way down into Iowa, which I don't think is true. 
So, that means that Minneapolis and Lake Minnetonka should have 
wolves. Maybe we should release some in downtown Minneapolis or 
out in Lake Minnetonka, and if they ate some of those fancy 
little dogs, maybe we would finally get this thing fixed.
    [Laughter.]
    Mr.  Peterson. So, yes, this was all done despite 
scientific evidence that has been conducted by the U.S. Fish 
and Wildlife Service that the wolf population recovered and 
thrived, and they actually support the de-listing.
    This judge's decision suddenly put our farmers and ranchers 
in Minnesota, Wisconsin, and Michigan in a very difficult 
situation. Currently, it is illegal for a farmer to shoot a 
gray wolf that is actively attacking its cattle or pets. And 
when the attacks occur, my constituents are forced to choose 
between following the law or protecting their livestock and 
their livelihoods.
    Wyoming went through a similar situation when a judge 
single-handedly relisted wolves in 2014. In March of 2017, the 
D.C. Circuit Court of Appeals reversed that court decision, and 
the wolves are once again under Wyoming state management. But 
this bill returns the management of the gray wolves in 
Minnesota, Wisconsin, and Michigan from the Federal Government 
back to the states, and does not allow for further judicial 
review.
    The bill also includes Wyoming, to protect the state from 
further judicial over-reach, if that might happen.
    The courts have created a big enough mess already. And I 
think it is important for you to note that my bill does not 
prevent the U.S. Fish and Wildlife Service from relisting 
wolves in the future.
    I would like to submit for the record letters of support 
from several organizations, and technical documents from the 
U.S. Fish and Wildlife Service and the Minnesota Department of 
Natural Resources, which in this case, they did a wonderful job 
of managing the wolf population. And that is something for me 
to say, because I have not necessarily gotten along with the 
Minnesota DNR. This is one case where they did a great job.

    [The information follows:]

Rep. Peterson Submission--Letters of Support for H.R. 424

                    American Farm Bureau Federation

                                                      July 18, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Re: Gray Wolf State Management Act (H.R. 424)

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the American Farm Bureau Federation, we would like to 
thank you for scheduling a hearing to consider the Gray Wolf State 
Management Act (H.R. 424). This commonsense, bipartisan legislation 
would reinstate the U.S. Fish and Wildlife Service's (FWS) order to 
remove the gray wolf in the Western Great Lakes and Wyoming from the 
federal Endangered Species List. It would also provide legal clarity 
for the gray wolf's status on the Endangered Species list.
    Farm Bureau has been an active participant in the wolf issue for 
decades. That participation encompasses legal efforts in the federal 
district court in Minnesota seeking damages on behalf of Minnesota 
ranchers resulting from wolf predation; a lawsuit challenging the 
introduction of wolves into Montana, Wyoming and Idaho; comments on 
proposed federal regulations; comments delivered in public and 
congressional hearings; and regular interaction with the FWS on the 
impact of gray wolf populations on the membership.
    The purpose of the ESA is to recover species that are threatened 
with extinction: the Act clearly lays out the appropriate path to take 
after a species has recovered. In the case of the gray wolf, affected 
states have taken a positive, constructive approach in assuring 
continued recovery of the wolf, a step which supports the species' de-
listing.
    Farm Bureau supports Federal efforts to de-list the gray wolf. Such 
an effort is clearly justified in light of the goals of the Endangered 
Species Act; the best available scientific and commercial data that is 
available; the goals outlined in various recovery plans; and the 
aggressive leadership in affected states. Viewed in this context, the 
current status of the wolf clearly justifies its removal from the list 
of threatened and endangered species.
    We commend you for your leadership on this important issue, and 
look forward to continuing to work with you and the House Natural 
Resources Committee in securing enactment of this critically important 
legislation.

            Sincerely,

                                                Dale Moore,
                                 Executive Director, Public Policy.
                                 ______
                                 
                   Michigan Cattlemen's Association

                                                      July 19, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    This Michigan Cattlemen's Association wishes to thank you for 
holding a hearing to discuss H.R. 424, the Gray Wolf State Management 
Act of 2017. We fully support H.R. 424.
    The wolf population in Michigan has exceeded 600 wolves since 2011. 
Cattle farmers and ranchers in Michigan continue to be severely 
impacted by wolf attacks on their herds. There have been over 230 
verified wolf attacks on livestock and dogs in Michigan since 2010. Due 
to a Federal court decision in December 2014, wolves in the western 
Great Lakes area (including Michigan, Minnesota, and Wisconsin) were 
relisted under the Endangered Species Act (ESA).
    With ESA protection in place, lethal action against wolves is 
illegal, even if they are in the process of attacking livestock. Cattle 
producers are left completely helpless as wolves prey on their herds. 
H.R. 424 would return management of wolves to the states where the 
species can be managed properly.
    We appreciate the committee's consideration and we strongly urge 
passage of H.R. 424.

            Sincerely,

                                           Carl VanderKolk,
                                                         President.
                                 ______
                                 
                               Michigan Farm Bureau

                                                      July 17, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    Thank you for holding a hearing on H.R. 424, the Gray Wolf State 
Management Act in the House Natural Resources Committee. We support 
this legislation and appreciate your leadership in continuing the 
discussion on this critical issue.
    Michigan Farm Bureau represents nearly 45,000 farming families 
throughout the state, many of which are livestock producers. In 
particular, farmers in the Upper Peninsula have been very concerned 
about the growing threat of predation by the Western gray wolf.
    Farm Bureau supports legislation that would direct the Secretary of 
the Interior to reissue the final rule that was published on December 
28, 2011 (76 Fed. Reg. 81666 et seq) delisting the Western Great Lakes 
District Population Segment (DPS) of gray wolf, without regard to any 
other provision or statute or regulation that applies to the issuance 
of such rule and not subject to judicial review. This legislation would 
achieve this objective.
    Farm Bureau supports Rep. Collin Peterson's (MN-07) legislation and 
believes it strikes the right balance on how to address the growing 
gray wolf population in Northern Michigan and surrounding states.

            Sincerely,

                                                 John Kran,
                                      National Legislative Counsel.
                                 ______
                                 
                 Michigan United Conservation Clubs

                                                      July 19, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop, Ranking Member Grijalva and Members of the 
House Committee on Natural Resources:

    I am writing to you on behalf of the 80,000 members and supporters 
of the Michigan United Conservation Clubs to convey our thanks and 
support for your consideration of H.R. 424 which concerns the 
restoration of state management for gray wolves in the western Great 
Lakes region. Our members are hunters, anglers, trappers, and 
conservationists of every background in Michigan.
    For over 15 years, wolves have met, and consistently and 
substantially exceeded population recovery goals established by the 
United States Fish and Wildlife Service. Additionally, a diverse group 
of stakeholders and state fish and wildlife agency professionals have 
collaborated on the development of a management plan to ensure the 
long-term conservation of wolves in Michigan. Yet despite their 
recovery and the preparedness of the state to assume management control 
for wolves, their legal status has not aligned with the biological 
reality of their recovery.
    We respectfully request that you join us in supporting the 
conservation success of a fully recovered, healthy, and independently 
viable wolf population in Michigan by restoring state management of 
this species.

            Sincerely,

                                          Daniel Eichinger,
                                                Executive Director.
                                 ______
                                 
            Minnesota State Cattlemen's Association

                                                      July 17, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Re: H.R. 424--Gray Wolf State Management Act of 2017

    Dear Chairman Bishop and Ranking Member Grijalva:

    The Minnesota State Cattlemen's Association thanks the House 
Committee on Natural Resources for showing support and granting a 
hearing for H.R. 424--Gray Wolf State Management Act of 2017.
    While under state control, the State of Minnesota, through the 
Minnesota Department of Natural Resources and Department of 
Agriculture, developed and implemented a comprehensive and time proven 
wolf management plan. That plan, accepted by the U.S. Department of 
Interior, was the basis for delisting and the means of ensuring 
Minnesota's wolves would never again become threatened or endangered.
    Minnesota's gray wolf, by all measures established, was effectively 
maintained in Minnesota and should once again have population control 
returned to the state. The U.S. Fish and Wildlife Service and the State 
of Minnesota do not dispute that wolves have recovered and maintained 
their population here. However, efforts to de-list wolves in this area 
continue to be challenged on procedural and technical, rather than wolf 
conservation, grounds. The success of the ESA in recovering this 
population and the management efforts of the Minnesota Department of 
Natural Resources have been overshadowed by litigation and the 
unnecessarily onerous process to delist the gray wolf. If the State of 
Minnesota satisfactorily follows their approved population management 
plan, then future delisting of the gray wolf should not be subject to 
judicial review. With this type of action, we firmly believe it would 
remedy what is necessary to overcome the long history of legal and 
technical challenges to managing a clearly recovered species in the 
state of Minnesota.
    Once delisted, the State of Minnesota will continue to protect 
wolves and monitor their population, while giving livestock and 
domestic pet owners and wildlife more protection from wolf depredation 
as well as diseases carried by wolves. According to the original 
recovery plan, wolves have recovered in Minnesota and no longer warrant 
listing under the Endangered Species Act of 1973. The original USFWS 
recovery plan called for 1,251 to 1,400 gray wolves in Minnesota to 
meet delisting criteria. The state plan establishes a minimum 
population of 1,600 wolves to ensure the long-term survival of the wolf 
in Minnesota. The state's wolf population, which was estimated at fewer 
than 750 animals in the 1950s, has grown an estimated 2,300 animals 
according to the 2015-16 mid-winter wolf population survey. This 
obviously far exceeds state and federal recovery goals and has led to 
increased conflicts between wolves and humans, pets, and livestock. 
This would also show that, while under state control, state agencies 
have been able to successfully manage wolf populations.
    Minnesota's cattle and beef industry is a diverse and robust sector 
of the state's agricultural economy. Cattle and beef production is the 
second largest livestock sector in Minnesota, accounting for 27% of 
Minnesota's livestock cash receipts and 13% of the state's total 
agricultural cash receipts. Nationally, Minnesota ranks tenth in cattle 
production and is home to roughly 2.4 million head of cattle and 
calves. This sector of animal agriculture has a ``multiplier effect'' 
of $2.05 for every dollar of output. Specifically, Minnesota's beef and 
cattle production creates economic activities in many other economic 
sectors including agronomy, manufacturing, transportation, trade, 
services, finance, insurance, real estate, and construction. Minnesota 
beef production's total economic impacts at the farm level (not 
including meat processing) equals 4.2 billion dollars and employs 
nearly 27,000 Minnesotans. Ensuring Minnesota's beef farmers and 
ranchers are able to protect their cattle and herds when needed is 
vital to supporting this important sector of Minnesota's economy.
    Thank you for your time and consideration of H.R. 424--Gray Wolf 
State Management Act of 2017.

            Sincerely,

                                              Krist Wollum,
                                                         President.
                                 ______
                                 
                 Minnesota Deer Hunters Association

                                                      July 15, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    We are writing to thank you for scheduling a hearing on H.R. 424 
that would restore management of the gray wolf to several states 
including Minnesota. We urge your support of this important 
legislation.
    On December 19, 2014, a U.S. District Court Judge overturned the 
Fish and Wildlife Service's (FWS) November 2011 decision to delist the 
gray wolf in the Western Great Lakes region, including Minnesota, 
Wisconsin and Michigan. The result of this decision was to relist the 
gray wolf on the Endangered Species List in Minnesota and revoke State 
of Minnesota management. For several years, Minnesota had effectively 
managed wolves in Minnesota through a conservative plan that provides 
for hunting and livestock depredation control while maintaining a 
healthy wolf population. Now, as a result of the court ruling, a person 
may only take a wolf in the defense of human life and not to protect 
property such as livestock and personal pets.
    The gray wolf has recovered in Minnesota by all reasonable 
measures, particularly those provided in the Endangered Species Act. 
The federal recovery plan for the gray wolf identified a recovered 
population number of 1,251-1,400 wolves. The Minnesota Department of 
Natural Resources (MNDNR) winter wolf population survey in 2015-16 
estimated the population to be approximately 2,300. MNDNR concluded 
there has been no biologically or statistically significant change in 
the size of the statewide mid-winter wolf population over the past 4 
years of surveys.
    An appeal of the District Court ruling has been heard, but the 
appeal process is lengthy and leaves no effective wolf management in 
Minnesota. A legislative fix is a more suitable solution to the 
problem. We ask you to support H.R. 424 that would require the FWS to 
reissue the rule that delisted the gray wolf in Minnesota and other 
states. H.R. 424 would not modify the Endangered Species Act, nor would 
it prevent the FWS from deciding to relist the gray wolf in the future 
if it determines that the wolf population is in need of federal 
protection.
    Again, we seek your support in restoring management of the gray 
wolf to the State of Minnesota. Thank you.

            Sincerely,

                                          Craig L. Engwall,
                                                Executive Director.
                                 ______
                                 
                              Minnesota Farm Bureau

                                                      July 17, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    Thank you for holding a hearing on H.R. 424, the Gray Wolf State 
Management Act in the House Natural Resources Committee. Minnesota Farm 
Bureau supports this legislation and appreciate your leadership in 
continuing the discussion on this critical issue.
    On December 19, 2014, U.S. District Judge Beryl Howell immediately 
reinstated Endangered Species Act (ESA) protections for gray wolves in 
Minnesota, Michigan, and Wisconsin. This decision now leaves farmers, 
ranchers, and pet owners helpless in protecting their animals against 
wolf attacks. Farm Bureau members continuously share devastating 
stories about the inability to protect their livestock from these 
vicious attacks with no option other than to watch their animals die.
    In order to meet delisting criteria set by USFWS, the gray wolf 
population needed to be between 1,251 and 1,400. Once turned over to 
state management, Minnesota set a minimum population of 1,600 wolves. 
The state's current wolf population is now more than 2,400, which 
clearly far exceeds state and federal recovery goals. The State of 
Minnesota has done and will continue to do a superior job of monitoring 
the population to allow for a healthy population while also giving pet 
and livestock owners options to protect their animals, but management 
needs to be back under control of the state rather than the ESA. H.R. 
424 would help to strike this balance.
    Once again, thank you for holding a hearing on H.R. 424. If you 
have any questions on the impacts of wolves to agriculture in 
Minnesota, I would be happy to answer them.

            Sincerely,

                                                Kevin Paap,
                                                         President.
                                 ______
                                 
                            Minnesota Farmers Union

                                                      July 17, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the membership of the Minnesota Farmers Union (MFU) we 
wish to thank you from taking time to hear H.R. 424 authored by Rep. 
Collin Peterson. MFU is a strong supporter of this legislation that 
requires the Department of the Interior to reissue the final rule 
published on December 28, 2011, that removed the gray wolf in the 
Western Great Lakes Distinct Population Segment from the List of 
Endangered and Threatened Wildlife and that removed the designation of 
critical habitat for that wolf in Minnesota and Michigan.
    De-listing the gray wolf has been a top issue for our livestock 
farmers in the northern part of the state, as we have seen continued 
conflict between wolves and livestock farmers. MFU strongly believes 
that gray wolf numbers have adequately recovered in Minnesota. MFU also 
strongly believes that the Minnesota Department of Natural Resources 
(MNDNR) is ready and able to administer the gray wolf population 
through its current management plans. Minnesota has consistently topped 
the federal delisting goal of 1,250-1,400 with numbers exceeding 2,000 
wolves in recent years surveys.
    Again, MFU appreciates Rep. Peterson carrying this important 
legislation forward, and appreciates the committees time in hearing 
this legislation, and MFU urges its passage.

            Regards,

                                              Gary Wertish,
                                                         President.
                                 ______
                                 
                             National Farmers Union

                                                      July 18, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of National Farmers Union's roughly 200,000 family 
farmers, ranchers, and rural residents, I would like to thank you for 
scheduling a hearing to consider the Gray Wolf State Management Act of 
2017 introduced by Congressman Collin Peterson (D-MN).
    Listing Gray Wolves under ESA forces farmers and ranchers into an 
untenable position. Farmers and ranchers should be able to defend 
against predatory animals, such as the Gray Wolf, on their land. The 
Gray Wolf State Management Act of 2017 prevents farmers and ranchers 
from having to choose between their livelihood and federal punishment. 
Our support for this bill comes directly from our member approved 
policy. Our members believe they should have the right to defend 
themselves and their livestock from predatory animals, even if the 
animal is listed under ESA. Our members hold that these animals should 
be dealt with in the most effective, safe, economical and humane means.
    Should you or your staff require any additional assistance on this 
matter, NFU stands ready to assist.

            Sincerely,

                                             Roger Johnson,
                                                         President.
                                 ______
                                 
  Public Lands Council & National Cattlemen's Beef 
                                        Association

                                                      July 18, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Re: Livestock Industry Support for H.R. 424, the Gray Wolf State 
        Management Act of 2017

    Dear Chairman Bishop and Ranking Member Grijalva:

    The Public Lands Council (PLC) and the National Cattlemen's Beef 
Association (NCBA) support H.R. 424, the Gray Wolf State Management Act 
of 2017.
    PLC is the only national organization dedicated solely to 
representing the roughly 22,000 ranchers operating on federal lands. 
NCBA is the nation's oldest and largest national trade association for 
cattlemen and women, representing more than 170,000 cattle producers 
through direct membership and their state affiliates. PLC and NCBA are 
producer directed and in partnership with our state affiliates work to 
preserve the heritage and strength of the industry by providing a 
stable business environment for our members.
    The livestock industry has numerous concerns with the gray wolf 
being listed as an endangered species. Unlike most species listed under 
the ESA, wolves pose a serious threat to wildlife, humans, private 
property--namely, livestock--even in cases where wolf populations are 
sparse. The result is economic hardship and the possibility of a need 
to list other species. Secondly, the U.S. Fish and Wildlife Service has 
already determined the wolf is no longer warranted for listing under 
the ESA.
    H.R. 424, introduced by Representative Collin Peterson calls for 
the Secretary of the Interior to reinstate two U.S. Fish and Wildlife 
Service decisions that delisted the gray wolf from the endangered 
species list in the Great Lakes Region and Wyoming, allowing the states 
to continue to manage the wolf populations, as they have successfully 
done for several years. Relisting the species undermined the good work 
that has taken place on the ground, and unnecessarily takes away the 
states right to manage wildlife populations within their borders. It 
also takes away the ability for livestock producers to protect their 
herds, putting their livelihood and economic stability in jeopardy. 
H.R. 424, is a bipartisan, common sense approach to management of 
species, which promotes cooperation between the USFWS, state wildlife 
agencies, and local stakeholders.
    PLC and NCBA have been continually involved in ESA related 
activities. Our associations have submitted comments in partnership 
with our state affiliate organizations on the Gray and Mexican Wolves, 
Sage Grouse, Lesser Prairie Chicken, and the Black Footed Ferret to 
name a few. For the last two years, we have been fully engaged with the 
Western Governors Association and the ESA Initiative led by Governor 
Matt Mead of Wyoming. It is crucial for the livestock industry to be 
engaged to the fullest extent possible, in order to ensure that the 
nation's livestock producers, who provide food and fiber for the nation 
and world, are protected from harmful and unwarranted listings under 
the ESA.
    PLC and NCBA applaud the efforts of Representative Peterson and 
appreciate the opportunity to provide our input on behalf of our 
members--the nation's food and fiber producers. We encourage members of 
the Committee to support this positive and proactive piece of 
legislation.

            Sincerely,

        Dave Eliason, President,      Craig Uden, President,
        Public Lands Council          Nat'l. Cattlemen's Beef Assoc.
                                 ______
                                 
                      Rocky Mountain Elk Foundation

                                                      July 13, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Re: July 19, 2017 Hearing on H.R. 424

    Dear Chairman Bishop and Ranking Member Grijalva:

    The Rocky Mountain Elk Foundation (RMEF) would like to thank you 
for scheduling the July 19 hearing on H.R. 424, the Gray Wolf State 
Management Act of 2017.
    This bill would require the U.S. Department of Interior to reissue 
its 2011 final rule removing the gray wolf in the Western Great Lakes 
states from federal protection and the 2012 final rule removing the 
gray wolf in Wyoming from federal protection. Gray wolves have exceeded 
recovery goals in these states and no longer require federal 
protection.
    RMEF expects a decision in the next few months from the Washington, 
D.C. Circuit Court regarding the appeal to the Interior Department's 
2011 final rule. We are an intervenor in this case and are concerned 
the court may issue an unfavorable ruling, preventing the U.S. Fish and 
Wildlife Service from removing gray wolves in the Western Great Lakes 
states from the list of threatened and endangered species until they 
are deemed recovered throughout their entire historic range. This 
legislation would prevent further judicial review of the 2011 final 
rule. Passage of H.R. 424 in advance of the court's decision would make 
it a moot point. State management of wolves would be restored 
immediately and further litigation would be avoided. It is imperative 
Congress act without delay to pass this important legislation.
    Gray wolves have had a significant impact on elk, deer, other 
wildlife and livestock. We remain confident wildlife agencies in these 
states, through public hunting and trapping, will be able to strike a 
balance for gray wolf and ungulate population management.
    Thank you for the opportunity to comment on this important 
legislation.

            Sincerely,

                                               David Allen,
                                                   President & CEO.
                                 ______
                                 
              United States Cattlemen's Association

                                                      July 19, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the United States Cattlemen's Association (USCA), 
thank you for holding the upcoming legislative hearing on Congressman 
Peterson's ``Gray Wolf State Management Act of 2017,'' H.R. 424, taking 
place Wednesday, July 19th at 10:00 a.m.
    USCA supports this practical and bipartisan legislation that 
removes the gray wolf from the List of Endangered and Threatened 
Wildlife and returns management of the gray wolf population in the 
Western Great Lakes District and Wyoming to state control. The current 
listing of the gray wolf leaves farmers and ranchers in those states 
without a legal avenue to protect their livestock from problem wolves. 
The states are best positioned to balance the long-term conservation of 
a viable gray wolf population with the interests of farmers and 
ranchers in protecting their livelihood. This bill prevents judicial 
activism from undermining the U.S. Fish and Wildlife Service's (FWS) 
science-based determination that the impacted states demonstrated 
suitable management plans of the gray wolf population.
    Thank you again for holding the upcoming hearing and we look 
forward to helping this bill become law.

            Sincerely,

                                              Kenny Graner,
                                                         President.
                                 ______
                                 
               Upper Peninsula Trappers Association

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    Thank you so much for holding a hearing on H.R. 424 and for 
expressing support for this bill. Here in the Upper Peninsula of 
Michigan we are over-run with wolves and our Department ofNatural 
Resources can't do anything about it.
    We had a couple of real rough winters that severely cut back our 
deer population and now the wolves are getting the survivors. Enough 
deer are gone in some areas that the wolves have turned to eating moose 
calves--and get them as soon as they are dropped. Our moose were 
getting close to allowing a limited hunt until our wolves exploded. Now 
they are struggling to survive!
    Our Wolf Advisory Committee was told that when our wolves reached 
200 animals that they could and would be delisted. Now they are just 
shy of 700 and we still can't get them delisted, so they can be managed 
by the State of Michigan! We can't even imagine how people who have 
never even seen a wolf can have more say in wolf management than our 
very capable DNR here in Michigan.

            Thanks again,

                                             Bob Steinmetz,
                                                      NTA Director.
                                 ______
                                 
                  Wisconsin Cattlemen's Association

                                                      July 17, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

Re: H.R. 424--Gray Wolf State Management Act of 2017

    Dear Chairman Bishop and Ranking Member Grijalva:

    The Wisconsin Cattlemen's Association thanks the House Committee on 
Natural Resources for showing support and granting a hearing for H.R. 
424--Gray Wolf State Management Act of 2017.
    In the United States, the U.S. Fish and Wildlife Service holds 
complete control over the wolf management system. Once the gray wolf is 
delisted by the U.S. Fish and Wildlife Service, Wisconsin's Department 
of Natural Resources' plan will be reinstated. As a part of the wolf 
management plan, the Department of Natural Resources supervised a 
hunting and trapping season for the gray wolf. Under this system, all 
of the concerned parties for agriculture, environmental communities and 
government agencies have come together to formulate this plan. 
According to this plan, the state of Wisconsin has the capacity to home 
350 wolves. The most recent count in the winter of 2016 shows our state 
hosts over 1,000 gray wolves and counting.
    It is imperative we establish a management program to control the 
escalating wolf population in our state. Depredations of livestock in 
Wisconsin have escalated at a very rapid rate as our wolf population 
has grown. If this continues at its alarming fashion, we will witness 
Wisconsin's vibrant livestock industry, of which totals 88.3 billion 
dollars annually, perish before our eyes.
    Agriculture has always been the leading industry in the state of 
Wisconsin. Being home to more than 10,000 beef operations and over 
9,000 dairy farms with a total of animals exceeding 1.5 million head, 
it remains our goal to continue to provide a sustainable industry for 
future generations. It is imperative that the gray wolf population is 
under control to both protect our family farms and an industry that is 
so influential to the success of Wisconsin.
    Thank you for your time and consideration of H.R. 424--Gray Wolf 
State Management Act of 2017.

            Sincerely,

                                                Terry Quam,
                                        Legislative Representative.
                                 ______
                                 
                   Wisconsin Farm Bureau Federation

                                                      July 18, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    On behalf of the Wisconsin Farm Bureau Federation, I am writing to 
offer our thanks and support of H.R. 424, the Gray Wolf Delisting Bill. 
We appreciate the committee's support of this legislation by scheduling 
a hearing.
    This legislation would reinstate the U.S. Fish and Wildlife 
Service's (FWS) order to remove the gray wolf in Wisconsin from the 
federal Endangered Species List. It also provides legal clarity for the 
gray wolf's status on the Endangered Species list.
    Although wolf numbers in our state have long recovered past the 
point of needing federal protection, lawsuits from animal rights groups 
have kept this issue in a back-and-forth legal limbo. The latest legal 
ruling means that Wisconsin farmers do not have the authority to 
protect their livestock from wolves, even as they are being attacked.
    Wisconsin's most recent population estimation of almost 900 gray 
wolves far exceeds the state Department of Natural Resources' targeted 
management goal of 350. The number of wolves in our state also exceeds 
the USFWS criteria to federally delist wolves here. Wisconsin's 
management plan has successfully followed a science-based approach 
designed to maintain the prescribed wolf population of 350 since 2012.
    The experts at the USFWS have determined Wisconsin's wolf 
population recovered to a level that no longer requires it to be listed 
as endangered. Management of the wolf population should therefore be 
restored to the Wisconsin DNR. Farmers should have the ability to 
protect their livestock from wolves during hunting or trapping seasons, 
or during the act of attacking livestock.
    Thank you, again for your support of H.R. 424 and providing time 
for it to receive a hearing in the House Committee on Natural 
Resources.

            Sincerely,

                                            James A. Holte,
                                                         President.

                                 ______
                                 

    This is a major problem. It has been a problem for quite a 
while for my constituents, and it requires an immediate 
solution. The states, not the Federal Government, are best 
equipped to manage the gray wolf populations by balancing 
safety, economic, and species management issues. So, I urge my 
colleagues to vote this bill out of Committee, and I appreciate 
your time.
    And I also would submit that the goal for the gray wolf 
that was originally established was 1,500 in Minnesota, and it 
is 2,423 as of last year. It was 100 in Wisconsin, it is 
currently 689. And it was 100 in Michigan, and it is currently 
678. So, there is no justification for what they did, and these 
wolves have eaten a lot of sheep and cattle, and caused a lot 
of havoc. We need this fixed.
    So, I thank you, Mr. Chairman, for the opportunity to be 
here, and hope that we can move this bill forward. I yield 
back.

    [The prepared statement of Mr. Peterson follows:]
Prepared Statement of the Hon. Collin C. Peterson, a Representative in 
            Congress from the State of Minnesota on H.R. 424
    Chairman Bishop, Ranking Member Grijalva, and distinguished members 
of the Committee, thank you for the invitation to speak in support of 
my bill, the Gray Wolf State Management Act of 2017.
    In 2011, the U.S. Fish and Wildlife Service determined that gray 
wolves in Minnesota, Wisconsin, and Michigan no longer required Federal 
protections based on two main factors. First, gray wolf population 
numbers in each state remained well above established recovery goals 
set by the 1992 Recovery Plan for the Eastern Timber Wolf. Second, the 
wolf management plans established by each state provided for the long-
term conservation of a viable wolf population in the region. While 
under state management from 2011 to 2014, gray wolf populations 
remained well above recovery goals.
    At the end of 2014, a single judge sitting in a Washington, DC 
courtroom created a big mess by somehow coming to the conclusion that 
gray wolves in Minnesota, Wisconsin, and Michigan need Federal 
protection. This was done despite the scientific evidence conducted by 
the U.S. Fish and Wildlife Service that gray wolf populations recovered 
and thrived.
    This judge's decision suddenly put farmers and ranchers throughout 
Minnesota, Wisconsin, and Michigan in a very difficult situation. 
Currently, it is illegal for a farmer to shoot a gray wolf that is 
actively attacking cattle or pets. When attacks occur, my constituents 
are forced to choose between following the law or protecting their 
livestock and livelihoods.
    Wyoming went through a similar situation when a judge single-
handedly relisted wolves in 2014. In March 2017, the D.C. Circuit Court 
of Appeals reversed that court decision and wolves are once again under 
Wyoming state management.
    My bill returns management of gray wolves in Minnesota, Wisconsin, 
and Michigan from the Federal Government back to the states and doesn't 
allow for further judicial review. The bill also includes Wyoming to 
protect the state from further judicial over-reach. The courts have 
created a big enough mess already. But it is important for you to note 
that my bill does not prevent the U.S. Fish and Wildlife Service from 
relisting gray wolves in the future.
    I would like to submit for the record supportive letters from 
several organizations and technical documents from the U.S. Fish and 
Wildlife Service and the Minnesota Department of Natural Resources.
    This is a major problem that requires an immediate solution. The 
states--not the Federal Government--are best equipped to manage their 
gray wolf populations by balancing safety, economic, and species 
management issues. I urge my colleagues to vote this bill out of 
Committee and I appreciate the Committee's time.

                                 ______
                                 

    The  Chairman. I thank you for that. Those things you want 
added to the record, if you make sure the Clerk gets them, 
without objection they will be added.
    You have obviously stated why we still need to regulate 
those wolves. You went past your goal, you have to stick at the 
goal. You go the 1,500, the 100, and you got it there. Sarcasm, 
sorry.
    Mr. Olson, you are up.

STATEMENT OF THE HON. PETE OLSON, A REPRESENTATIVE IN CONGRESS 
                    FROM THE STATE OF TEXAS

    Mr.  Olson. Chairman Bishop, Ranking Member Grijalva, and 
members of the Committee, thank you for having me here today 
and for exploring these important issues.
    Texans value their open spaces. We value the land and the 
animals, large and small, on it. Texas is defined by that 
heritage, and it is a legacy I intend to leave to my children. 
And I daresay that an expert on your second panel, the Texas 
Comptroller of Public Accounts, my former Senator from Texas 
District 18, and my dear friend, Glenn Hegar, agrees and may be 
coaxed into giving a thumbs up.
    We need to protect our endangered species, but we need to 
do it in a smart way. Arbitrary deadlines do not help. Neither 
do large, sweeping listings that threaten the communities and 
landowners who have been on that land since before the time 
that states like mine were created.
    That is why I want to thank you for taking a look at my 
bill, H.R. 717, the Listing Reform Act. My bill is designed to 
be part of the solution through a suite of changes you all are 
considering.
    First, my bill seeks to end arbitrary deadlines and make 
sure that the government acts as quickly as possible. As this 
Committee said in its 2014 report on ESA, and I quote, 
``Witnesses have testified that time frames provided currently 
under ESA are not feasible, and that groups are litigating not 
over whether species ought to be listed, but that the Federal 
Government can't comply with rigid 90-day or 12-month time 
frames set by ESA.''
    My bill also makes sure that de-listing petitions do not 
get punted to the end of the line. We have seen that with 
species like the grizzly bear, that de-listing petitions can 
drag on for years after a species is recovered and could be 
protected locally.
    My goal with this bill is to allow the Federal Government 
to triage listing decisions. Let's work on the petitions in a 
way that makes sense for the species, not just on arbitrary 
deadlines that leave us open to lawsuits.
    My bill also adds a new class of listing determinations. 
Under current law, the government may say that listing a 
species might be warranted, but has to be precluded for the 
time being. My bill expands on that, and says the listing of a 
species that might be threatened can be precluded if listing 
would lead to certain serious damages. But if new information 
comes in, or if the species is slipping toward endangered 
status, all bets are off. In the interim, states and locals can 
continue to manage their resources and protect species without 
the Federal hammer coming down.
    I do not want to see species go extinct, but I want to 
achieve a balance that gives our wildlife the protection they 
deserve in a way that protects local communities too. We can do 
both. We can update the law without endangering our legacy for 
the next generation. I think that H.R. 717 is a step in that 
direction.
    Thank you, Mr. Chairman, I yield back the balance of my 
time.

    [The prepared statement of Mr. Olson follows:]
Prepared Statement of the Hon. Pete Olson, a Representative in Congress 
                  from the State of Texas on H.R. 717
    Chairman Bishop, Ranking Member Grijalva, and members of the 
Committee, thank you for having me today and for exploring this 
important issue.
    Texans value their open spaces. We value the land and the animals 
large and small we have on it. Texas is defined by that heritage, and 
it is a legacy I intend to leave to my children.
    We need to protect our endangered species, but we need to do it in 
a smart way. Arbitrary deadlines do not help. Neither do sweeping 
listings that threaten the communities and landowners who have been on 
that land since before the time states like mine were created.
    That is why I thank you for taking a look at H.R. 717, the Listing 
Reform Act. My bill is designed to be part of a suite of changes you 
all can consider.
    First, it seeks to end arbitrary deadlines and make sure that the 
government acts as quickly as is possible. As this Committee said in 
its 2014 report on the ESA, ``Witnesses have testified that time frames 
provided currently under ESA are not feasible, and that groups are 
litigating not over whether a species ought to be listed, but that the 
Federal Government can't comply with rigid 90-day or 12-month time 
frames set by ESA.'' \1\
---------------------------------------------------------------------------
    \1\ Endangered Species Act Congressional Working Group ``Report, 
Findings and Recommendations'' (2014).
---------------------------------------------------------------------------
    It also makes sure that de-listing petitions don't get punted to 
the end of the line. As we have seen with species like the grizzly,\2\ 
these de-listing petitions can drag on for years after a species is 
recovered and could be protected locally.
---------------------------------------------------------------------------
    \2\ Natural Resources Committee, ``Bishop: Grizzly Delisting 
Process Emblematic of Need for ESA Reform'' (2017).
---------------------------------------------------------------------------
    My goal with this bill is a chance for the Federal Government to 
triage listing decisions. Let's work through the petitions in a way 
that makes sense for the species, not just on arbitrary deadlines that 
leave us open to lawsuits.
    The bill also adds a new class of listing determinations. Under 
current law, the government can say that listing a species might be 
warranted but has to be ``precluded'' for the time being. My bill 
expands on that and says that the listing of a species that might be 
threatened can be ``precluded'' if listing would lead to certain 
serious damages. But if new information comes in or if the species is 
slipping toward endangered status, all bets are off. In the interim, 
states and locals can continue to manage their resources and protect 
species without the Federal hammer coming down.
    I do not want to see species go extinct. But, what I am trying to 
achieve is a balance that gives our wildlife the protection they 
deserve in a way that protects local communities too. We can do both. 
We can update the law without endangering our legacy for the next 
generation. I think H.R. 717 is a step in that direction.

    I thank you, Mr. Chairman, and yield back the balance of my time.

                                 ______
                                 

    The  Chairman. Thank you. And we will invite you when we 
are done with this panel to join us up here, where a spot is 
available.
    Mr. Gohmert, you are recognized for 5 minutes.

   STATEMENT OF THE HON. LOUIE GOHMERT, A REPRESENTATIVE IN 
                CONGRESS FROM THE STATE OF TEXAS

    Mr.  Gohmert. Thank you, Mr. Chairman, and thank you for 
allowing me to speak on H.R. 2603, the SAVES Act.
    First, I would like to thank the Committee for considering 
this legislation, and for the staff for all their hard work, 
and especially my dear friend, Representative Brian Babin, who 
has worked hand in hand with me on this vital bill.
    This important legislation will remove duplicative and 
unnecessary regulation, reduce government waste, but, most 
important, it will enhance conservation.
    At the time it was originally enacted, the Endangered 
Species Act's inclusion of non-native species was well-
intentioned, as incipient international regulatory bodies, such 
as the Convention on International Trade in Endangered Species, 
which sought to encourage international protections, lacked 
political capital.
    However, like many other aspects of the ESA, the inclusion 
of non-native species is outdated, overly burdensome, and, in 
fact, works against the very intent of the ESA. Instead of 
promoting conservation of these international species, this 
redundant regulation hampers significant non-governmental 
resources in our country genuinely seeking to enhance 
conservation of non-native endangered species through captive 
breeding programs.
    By restricting interstate movement, listing non-native 
species under the ESA renders properly conducted captive 
breeding a near impossibility. According to the American 
Federation of Aviculture and their more than 5,000 members, if 
a collection manager in Missouri would like to bring a new 
bloodline into their macaw collection from a collection in 
Pennsylvania, current regulations are so onerous as to bring 
that plan to a full stop.
    As the Zoological Association of America notes, 
conservationists often rely on the ability to move individual 
animals among collections to best maintain a robust captive 
population and to provide the best opportunities for successful 
breeding of endangered species. The onerous and prohibitive 
regulation of captive bred, non-native species under the ESA is 
counter-productive to conservation efforts.
    Such issues are nothing new for the ESA. Time and time 
again in the modern world, we see the well-intentioned 
legislation pit the Federal Government against the very private 
citizens who have a vested interest in preserving endangered 
species.
    Dr. Janice Boyd of The Parrot Fund states so clearly, ``the 
ESA simply does not deliver conservation benefits to non-native 
species.''
    To give a personal example of what got my attention is when 
a Texan notified me, a conservationist, that he had a number of 
species, as a conservationist, allowed--they had to have 
Federal permit, Federal authorization, but they were notified 
that a breed of antelope they had from Africa was extinct in 
Africa. And, therefore, they were going to take over their land 
and move to have it listed as endangered in the United States.
    So, the American conservationists all over the country that 
had bred thousands and thousands of this now-extinct breed sent 
hundreds of couples over to Africa to reinstate them. But 
because of the threat of the Federal Government to take over 
control of these conservationists' land, they had to get rid of 
all of those they had. Thus, once again, jeopardizing the very 
species that we were supposed to be protecting under this bill.
    The unfortunate reality of the ESA is that it continuously 
burdens commerce and various industries. As the National 
Association of Aquaculture alerted me just a couple of weeks 
ago, the National Marine Fisheries Service posted a notice 
seeking public comment on a proposed listing of a non-native 
giant clam. Several giant clam species are in the marine 
aquarium trade, and U.S.-owned farms in the Pacific are 
successfully producing these animals. These clams should not be 
listed, and if they are, the farms producing them will decline 
as interstate movement and commerce will be catastrophically 
impacted. How is this promoting conservation of the species?
    Removing unnecessary, outdated, and redundant regulatory 
authority over interstate movement of non-native, endangered 
species--and this is very important--that are alive--it is not 
going to help the trade of dead carcasses--but by removing them 
from the listing authority of ESA will enhance conservation, 
and that is why we are doing it. I yield back.

    [The prepared statement of Mr. Gohmert follows:]
   Prepared Statement of the Hon. Louie Gohmert, a Representative in 
             Congress from the State of Texas on H.R. 2603
    Good morning, and thank you for allowing me to speak on H.R. 2603, 
the SAVES Act. First, I'd like to thank the Committee for considering 
this legislation, staff, for all their hard work, and, especially, my 
dear friend Rep. Brian Babin who has worked hand in hand with me on 
this vital bill.
    This important legislation will remove duplicative and unnecessary 
regulation, reduce government waste, and enhance conservation.
    At the time it was originally enacted, the Endangered Species Act's 
(ESA) inclusion of non-native species was well-intentioned, as 
incipient international regulatory bodies, such as the Convention on 
International Trade in Endangered Species (CITES) which sought to 
encourage international protections, lacked political capital. However, 
like many other aspects of the ESA, the inclusion of non-native species 
is outdated, overly burdensome, and, in fact, works against the very 
intent of the ESA. Instead of promoting conservation of these 
international species, this redundant regulation hampers significant 
non-governmental resources in our country genuinely seeking to enhance 
conservation of non-native endangered species through captive breeding 
programs.
    By restricting interstate movement, listing non-native species 
under the ESA renders properly conducted captive breeding a near 
impossibility. According to the American Federation of Aviculture and 
their more than 5,000 members, if a collection manager in Missouri 
would like to bring a new bloodline into their macaw collection from a 
collection in Pennsylvania, current regulations are so onerous as to 
bring that plan to a full stop.
    As the Zoological Association of America notes, conservationists 
often ``rely on the ability to move individual animals among 
collections to best maintain a robust captive population and to provide 
the best opportunities for successful breeding of endangered species. 
The onerous and prohibitive regulation of captive bred, non-native 
species under the ESA is counter-productive to conservation efforts.''
    Such issues are nothing new with the ESA. Time and time again in 
the modern world, we see the well-intentioned legislation pit the 
Federal Government against the very private citizens who have a vested 
interest in preserving endangered species. As the U.S. Association of 
Reptile Keepers asks: ``How is making it illegal to share education 
about ESA-listed and non-native spotted pond turtles by banning sale of 
domestically hatched turtles across state lines helpful to conservation 
of the species?'' As Dr. Janice Boyd of The Parrot Fund states so 
clearly: ``The ESA simply does not deliver conservation benefits to 
non-native species.''
    The unfortunate reality of the ESA is that it continuously burdens 
commerce in various industries. As the National Association of 
Aquaculture alerted me, just a couple weeks ago, the National Marine 
Fisheries Service posted a notice seeking public comment on a proposed 
listing for non-native giant clams. Several giant clam species are in 
the marine aquarium trade and U.S.-owned farms in the Pacific are 
successfully producing these animals. The clams should not be listed, 
and if they are, the farms producing them will surely decline as 
interstate movement and commerce will be catastrophically impacted. How 
is that promoting conservation of the species?!
    Removing unnecessary, outdated, and redundant regulatory authority 
over interstate movement of non-native endangered species by removing 
them from the listing authority of the ESA will enhance conservation 
and reduce the burden these duplicative regulations have on the 
industry. Please join me in supporting this common-sense solution to 
conservation of endangered species.

                                 ______
                                 
    The  Chairman. Thank you.
    Mr. Huizenga, you are recognized for 5 minutes.

   STATEMENT OF THE HON. BILL HUIZENGA, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr.  Huizenga. Well, thank you, Mr. Chairman, Ranking 
Member Grijalva, and members of the Committee, for holding this 
hearing. I actually had the privilege of being part of a 
working group a couple of years ago that looked at the ESA, and 
I can attest it does need reform.
    My statement today is in support of common-sense 
legislation that makes the Endangered Species Act consistent 
with current law in other areas of government litigation.
    H.R. 3131, the Endangered Species Litigation Reasonableness 
Act, reforms the ESA litigation process while enhancing 
wildlife preservation, improving government efficiency, and 
protecting taxpayer dollars.
    For too long, litigating attorneys representing non-
governmental entities have taken advantage of the Endangered 
Species Act, raking in millions of dollars in taxpayer-funded 
money. In many cases, attorney billing rates have climbed as 
high as $400, $500, or even $750 an hour, with hardworking 
American taxpayers left footing the bill. In times of tight, 
fiscal budgets and escalating national debt, taxpayer dollars 
should be prioritized for the protection and recovery of 
species, not warrantless litigation.
    Let's show taxpayers we respect their hard work by 
respecting their taxes. Records from the Dept. of Justice 
confirm the exploitation and abuse of the Endangered Species 
Act by special interest groups, including at least two 
attorneys who have accrued upwards of $2 million in legal fees 
through ESA litigation. These exorbitant payouts, funded by the 
American taxpayer, only impede efforts to achieve the common 
goal of protecting species and habitats.
    Now, how is this addressed in other areas of government 
litigation? Well, currently, the Equal Access to Justice Act, 
as was brought up by Mr. Gohmert earlier, limits the hourly 
rate for awards of fees to prevailing attorneys to $125 an hour 
in most circumstances. Unfortunately, no such fee cap currently 
exists in ESA citizen suits.
    Quite simply, this bill seeks to correct the current 
Endangered Species Act anomaly that incentivizes attorneys to 
spend time in court needlessly arguing, while earning inflated 
rates at taxpayers' expense. This bill would ensure that all 
Americans who sue the Federal Government are entitled to the 
same reasonable limits when it comes to being awarded taxpayer-
funded attorney's fees.
    Veterans, small businesses, and Federal benefit recipients 
go through this right now. And, frankly, Mr. Chairman, if it is 
good enough for our citizens, it ought to be good enough for 
our flora and our fauna. It is past time to apply this sensible 
cap to ESA suits, as well.
    And, in fact, there was a discussion about this limiting 
access to the courts. There is no limit to access with this 
particular issue. This is a matter of stewardship, of the 
resources of hardworking taxpayers, in my mind. Rather than 
these hardworking taxpayer dollars lining the pockets of trial 
attorneys or special interest groups that have made a business 
by suing the Federal Government, these scarce resources would 
be directed toward making the law more efficient and effective 
for both species and people.
    This would save millions of dollars, while not restricting 
access to the court system at all. If it truly is about 
protecting our flora and our fauna, then this reasonable 
reimbursement rate should be just fine. If it is about making 
money, well, I think you see the opposition.
    Mr. Chairman, I strongly believe that this straightforward 
legislation is a much-needed common-sense update to the ESA, 
and makes the law work better for all parties. I would like to 
thank the Committee for scheduling this hearing on H.R. 3131. 
It is my hope that this Committee will soon continue to take 
further action on this important legislation.
    With that, I yield back.

    [The prepared statement of Mr. Huizenga follows:]
   Prepared Statement of the Hon. Bill Huizenga, a Representative in 
            Congress from the State of Michigan on H.R. 3131
    Thank you Chairman Bishop, Ranking Member Grijalva, and members of 
the Committee for holding this hearing on much needed reforms to the 
Endangered Species Act.
    My statement today is in support of common-sense legislation that 
makes the Endangered Species Act consistent with current law. H.R. 
3131, the Endangered Species Litigation Reasonableness Act, reforms the 
ESA litigation process while enhancing wildlife preservation, improving 
government efficiency, and protecting taxpayer dollars.
    For too long, litigating attorneys representing non-governmental 
entities, have taken advantage of the Endangered Species Act, raking in 
millions of dollars in taxpayer-funded money. In many cases, attorney 
billing rates have climbed as high as $400, $500, or even $750 per 
hour, with hardworking American taxpayers left footing the bill. In 
times of tight fiscal budgets and escalating national debt, taxpayer 
dollars should be prioritized for the protection and recovery of 
species, not warrantless litigation.
    Records from the Department of Justice confirm the exploitation and 
abuse of the Endangered Species Act by special interest groups--
including at least two attorneys who have accrued upwards of $2 million 
in legal fees through ESA litigation. These exorbitant payouts--funded 
by the American Taxpayer--only impede efforts to achieve the common 
goal of protecting species and habitats.
    Currently, the Equal Access to Justice Act limits the hourly rate 
for awards of fees to prevailing attorneys to $125 per hour in most 
circumstances. Unfortunately, no such fee cap currently exists for ESA 
citizen suits. Quite simply, this bill seeks to correct the current 
Endangered Species Act anomaly that incentivizes attorneys to spend 
time in court arguing for inflated rates at the taxpayers' expense.
    The bill would ensure that all Americans who sue the Federal 
Government, such as veterans, small businesses, and Federal benefit 
recipients, are entitled to the same, reasonable limits when it comes 
to being awarded taxpayer-funded attorney's fees.
    Rather than taxpayer dollars lining the pockets of trial attorneys 
or special interest groups that have made a business by suing the 
Federal Government under ESA, these scarce resources should be directed 
toward making the law more efficient and effective for both species and 
for people.
    I strongly believe that this straightforward legislation is a much 
needed common-sense update to the ESA that makes the law work better 
for all parties.
    I would like to thank the Committee for scheduling this hearing on 
H.R. 3131. It is my hope that the Committee will soon continue to take 
further action on this important legislation.
                                 ______
                                 
    The  Chairman. Thank you. I appreciate that. Once again, I 
will make the same offer to you, Mr. Huizenga. If you would 
like to stay here, I will ask unanimous consent that both Mr. 
Olson and Mr. Huizenga can join us on the dais.
    Without objection, so ordered. Find a seat where there is 
no one sitting, and you are part of us.
    I will now bring the second witness panel up here. I will 
ask the Clerk to change the cards around so you can see where 
you are supposed to be. We will introduce you in a second.
    [Pause.]
    The  Chairman. All right. As you are getting settled in 
there, I would like to introduce this panel to you. I would ask 
the gentleman from Texas, Mr. Gohmert, if he would be happy or 
willing to introduce the Comptroller from the state of Texas to 
the Committee.
    Mr.  Gohmert. Honored to do so. It is my pleasure to 
welcome to the hearing my friend, fellow Texan, and, just as 
importantly, a fellow Texas Aggie, the 36th Texas Comptroller 
of Public Accounts, Glenn Hegar.
    Mr. Hegar worked diligently in Texas to increase government 
efficiency, while reducing government waste: knowledge that 
will prove vital to today's hearing.
    Prior to becoming Texas Comptroller, Mr. Hegar served in 
the Texas House of Representatives and the Texas Senate. So, 
welcome, and thank you for joining us today.
    The  Chairman. Thank you.
    Mr.  Gohmert. Thank you, Mr. Chair.
    The  Chairman. I appreciate you being here. Let me 
introduce Mr. Greg Sheehan, who is the Deputy Director of the 
U.S. Fish and Wildlife Service.
    Mr. Sheehan, before you came back to this place, you were 
the Director of the Utah Division of Wildlife, Natural 
Resources. I am happy to have you back here, where you can 
testify that, even though it is 100 degrees in Utah, which is 
hotter than right here, we don't have the damn humidity, and 
there is such a thing as dry heat. It does make a difference.
    Mr.  Sheehan. Thank you, Mr. Chairman.
    The  Chairman. I appreciate that. Mr. Jeff Corwin, I 
recognize and welcome you here. You are a biologist and host of 
ABC's Ocean Trek. Thank you for joining us.
    I am going to turn to the gentlelady from Wyoming, if she 
would like to introduce Mr. Willms, who is also on our panel.
    Ms.  Cheney. Thank you, Mr. Chairman, for the opportunity 
to introduce our Wyoming witness today.
    David Willms joined Wyoming Governor Matt Mead's staff in 
2015 to advise on endangered species and other natural resource 
matters. Before joining the Governor's office, David worked on 
endangered species issues as a field biologist, and then as an 
attorney in both the public and private sector.
    As a Senior Assistant Attorney General for the state of 
Wyoming, David represented the State Engineer's Office and the 
Game and Fish Department on issues involving myriad species 
from day-to-day wildlife management to complex matters 
involving Endangered Species Act implementation.
    In private practice, David engaged in a broad-based natural 
resource practice, where he worked on issues related to the 
lesser prairie chicken, greater sage-grouse, black-tailed 
prairie dogs, and a host of other species.
    As a field biologist, David has studied black-tailed 
prairie dogs and associated species in the Thunder Basin Region 
of northeast Wyoming, and his study area included both public 
and private land holdings.
    And David has really been at the forefront of Governor 
Mead's efforts to provide a bipartisan approach to reforming 
the Endangered Species Act, and we are very pleased to have you 
here today and to have the Committee have the opportunity to 
hear about the great things we are doing in Wyoming.
    Thank you, Mr. Chairman. I yield back.
    The  Chairman. Thank you. And I will ask Mr. Tipton if you 
would be kind enough to introduce our final witness, Mr. 
Holsinger from Colorado.
    Mr.  Tipton. Thank you, Mr. Chairman, and a pleasure to be 
able to introduce a fellow Coloradoan. I appreciate the 
opportunity to introduce Mr. Kent Holsinger, Founder and 
Managing Partner of Holsinger Law, LLC. It is a highly regarded 
law firm that specializes in land, wildlife, and water law.
    Since 2003, Kent has built an exceptional client base, 
including leading water, corporate, non-profit, and trade 
associations in Colorado and the West. Prior to that, he did 
serve for 4 years in the Colorado Department of Natural 
Resources.
    Mr. Holsinger, thanks for taking the time to join us here 
today.
    The  Chairman. Thank you, I appreciate that.
    I am going to remind the witnesses that your written 
testimony is already part of the record. You are going to be 
given 5 minutes of oral testimony right now.
    As I said to the other panel, you have to turn the mics on. 
When the timer hits 5 minutes, I will cut you off. Not trying 
to be rude, but we have a lot of you to go through.
    With that, I will turn, first of all, to Comptroller Hegar 
for your 5 minutes for your testimony.

   STATEMENT OF THE HON. GLENN HEGAR, COMPTROLLER OF PUBLIC 
                    ACCOUNTS, STATE OF TEXAS

    Mr.  Hegar. Thank you, Mr. Chairman, Members. It is an 
honor and a privilege to be here. I appreciate the opportunity 
to share our experience in working on ESA issues, and comment 
on the bills before you.
    I greatly appreciate the leadership of your colleagues in 
authoring these bills. As Comptroller, I serve as the chief 
steward of the state's finances, and administer a number of 
programs focused on the Texas economy. One of these programs 
works with stakeholders on practical, effective, science-based 
solutions to ESA challenges.
    The ESA is a powerful law that can be inflexible and 
costly, with far-reaching effects on local economies. It can 
threaten agriculture production, oil and gas exploration, real 
estate development, and many other important economic 
activities.
    States must be involved in an open, transparent process for 
reviewing and conserving species that also includes all 
stakeholders, both public and private. Engaging stakeholders is 
essential. This is especially true in states such as Texas, 
where more than 95 percent of all property is privately owned.
    In 2007, as a State Senator, I played an instrumental role 
in creating a stakeholder-driven process to conserve listed 
species in the Edwards Aquifer, which is the primary water 
source for more than 2 million people in south central Texas. 
Use of this aquifer was a source of contention among economic 
and environmental interests for more than 50 years.
    The program resolved the water dispute, while protecting 
the listed species in the aquifer. The Texas Legislature gave 
my current office initial ESA authority in 2009, and when I 
became Comptroller in 2015, I expanded our role, which now 
includes facilitating stakeholder and science-based 
collaborative programs, administering $15 million to fund 
species research, and also holding the permit for the Texas 
conservation plan for the dunes sagebrush lizard, which is 
found in the Permian Basin. Fish and Wildlife cited this plan 
as part of its 2012 decision not to list the species.
    Our work is done through open, transparent updates with 
stakeholders, work groups, compromising of landowners, 
industry, and environmental representatives, Fish and Wildlife, 
as well as the science community. We have identified three key 
areas for enhancing species conservation.
    First, state involvement in leadership provides more 
effective outcomes. States have the relationships and the 
infrastructure to work with landowners, communities, and 
industries, and access to research data, monitoring 
initiatives, and other resources that can lead to better 
listing decisions. In Texas, many agencies have expertise on 
conservation issues and support research related to endangered 
species.
    To ensure the Service can make the best informed decision, 
the ESA should require them to request and use all state agency 
information and participation, while implementing the law.
    A second key area for enhancing species conservation is 
science-based decision. Often relatively little is known about 
the species, providing for a poor basis for decisions that can 
have major economic consequences. The best way to ensure 
economically sound decisions are made is to ensure that science 
is good and current. Better decisions will have fewer impacts 
on state and local economies.
    Our office mainly focuses on the game-changing species, 
those species that if listed endangered could involve 
significant economic impacts. A few examples of the diversity 
of regions and stakeholders involved, we funded $3.6 million in 
research on 12 water mussel species. Listing of these species 
could affect the availability of municipal, industrial, and 
agricultural water use.
    Because of the large number of economic sectors that could 
potentially be affected across the state if the monarch 
butterfly is listed, we funded over more than $1 million in 
research to better understand the butterfly in Texas.
    Also, we supported in the Permian Basin and the Eagle Ford 
shale, two important areas of the state and also the Nation, we 
have funded over $2 million in research to identify the 
additional habitat areas for the species out there.
    A third key area for enhancing species conservation is that 
economic consideration must be part of the decision. There is a 
link between environmental protection and economic success. 
Communities and businesses often rely on the same resources for 
economic growth, such as clean water, that the species needs to 
remain viable. As written, the ESA has very little space for 
economic consideration, and this omission is remarkable, in 
light of the potential impacts on our natural resources.
    As the Services review species for listing, they must be 
able to take into account economic factors, especially when 
analyzing the scope, scale, and potential threats of these 
species. Engaging stakeholders is one of the best ways to 
gather this important economic data to make better informed 
decisions.
    The bills before you will increase the ability of the ESA 
to be more flexible, and make sure these three key areas are 
obtained. I thank you for the opportunity to be here.

    [The prepared statement of Mr. Hegar follows:]
Prepared Statement of the Hon. Glenn Hegar, Texas Comptroller of Public 
  Accounts on H.R. 717, H.R. 2603, H.R. 1274, H.R. 424, and H.R. 3131
                              introduction
    Thank you for this opportunity to share our views on these bills 
that offer improvements to the Endangered Species Act (ESA). I applaud 
the sponsors for their work toward solutions that can lead to a more 
science-driven process for species conservation and reduction in the 
regulatory burdens and costs for both landowners and businesses. I 
particularly appreciate the leadership of Representatives Gohmert and 
Olson in authoring two of these bills, which would be helpful not only 
to Texans, but for communities across the country.
    In my role as Texas Comptroller of Public Accounts, I serve as the 
chief steward of the state's finances, acting as tax collector, chief 
accountant, chief revenue estimator, and treasurer for all of state 
government, in addition to administering a number of other programs 
focused on the Texas economy. One of these programs focuses on working 
with community leaders, businesses, landowners, and other stakeholders 
to encourage, develop and implement practical, effective, science-based 
solutions to ESA challenges in Texas.
    The ESA is a powerful law that can be inflexible and costly, with 
far-reaching effects on local economies. It can threaten agricultural 
production, oil and gas exploration, real estate development, and many 
other important economic activities. It can involve burdensome and 
expensive requirements that may not have a significant nor a lasting 
beneficial impact on species conservation.
    I believe states need, and must be involved in, an open, 
transparent process for reviewing and conserving species that includes 
all stakeholders, both public and private. Engaging stakeholders is 
essential to getting acceptance and buy in with respect to the ESA. 
This is especially true in states such as Texas, where more than 95 
percent of all property is privately owned. Through collaborative work 
with other state agencies, universities, local communities, 
environmental organizations, and industry stakeholders, we have 
developed unique expertise in how state involvement in ESA issues can 
facilitate species conservation while maintaining local economic health 
and diversity.
    With my time today, I'd like to share examples of our experience 
that highlight the value of state involvement in the ESA decision-
making process, through the gathering of additional scientific data as 
well as information on economic impacts. The bills under review today 
expand the states' ability to become involved in ESA decisions, 
allowing for the use of more complete science in species reviews, and 
providing an opportunity to balance the requirements of species 
management with the unique economic needs of affected communities.v
                               background
    As a sixth-generation Texan from a farming family, I've spent much 
of my time in public service focused on natural resource and private 
property concerns. My direct experience with endangered species issues 
began before my current role as Comptroller. In 2007, as a State 
Senator, I created a stakeholder-driven process to develop a plan to 
conserve listed species in the Edwards Aquifer and maintained an active 
role to assist the stakeholders as they worked through an array of 
extremely difficult issues. This aquifer is the primary water source 
for more than 2 million people in south-central Texas, serving 
domestic, agricultural, industrial, and recreational needs. Use of this 
aquifer was a source of contention among these various interests for 
more than 50 years.
    This stakeholder-driven process led to the successful creation of a 
Habitat Conservation Plan (HCP) that resolved the water dispute while 
providing protection for listed species in the aquifer. This program 
received a 2013 U.S. Fish and Wildlife Service (FWS) Partners in 
Conservation Award for its success in using collaboration and 
partnership to address endangered species and water-resource issues.
    In 2009, the Texas Legislature gave the Comptroller's office its 
initial responsibilities in this area and when I became Comptroller in 
2015, I expanded our agency's existing endangered species work. Our 
office currently works on ESA-related issues in three areas:

    <bullet> Assisting state and local agencies and stakeholders. The 
            Comptroller's office works with state agencies, local 
            communities, private landowners, and businesses to 
            facilitate science-based, collaborative solutions to ESA 
            challenges. As part of this role, I serve as the presiding 
            officer of our state's Interagency Task Force on Economic 
            Growth and Endangered Species. The task force, created by 
            the Texas Legislature in 2009, helps state agencies, local 
            governments, communities, and other stakeholders work 
            within ESA restrictions as efficiently and cost-effectively 
            as possible.

    <bullet> Gathering new scientific data. Our agency administers $15 
            million in appropriations to fund research on little-known 
            species under consideration for ESA listing. We contract 
            with public state universities for scientific research on 
            species being considered for protection under the ESA, thus 
            filling gaps in our understanding of the species, while 
            also ensuring that Federal regulators have the most 
            complete and reliable information possible before making 
            decisions that can have a profound effect on private 
            property rights and local economies. This research is 
            reviewed through open, transparent discussions and updates 
            with stakeholder workgroups comprising of landowners, 
            industry and environmental representatives, FWS, and the 
            scientific community.

    <bullet> Managing conservation plans. The Comptroller's office 
            holds the permit for the Texas Conservation Plan (TCP) for 
            the dunes sagebrush lizard, whose habitat includes portions 
            of the Permian Basin, one of the Nation's most important 
            oil and gas production areas. This 30-year program offers 
            energy producers and landowners regulatory certainty in 
            exchange for implementing specific conservation measures 
            for the lizard. Since the TCP's implementation, fewer than 
            300 of 200,000 acres of its Texas habitat have been 
            disturbed by program participants. FWS cited the TCP 
            favorably in its 2012 decision not to list the species.

    Working with stakeholders, state and Federal agencies and 
researchers, the Comptroller's office has achieved numerous successes 
that demonstrate the value of state input and meaningful participation 
in ESA programs. To date, our efforts include:

    <bullet> Contributing scientific data that led to an FWS decision 
            not to list the Sprague's pipit, a migratory bird that 
            winters in large portions of south and west Texas with 
            agricultural and oil and gas operations.

    <bullet> Establishing a nationally recognized monarch butterfly 
            research program to gather data on the species and its 
            habitat across its migratory pathway in Texas. If the 
            monarch butterfly is listed under the ESA, communities and 
            numerous economic sectors across the country could be 
            significantly affected.

    <bullet> Developing a comprehensive research initiative to study 
            the status of and threats to freshwater mussels in our 
            state, and to identify conservation approaches to minimize 
            the impact of a potential listing. If a listing of these 
            species requires specific flows in our watersheds, our 
            ability to develop and manage the state's water resources 
            could be affected dramatically, threatening the 
            availability of municipal, industrial, and agricultural 
            water supplies during droughts.

    Our efforts are intended to ensure FWS has the most complete 
information possible to make more informed decisions, while 
strengthening the role of stakeholders and the state in those 
decisions.
    Through this work, we've identified three key areas for enhancing 
species conservation. These include: (1) a meaningful role for state 
involvement in aspects of ESA implementation to provide for more 
effective outcomes, (2) state-sponsored data gathering to ensure better 
science-based decision making, and (3) the need for a consideration of 
economic impacts in listing and conservation decisions. Through all of 
these areas, management, transparency, and fairness are absolutely 
critical.
 state involvement and leadership provides more effective esa outcomes
    Meaningful incorporation of state input to ESA programs, including 
close coordination and the use of state expertise, can greatly improve 
species outcomes. States have unique relationships and infrastructure 
in place to work with landowners, communities and industries 
effectively. Through their universities, they also have access to a 
wealth of research data, monitoring initiatives and other resources 
that can lead to better listing decisions.
    In Texas, we work with a number of agencies that have expertise on 
conservation issues and support research and initiatives on species of 
concern. The Texas Parks and Wildlife Department, for instance, is 
charged with protecting our state's fish and wildlife resources. The 
Texas Commission on Environmental Quality oversees the management of 
state water quality. The Texas Department of Transportation funds 
research on species of interest that may be affected by road projects. 
The Texas State Soil and Water Conservation Board provides technical 
assistance to landowners and administers water quality and pollution 
prevention programs. The Texas General Land Office manages large swaths 
of state land and our coastal resources. The Texas Department of 
Agriculture works closely with agricultural producers and is the 
state's lead agency in regulating pesticide use.

    All of these areas of expertise are critical when addressing 
species of concern.

    To ensure FWS and the National Marine Fisheries Service (Services) 
make the best-informed decisions, the ESA should require them to 
request and use state agency information and participation while 
implementing the law. When working with states, the Services should not 
only work closely with state agencies responsible for fish, plant and 
wildlife resources, but also with other state agencies that have 
information relevant to species status and threats, or that may be 
affected by ESA actions. This coordination could occur directly with 
individual agencies or through the governor's office in each state.
    State-led initiatives offer us a tremendous opportunity to enhance 
species conservation, but they won't succeed without proper management 
and oversight. Even if everything works properly, those who want the 
process to fail will attempt to derail any success. This is why proper 
management is an absolute must, especially in ensuring the best 
available science is used.
                        science-based decisions
    At present, the bulk of time and resources devoted to ESA 
activities is directed toward the listing process itself. Improvements 
to the listing process, driven by new data from the states, will 
increase our ability to prioritize species for review and lead to more 
informed decisions. It also could save time and resources needed for 
the development of appropriate conservation plans.
    Currently, petitioners have to meet a very low bar in terms of 
species information needed to start the listing process. The Services 
must make their initial listing decision, called a 90-day finding, 
based on data submitted by the petitioner as well as readily available 
information. This lack of access to all relevant data can force the 
Services to spend scarce time and funds on species that ultimately may 
not require listing. And in a state such as Texas, again largely 
privately owned, a positive 90-day finding can limit landowners' 
ability to develop and use their property even if the species isn't 
ultimately listed.
    Because of the large number of species under review for listing, an 
in-depth study of every species simply is not possible. Currently, 
decisions on species must be made on the ``best scientific and 
commercial data available.'' But often, relatively little is known 
about the population, range, habitat and needs of these species, 
providing a poor basis for decisions that can have major economic 
consequences. In many instances, the available data is decades old. For 
instance, the last study on the Chihuahua catfish, a species slated for 
a listing decision in 2020, was conducted in the late 1990s. Do we want 
to make a decision on its status based on limited data from decades 
ago?
    The best way to ensure economically sound decisions are made is to 
ensure the science is good and current. Better decisions will have 
fewer impacts on state and local economies, plus ensure a more positive 
result for the species in question.
    As I noted earlier, the Texas Legislature appropriated $15 million 
in the last 5 years to our office to support the study of species under 
review for listing in our state, gather new data and fill gaps in our 
understanding of these species. Our office has focused this funding 
mainly on ``game-changing'' species, those species that, if listed as 
endangered, could involve significant economic impacts to specific 
areas or important economic sectors. I'd like to provide the following 
examples of this work, as well as the diverse set of regions and 
stakeholders included in our programs. This work is being conducted 
openly and transparently, and research conducted with state funding is 
subject to rigorous peer review.

    <bullet> Twelve different freshwater mussel species found in Texas 
            river basins are under review for listing. We have 
            allocated more than $3.6 million to support research on 
            their distribution and genetics, and on appropriate 
            conservation tools. River authorities, agriculture groups, 
            environmental organizations and energy producers are all 
            involved in our stakeholder process to fine-tune the 
            science and identify conservation opportunities.

    <bullet> Because of the importance of Texas landscapes to the 
            monarch butterfly along its migratory pathway, and the 
            large number of economic sectors that may be affected if 
            this species is listed, we funded more than $1 million in 
            research to increase understanding of the butterfly in 
            Texas. Stakeholders involved in this working group include 
            communities, scientists, agricultural interests, 
            environmental groups, landowners and industry 
            representatives.

    <bullet> The spot-tailed earless lizard is found in the Permian 
            Basin and the Eagle Ford shale, two important oil and gas 
            producing areas in Texas. Our office has funded nearly $2 
            million in research to identify additional habitat areas, 
            learn more about threats to the species, and discuss 
            potential conservation efforts that may be needed, in 
            partnership with farmers, landowners, environmentalists, 
            and the oil and gas industry.

    <bullet> The Louisiana pine snake historically was found in 
            longleaf pine forests in important timber-producing areas 
            of east Texas. This snake, currently proposed for listing 
            as threatened, has not been seen in Texas since 2012. We 
            supported research to determine if any additional snakes 
            could be found in the state. We are working closely with 
            the state wildlife agency as well as the forestry industry 
            to develop ways to manage habitat in the snake's historical 
            range while still continuing timber activities.

    Our job here is not to be scientists. Rather our job is to 
understand the ESA and the science required for it, as well as the 
species themselves, and to communicate effectively with researchers so 
we can make sure their work is useful to FWS in its decisions. Even so, 
the staff members managing our endangered species work do have 
scientific and legal backgrounds related to species conservation. Dr. 
Robert Gulley, director of our Economic Growth and Endangered Species 
Management Division, has a doctorate in anatomy with over a decade of 
work in biomedical research as well as more than a quarter-century of 
experience as an environmental attorney, including serving 7 years 
working on ESA cases as senior trial attorney at the U.S. Department of 
Justice. In addition, his staff members have scientific and 
conservation backgrounds.
        economic considerations must be a part of the discussion
    I believe that you cannot make fully informed decisions regarding 
species without considering the economies of the regions where they 
live. There is a link between environmental protection and economic 
success. For example, communities and businesses often rely on the same 
resources for economic growth, such as clean water, that the species 
needs to remain viable. As the ESA is written, however, there is very 
little space for economic considerations. This omission is remarkable 
in light of the potential impacts on our Nation's resources.
    In many voluntary conservation programs, stakeholders include 
economic considerations to create successful programs. In the case of 
the Edwards Aquifer program, for instance, a key portion of the program 
involved compensating farmers in the western range of the aquifer for 
restricting water use in times of drought, thus making more water 
available for the species. For the dunes sagebrush lizard, industry 
participation resulted in a plan that minimized oil and gas drilling 
and infrastructure in the lizard's habitat, while allowing for some 
continued activity for an industry that is vital to our state economy 
and state tax revenues.
    To create similar successful outcomes under the ESA, as the 
Services review species for listing, they must be able to take into 
account economic factors, especially when analyzing the scope and scale 
of potential threats to a species. To adequately consider these 
threats, the Services should incorporate economic data on the future 
development of industries that may be affecting the species, and take 
into account any potential changes to industrial technology that may 
decrease the impact on the species. Services staff often do not have 
significant expertise in these economic areas. Engaging stakeholders is 
one of the best ways to gather this important economic data to make 
more informed decisions.
    The consideration of economic impact in critical habitat 
designations is an example of how the ESA can effectively take into 
account economic impacts. An area can be excluded from critical habitat 
designation if it is deemed the benefits of exclusion outweighs the 
benefits of designating the area. Economic impacts is a part of the 
basis for this decision. This consideration of economic impacts should 
be included in listing decisions, especially in cases of threatened 
designations where the ESA already provides the ability to craft 
flexible approaches to provide a benefit to the species.
                   bills will encourage conservation
    The bills before you today incorporate many of these concepts I've 
discussed--state coordination, transparency, usage of more complete 
data, an open process, reduced regulatory burdens, and consideration of 
economic impacts. I believe they are very important bills and an 
important step toward more effective species conservation.
    The Listing Reform Act by Representative Olson (H.R. 717) provides 
time for science-based decisions and acknowledges the importance of 
economic considerations. Giving the Services flexibility in reviewing 
petitioned species rather than requiring adherence to a strict and 
arbitrary deadline allows them to make better use of limited resources 
and work first on species truly in need. This flexibility also gives 
the Services additional time to receive more complete data from the 
states and other parties to give them a more complete view of the 
status of the species. And allowing for consideration of significant, 
cumulative economic effects that could result from a threatened listing 
decision or designation of critical habitat provides opportunities to 
further engage with industry and other stakeholders in developing 
effective conservation programs for species in important economic 
areas.
    Representative Gohmert's SAVES Act (H.R. 2603), de-listing non-
native species, takes into account stakeholder input and economic 
considerations to provide additional opportunities for species 
conservation, reduces the Federal regulatory burden on those working to 
conserve species, and allow for continued economic activities in our 
local communities.
    Representative Newhouse's bill, the State, Tribal and Local Species 
Transparency and Recovery Act (H.R. 1274), directing the Services to 
incorporate state, local and tribal data in its decisions is key to 
opening up the process and ensuring more complete data. The Gray Wolf 
State Management Act of 2017 by Representative Peterson (H.R. 424) is 
another bill emphasizing the importance of state involvement in 
managing species within their borders.
    Finally, while Texas handles a large amount of litigation, our 
office isn't heavily involved in this process. Even so, we support 
efforts such as the Endangered Species Litigation Reasonableness Act 
(H.R. 3131) by Representative Huizenga to bring more equity into the 
litigation process. The proposed changes should minimize litigation by 
ensuring attorney's fees are only awarded to those parties who prevail 
in the litigation.
                               in closing
    These bills and my comments today address several significant 
changes that can be made to improve the ESA's effectiveness, but it 
should only be part of a larger effort to modernize a statute that has 
received too little congressional reform over the years. Many groups 
across the country, including the Western Governors' Association, have 
developed proposals to encourage proactive, voluntary science-based 
species conservation and ESA implementation. In general, these 
recommendations align with our thoughts on how to improve the ESA. I 
encourage you to review their recommendations and incorporate them in 
future legislation as you continue your work on this very important 
issue.
    My office will remain engaged in working with stakeholders and 
continue funding research on species to develop collaborative, 
transparent solutions. We are available as a resource to you and your 
staff as you continue your work. I look forward to working with you as 
you move forward in making the ESA a more workable and effective tool 
for species conservation, while still allowing economic opportunity for 
our communities and citizens.
                                 ______
                                 
   Questions Submitted for the Record to Glenn Hegar, Comptroller of 
                    Public Accounts, State of Texas
                   Questions Submitted by Rep. Bishop
    Question 1. As Texas has demonstrated, states are well positioned 
to effectively keep species stable and off the endangered and 
threatened list. However, the Federal Government has often kept states 
away from the table in species designation process.

    1a. How does the Texas program identify which species to preserve?

    Answer. The Economic Growth and Endangered Species Management 
Division (EGESM) of my office is responsible for our species research 
program. The focus of this program to date has been on those species 
currently under review for potential listing by the U.S. Fish and 
Wildlife Service (the Service). Division subject matter experts review 
scientific literature, U.S. Fish and Wildlife Service information 
including that on the Environmental Conservation Online System (ECOS), 
existing listing petitions and other listing documents, and similar 
documentation to understand the data available on each species, the 
extent of data gaps, threats to the species, and potential 
effectiveness of conservation measures to ameliorate those threats. 
EGESM also considers the economic impact of a possible listing. In 
establishing our priorities for funding species research, EGESM 
consults with the Texas Parks and Wildlife Department, other state 
agencies, the Service, independent university experts, both in and 
outside of Texas, and stakeholders.
    In identifying species, EGESM staff assess the potential impacts of 
a listing. The factors considered in this review include, but are not 
limited to, the overlap of species habitat with areas of economic 
activity, identification of industry sectors affected by a potential 
listing, consultation with industry and related stakeholder working 
groups, the scope of natural resources potentially affected by a 
listing, and the ability of conservation measures to reasonably 
ameliorate the threats.
    Through this analysis, the program is able to identify those 
species that if listed, could have a significant economic effect on 
Texas citizens, business and communities. These ``game-changer'' 
species with a large potential economic effect are priorities to 
develop additional research and science based conservation programs to 
preserve the species.

    1b. Do you believe that programs like that of Texas in other states 
would help keep species healthy and off the list?

    Answer. I do believe that programs like in Texas can be successful 
in keeping species healthy and off the Federal list of endangered 
species. The Texas Conservation Plan (TCP) is an exemplary model of 
such a successful program. There, the listing of the species was 
avoided through an agreement by the oil and gas industry operating in 
the energy-rich Permian Basin, in coordination with the Comptroller's 
office (CPA), to implement voluntary conservation measures under a 
Candidate Conservation Agreement with Assurances (CCAA). CPA holds the 
permit for the CCAA and oversees the implementation of the TCP. A 
similar CCAA was established in New Mexico with the oil and gas 
industry in that state. The TCP played a large role in the Service's 
decision not to list the dunes sagebrush lizard.
    CPA is currently developing similar programs to either avoid 
listing or minimize the economic impacts of any species listings with 
respect to four Central Texas mussel species and the spot-tailed 
earless lizard, found in the Permian Basin, Eagle Ford shale and 
agricultural areas in the state. These programs center on funding 
strong science to fill extensive gaps in the scientific knowledge 
regarding these species. CPA is engaging diverse stakeholder 
communities in open, transparent, collaborative processes to evaluate 
the scientific data and to see if buy-in is possible for any voluntary 
conservation programs that may be needed to avoid listing or minimize 
the impact of any listing that is appropriate.
    As described in my testimony, as a State Senator, I was very 
involved in the creation and oversight of a program that utilized this 
open, transparent approach to resolve a 50-year old contentious dispute 
over the use of the Edwards Aquifer while protecting the listed species 
that depend on the water from that aquifer.
    I am confident that similar programs, in conjunction with research 
funding and the reforms considered by your Committee, can be successful 
in balancing the needs of the species with the need for a vibrant 
economy in Texas and elsewhere. Also, in appropriate instances, 
avoiding the need to list species as Texas and New Mexico were able to 
do with respect to the dunes sagebrush lizard.

    Question 2. Mr. Olson's Listing Reform Act allows for threatened 
species designations to be precluded due to economic factors, and 
allows for reconsideration of precluded threatened species listings 
only if the Secretary determines there is a danger of species 
extinction, or if the Service receives a new petition that includes 
alternative actions that can be taken to avoid the economic impacts of 
listing.

    2a. Should economic factors be considered in threatened species 
designations, and if so, why?

    Answer. First, I believe that as a general rule, listing decisions 
should be based solely on the science. However, economic factors should 
be considered and, in limited circumstances, where the economic 
consequences of listing outweigh the benefits of listing, reflected in 
the listing decision. Mr. Olson's bill sets out a reasonable approach 
to economic considerations in the listing process. It recognizes that, 
unlike an ``endangered'' determination which requires a finding that 
the species is in actual danger of extinction, a determination that a 
species is threatened requires a finding only that the species may 
become endangered in the future. Under such circumstances, a reasonable 
inquiry into the economic impacts of listing is appropriate. If the 
economic benefits of listing outweigh the benefits of listing, Mr. 
Olson's bill does not over-ride the determination that listing is 
warranted. Instead, it simply precludes listing until such time that 
the species is endangered or a petition is filed mitigating the 
economic impacts.
    Beyond the reasonableness of the approach, I support Mr. Olson's 
bill because, although the status of threatened species is less 
imperiled than that of an endangered designation, the economic 
consequences of both determinations may be the same. Under current 
Service regulations, absent promulgation of a 4(d) rule, threatened 
species are subject to the same requirements as endangered species with 
respect to Sections 7 and 9 of the Act.

    2b. From your perspective, would the ability to preclude threatened 
species listings due to economic factors facilitate higher-quality 
listing decisions that benefit both species and our Nation?

    Answer. The ability to preclude threatened species listing due to 
economic factors can allow for a more reasonable balance between 
species protection and economic growth. Precluding species can also 
provide additional flexibility in developing conservation programs for 
species of concern through a non-regulatory and voluntary environment. 
Candidly, I am somewhat concerned, however, that because the scientific 
boundaries between threatened and endangered are obscure, the Service 
may decide to avoid the requisite economic considerations by finding a 
species to be endangered.
                   Questions Submitted by Rep. Pearce
    Question 1. How does the science produced by your universities and 
other state agencies compare to the science that the Fish and Wildlife 
Service would otherwise be forced to rely on?

    Answer. The Service often relies only on existing research--some 
current, some not. In many instances, the research was not designed to 
answer the specific questions of the listing process. The funding 
administered by CPA provides science that is more current and complete 
than what the Service might otherwise have available to use in make 
listing decisions.
    Our research is focused on filling the gaps in understanding of 
species and provide data specifically designed to inform the Species 
Status Assessment and listing process. CPA, in designing and funding 
the science, consults with the Texas Parks and Wildlife Department, 
other state agencies, independent university experts, the Service, and 
stakeholders. Independent technical advisory panels are used during the 
course of the research to ensure that sound approaches and methods are 
being employed. Independent peer review of the science is commonly used 
to ensure the validity of the research.

    Question 2. You mentioned in your testimony that you are 
administering $3.6 million to support research ``12 different 
freshwater mussel species.'' You also claim the research is on their 
``distribution and genetics, and on appropriate conservation tools.''

    <bullet> Is one of those species the Texas Hornshell mussel 
            (Popenaias popeii)?

    <bullet> Can you forward any science you have on this species to my 
            office?

    Answer. The Texas hornshell is one of the species funded by CPA. 
Scientific information from my office has been forwarded to the office 
of Representative Pearce. This information includes a final report on 
research by Texas A&M University on the Texas hornshell and other 
mussels in west and central Texas, and a final report on research by 
Texas State University on the Texas hornshell and other aquatic species 
in the Delaware River in Texas.

                                 ______
                                 

    The  Chairman. Thank you. I appreciate that. We will now 
turn to Mr. Sheehan for your 5 minutes. Welcome to the 
Committee, welcome back to Washington, welcome to the 
bureaucracy.
    [Laughter.]
    The  Chairman. You have 5 minutes.

   STATEMENT OF GREG SHEEHAN, DEPUTY DIRECTOR, U.S. FISH AND 
                        WILDLIFE SERVICE

    Mr.  Sheehan. Thank you. Good morning, Chairman Bishop, 
Ranking Member Grijalva, and members of the Committee. My name 
is Greg Sheehan, and I am the Acting Director of the U.S. Fish 
and Wildlife Service. I appreciate the opportunity to testify 
before you today on five bills to amend the Endangered Species 
Act.
    As I said, I am a new appointee of the Fish and Wildlife 
Service, but I have been engaged in the ESA issues for many 
years. I have spent the past 25 years with the state of Utah in 
natural resource and wildlife management, with most of the last 
5 years of my career as the Director for the Utah Division of 
Wildlife Resources.
    I partnered with the Fish and Wildlife Service through my 
participation on the Joint Federal-State Task Force on 
Endangered Species Act Policy. Additionally, I served as 
Chairman of the Threatened and Endangered Species Policy 
Committee for the Association of Fish and Wildlife Agencies.
    As the Director of our state wildlife agency, I was 
involved in actions with many species, including desert 
tortoise, California condor, sage-grouse, gray wolves, and Utah 
prairie dogs, among others.
    The ESA is one of our Nation's most important wildlife 
conservation laws. Its purpose is to conserve threatened and 
endangered species and their ecosystems. The law directs the 
Service to use the best-available science, scientific and 
commercial information, to determine whether a species needs to 
be listed to identify and address the threats to the species, 
and to facilitate the recovery of the species.
    I find it helpful to think of the ESA as a hospital, where 
critically ill patients are admitted in anticipation of 
recovery. In this hospital, there has been success in keeping 
the ESA patients from dying, but not so much on getting them 
discharged in healthy condition. Therefore, we need to step up 
our efforts to quickly diagnose the problems, define recovery 
actions, and get those patients back out into society.
    In the case of these ESA patients, that means getting them 
back under state management authority. While there are those 
who believe otherwise, the ESA, the hospital was never intended 
to keep all patients indefinitely. Just as is the case with any 
hospital, there are limited resources to manage the patients, 
and we need to focus those resources on those that are in the 
greatest need, not those who are recovered and simply waiting 
to be released.
    Success of the ESA will ultimately be defined by the number 
of patients leaving the hospital, not the number going in.
    While the ESA has had success since its passage 43 years 
ago, there have been challenges, as well. My goal, as Acting 
Director of the Service, is for the organization to be a better 
neighbor and partner to the public and states.
    It is essential that we forge collaborative partnerships 
with landowners, states, tribes, territories, local 
governments, and industry. The resources brought to the table 
by these partners is fundamental for achieving the conservation 
objectives of the ESA. It is time that we recognize those 
efforts and rebuild the collaborative spirit of conservation 
that has restored most all fish and wildlife species in America 
during the past 120 years.
    Additionally, we must ensure balanced conservation 
stewardship, while engaging our committed industry partners, 
including power, water, energy, timber, farmers, and others, to 
ensure that ESA regulatory requirements do not overtake our 
ability to be strong and grow as a nation.
    There are three tools in our toolbox to achieve these 
goals.
    First is our ability to seek out and retain top-notch 
people on the ground who have the inter-personal skills and 
ability to work with landowners, industry representatives, 
local governments, tribes, and state agencies. There are many 
on the U.S. Fish and Wildlife Service team that have those 
skill sets, and who can succeed at this heavy lift.
    Second, we need effective agency policy. This policy is 
fundamental in creating a defensible rule book that all can 
use, as we aspire to achieve the goals of species and ecosystem 
conservation, as well as societal growth and its associated 
demands on natural resources.
    The third tool available is the set of legislative 
authorities created by Congress. The laws you craft identify 
the sideboards that we must operate within to successfully 
implement the ESA and, hence, work toward the conservation of 
fish, wildlife, and plant species in America.
    The bills before the Committee today seek to improve the 
implementation of the ESA and, in general, the Administration 
supports them. My written testimony contains comments on each 
of the bills. We would appreciate the opportunity to meet with 
the Committee and bill sponsors to discuss technical 
modifications as the bills work through the legislative 
process.
    We are committed to making ESA work for the American people 
to accomplish its purpose of species conservation. I am happy 
to answer any questions you have, and thank the Committee for 
this opportunity to testify today.

    [The prepared statement of Mr. Sheehan follows:]
 Prepared Statement of Gregory Sheehan, Acting Director, U.S. Fish and 
 Wildlife Service on H.R. 424, H.R. 717, H.R. 1274, H.R. 2603 and H.R. 
                                  3131
                              introduction
    Good morning Chairman Bishop, Ranking Member Grijalva, and members 
of the Committee. I am Greg Sheehan, Acting Director for the U.S. Fish 
and Wildlife Service (Service). I appreciate the opportunity to testify 
before you today on five bills to amend the Endangered Species Act of 
1973 (ESA). I have spent most of the last 5 years of my career as the 
Director for the Utah Division of Wildlife Resources, where I was very 
involved in the implementation of the ESA from the state perspective. I 
dealt with individual species issues in Utah and was involved in 
broader policy discussions through the Western Governors' Association 
and my participation on the Joint Federal/State Task Force on 
Endangered Species Act Policy. I was also Chair of the Threatened and 
Endangered Species Policy Committee for the Association of Fish and 
Wildlife Agencies (AFWA). I am hopeful that those experiences will give 
me a solid framework from which to serve in my new role as Acting 
Director of the Service.
    Each of the bills--H.R. 424, H.R. 717, H.R. 1274, H.R. 2603, and 
H.R. 3131--is focused on improving implementation of the ESA to reduce 
or eliminate certain burdens on the public and to help achieve the 
ESA's statutory purpose to conserve threatened and endangered species 
and their ecosystems. In general, the Administration supports these 
bills and the Service welcomes the opportunity to work with the 
Committee to address some recommended technical modifications.
    The Administration is committed to making the ESA work for the 
American people. While the ESA has had some success since its passage 
over 40 years ago, challenges still remain. Implementation of the law 
regularly generates controversy among private landowners, regulated 
industries, and environmental advocates alike. In particular, in 
Western states, the law and certain species have become lightning rods 
for intense disagreement. My goal as the Acting Director of the Service 
is for the organization to be a better neighbor and partner to the 
public and the states. The Federal role under the ESA in preventing 
extinctions and facilitating recovery is critical; but states and the 
people on the ground who have long been stewards of the land are in the 
best position to be the primary caretakers of species over the long 
term.
    I look forward to discussing these issues and working with the 
Committee to address them in these and other legislative efforts.
                               background
    The ESA is one of our Nation's most important wildlife conservation 
laws. It is implemented jointly by the Service and the National Marine 
Fisheries Service (NMFS, together, ``the Services''). The law's stated 
purpose is to provide a program and means for the conservation of 
threatened and endangered species and the ecosystems upon which they 
depend. When a species is designated as threatened or endangered--or 
``listed'' under the ESA--it is in urgent need of help. The law directs 
the Services to use the best available scientific and commercial 
information to determine whether a species needs to be listed, to 
identify and address the threats to the species, and to facilitate the 
recovery of the species.
    Successes under the ESA almost always involve partnerships between 
the Service and others--states, tribes, territories, local governments, 
private landowners, and other Federal agencies. Partnership efforts 
guided by the Service have led to several recent decisions to de-list 
species due to recovery. These include the Yellowstone population of 
grizzly bear, Louisiana black bear, Oregon chub, Delmarva fox squirrel, 
Virginia northern flying squirrel, Modoc sucker, island night lizard, 
and brown pelican. Conservation partnerships have also prevented the 
need to list a number of species that were once in trouble, including 
the New England cottontail, dunes sagebrush lizard, and arctic grayling 
in Montana.
    Despite these successes, there are also challenges and frustrations 
with implementing the Endangered Species Act. I find it helpful to 
think of the ESA as a hospital, where critically ill patients are 
admitted in hopes of recovery. We have done a pretty good job of 
keeping those patients from dying, but not so well on getting them 
discharged in healthy condition. Therefore, we need to step up our 
efforts to quickly diagnose the problems, define recovery actions, and 
get those patients back out into society. The ESA hospital was never 
intended to keep all patients indefinitely. I want the Service and our 
partners to be more successful in recovering listed species so that the 
ESA is not needed for their protection.
    Making the Service more successful in achieving species recovery is 
a multi-faceted endeavor:

  1.  A collaborative partnership with states, tribes, territories, 
            local governments, and landowners is essential for 
            achieving the conservation objectives of the ESA. The 
            Service has made some important investments in this area, 
            including through our development of policy and tools for 
            voluntary conservation agreements, the establishment and 
            support of a Joint Federal/State Task Force on Endangered 
            Species Act Policy and our support and active participation 
            in the Species Conservation and the Endangered Species Act 
            Initiative of the Western Governor's Association. We will 
            build on those efforts to ensure we have a strong 
            foundation of trust and partnership as we continue to seek 
            to improve implementation of the ESA.

  2.  Our ability to succeed in conservation efforts is also dependent 
            on our people on the ground, who need to have the skills 
            and ability to work with landowners and agencies on 
            solutions that serve the needs of both the species and the 
            landowners. Our Partners for Fish and Wildlife program and 
            Joint Ventures programs have been great models for that 
            approach, and I would like to see those kinds of 
            relationships with landowners and local communities 
            reflected more broadly throughout the Service, including in 
            our endangered species recovery work. The Service has made 
            progress in recent years, but there is still more work to 
            do.

  3.  Being more successful in species recovery also requires effective 
            and creative agency policy. I fully support the recent 
            direction from Congress through the appropriations process 
            to focus more intently upon the mandatory duties associated 
            with recovery of listed species--timely development of 
            recovery plans, reviews every 5 years of the status of 
            listed species, and timely rulemaking to down-list or de-
            list species that are recovering. There are many competing 
            demands for our limited time and energy, and we must have 
            clear agency policy that establishes our priorities and 
            encourages conservation partnerships.

  4.  Our legislative authorities are clearly the backbone for 
            successful implementation of the ESA and recovery of listed 
            species. The bills under consideration by this Committee 
            are all focused on helping improve implementation of the 
            Act, and we look forward to working with the Committee on 
            these measures as they move through the legislative 
            process.

    To that end, we offer the following comments on the individual 
bills under consideration today:
H.R. 424--Gray Wolf State Management Act
    H.R. 424, the Gray Wolf State Management Act, would require the 
Service to reissue the 2011 Western Great Lakes population de-listing 
rule and the 2012 Wyoming population de-listing rule. It would also 
insulate both rules against judicial review. Each of these de-listing 
rules was based on the best available science, was consistent with the 
requirements of the ESA, and reflected extensive work with the relevant 
states and a deliberative and lengthy public comment process. The 
legislation would not legislatively de-list these wolf populations, 
rather it would reinstate science-based rules that went through the 
public rulemaking process.
    Earlier this year, the Federal Government prevailed in litigation 
challenging the 2012 Wyoming de-listing rule, and has accordingly de-
listed that population and transitioned management to the state. This 
legislation would not, in the Service's view, affect our recent rule 
that reaffirmed the de-listing of the Wyoming population.
    The Service determined that the Western Great Lakes gray wolf 
population has exceeded recovery goals and is biologically recovered. 
Our de-listing rule was challenged and vacated, and that decision is 
currently under appeal.
H.R. 717--Listing Reform Act
    H.R. 717, the Listing Reform Act, would allow the Service to 
prioritize petitions other than by the order received, except that 
listing petitions would not be prioritized over de-listing petitions. 
The legislation would also remove the 90-day and 12-month finding 
deadlines for petitions. Finally, it would add an option for warranted 
but precluded findings for petitions to list species as threatened if 
the listing or critical habitat designation would result in significant 
cumulative economic impacts.
    The provision allowing the Service to prioritize petitions based on 
need would give the Service more flexibility to implement the ESA. We 
believe that removing the deadlines for reviewing petitions would give 
the Service even more flexibility and reduce the potential for future 
litigation.
    The Service would, however, like to work with the Committee 
regarding the bill's proposed warranted but precluded determination on 
petitions for threatened listings to better understand how economic 
impacts should be appropriately considered.
H.R. 1274--State, Tribal, and Local Species Transparency and Recovery 
        Act
    H.R. 1274, the State, Tribal, and Local Species Transparency and 
Recovery Act, would require all data used to make a listing 
determination to be made available to affected states prior to making a 
listing determination. It would also modify the term ``best scientific 
and commercial data available'' to include all data submitted by 
states, tribes, and local governments.
    The Service has worked to address concerns regarding transparency 
of the data used to make listing determinations, but recognizes that 
complications remain. The Service would recommend modifying this 
legislation to require the Service to consider all data submitted by 
states, tribes, and local governments, rather than automatically 
deeming that data to be the ``best scientific and commercial data 
available'' as currently required in the bill. Defining that term to 
automatically include data submitted by states, tribes, and counties, 
without regard to its quality, would be a significant departure from 
scientific integrity standards.
H.R. 2603--Saving America's Endangered Species (SAVES) Act
    H.R. 2603, the Saving America's Endangered Species (SAVES) Act, is 
bipartisan legislation that would prevent non-native species that are 
found in the United States from being treated as federally threatened 
or endangered. We understand the primary intent of this legislation is 
to reduce duplication in the regulation of non-native species in the 
United States. The Service notes that the ESA and the Convention on 
International Trade in Endangered Species of Wild Fauna and Flora 
(CITES) serve different purposes and species, and would welcome the 
opportunity to discuss this further. We also understand that a 
secondary goal of the legislation is to reduce regulation of the 
interstate movement of non-native species in the United States. The 
Service currently authorizes activities with non-native captive-bred 
wildlife that benefit the conservation of listed species. Based on our 
initial analysis, we note that bill as introduced could create 
enforcement challenges related to wildlife trafficking. We welcome the 
opportunity to work with the sponsor and Committee to examine these 
efforts.
H.R. 3131--Endangered Species Litigation Reasonableness Act
    H.R. 3131, the Endangered Species Litigation Reasonableness Act, 
would subject awards to prevailing parties in ESA citizen suits to 
judicial code standards. This legislation would in effect limit 
attorney's fees for successful citizen plaintiffs in ESA cases against 
the Federal Government. The time and cost of litigation is one of the 
significant challenges we face in implementing the ESA. As currently 
drafted, it is unclear whether the legislation would require that all 
prevailing fee awards be paid through annual appropriations, rather 
than having the option to pay through the Judgment Fund as is current 
law. The Service would welcome the opportunity to work with the 
Committee to clarify this aspect of the legislation.
                               conclusion
    The Service supports the goals of these bills and welcomes the 
opportunity to work with the Committee to address some technical 
modifications. The Service is committed to making the ESA work for the 
American people to accomplish its purpose of conserving threatened and 
endangered species and protecting the ecosystems upon which they 
depend. While the ESA has had some success since its passage over 40 
years ago, there are greater opportunities ahead. I look forward to 
discussing these issues and working with you to address them in these 
and other legislative efforts.
                                 ______
                                 
 Questions Submitted for the Record to Greg Sheehan, Acting Director, 
                     U.S. Fish and Wildlife Service
                   Questions Submitted by Rep. Bishop
    Question 1. Well-funded environmental groups that engage in 
litigation against the Department have the resources, including 
taxpayer-funded grant money, to litigate unnecessary matters as a means 
to increase their attorney's fees awards and to boost fundraising 
efforts. Would there be more resources, particularly in terms of staff 
time and focus, for species conservation efforts if there was a 
decrease in the amount of unnecessary litigation against the 
Department?

    Answer. When the Service dedicates its time and budget to defending 
prior court decisions, it redirects resources away from our 
conservation mission, which detracts from the Service's ability to 
prioritize and align our work with the most important conservation 
priorities as we see them.

    Question 2. The Listing Reform Act allows for threatened species 
designations to be precluded due to economic factors, and allows for 
reconsideration of precluded threatened species listings only if the 
Secretary determines that there is a danger of species extinction, or 
if the Service receives a new petition that includes alternative 
actions that can be taken to avoid the economic impacts of listing. 
From your perspective, would the ability to preclude threatened species 
listings due to economic factors facilitate more comprehensive listing 
decisions that benefit both species and our Nation?

    Answer. The ESA currently directs the Service to make listing 
decisions based solely upon the best available scientific and 
commercial information regarding the status of the species and the 
threats that it faces, after considering protective efforts. An 
economic analysis done during the listing determination process would 
provide a comprehensive assessment of the economic impacts resulting 
from a potential listing. Should Congress decide to amend the ESA to 
include economic considerations as part of listing criteria, it would 
create a more comprehensive review that the Service would then assess 
and evaluate petitions accordingly. At this time, without further 
clarification and definition, it would be difficult for the Service to 
implement the bill as it is currently written.

    Question 3. State-generated data and management expertise are 
utilized by states in species management efforts before listing and 
after de-listing. Such state-generated information is a valuable 
resource for the Federal Government, and use of it could alleviate some 
pressure upon agency resources and allow for more thorough and improved 
species decision-making processes. Yet, these resources have not been 
consistently utilized in the past. Furthermore, the data that the 
Federal Government does use in species decisions is not shared with the 
states, nor is it transparent. The State, Tribal, and Local Species 
Transparency Act would require greater transparency and consideration 
of state-generated data. How can the consideration of state, tribal, 
and local data assist the Federal Government in its decision making?

    Answer. The Service agrees that state-generated information is a 
valuable resource. Often, the states are among the best sources of such 
information, particularly with respect to game and other actively 
managed species. In many cases, state partners are the only entities 
with information on certain species. State partners are often 
monitoring a wider spectrum of species than the Service and often are 
our first source of information about a species.
    The Service recently modified our petition regulations to ensure 
that states are formally notified of petitions in a timely manner and 
their data available to the Service to place petitions in proper 
context as the Service develops our 90-day finding. If we proceed to a 
status review (which could lead to a listing proposal), the Service 
actively solicits all available information, including state, tribal, 
and local data formally through Federal Register notices, as well as 
informally through regular interactions with states, tribes, and other 
contacts. If a listing proposal is made, public comment and additional 
data are solicited at that time as well. Additionally, grants through 
the Cooperative Endangered Species Conservation Fund are provided to 
states, and the resulting information from those grants assists in our 
decision making. Such information is often essential in determining if 
a species warrants listing or has recovered to the point of de-listing 
or down-listing.

    Question 4. The program in Texas, and similar efforts in other 
states, have generated high-quality data and successfully kept species 
off of the list. Such information is valuable for Federal decision 
making and could demonstrate how best to manage species in specific 
areas.

    4a. How will the Federal Government support state efforts to 
contribute such data at the Federal level?

    Answer. As noted above, we formally and informally solicit 
information from state partners during our assessment process. As the 
management authority for most non-federally listed species, the states 
are often the primary source of information on these species. We 
recognize that better scientific information leads to better decision 
making under the ESA and appreciate the significant contributions made 
by states to improve the quality of data on the species that are under 
consideration for ESA decisions. Our work to make all petitions 
publicly available upon receipt, to develop multi-year listing work 
plans, and to strategically prioritize our petition work so that 
species for which additional information could affect the petition 
finding are put later in the queue, are all designed to support state 
efforts to contribute data to inform our work at the Federal level.

    4b. How will the Department support state efforts to preserve 
species and keep them off of the list?

    Answer. The Department and the Service believe in the strength, 
effectiveness, and value of collaborative conservation efforts prior to 
a species considered for listing under the ESA. This collaborative 
conservation with partners may provide species with a better chance of 
thriving than regulatory actions and protections. Bringing local 
government, landowners, and others back to the conservation table can 
be difficult after a listing action. With that in mind, keeping the 
species from being listed through collaborative conservation efforts is 
a model that works. The Service will continue to be proactive in these 
types of efforts.
    For example, collaboration between the Service and the Southeastern 
Association of Fish and Wildlife Agencies on an at-risk species 
initiative (SEARS) resulted in petitioners withdrawing 45 species when 
presented with the data compiled by the partnership. This initiative 
has helped spur similar efforts across the country, including one led 
by the Western Association of Fish and Wildlife Agencies and Regions 2 
and 6 of the Service for 12 states across the West.
                  Questions Submitted by Rep. Bordallo
    Question 1. On July 18, 2017, the U.S. Fish and Wildlife Service 
(Service) released its final biological opinion (0lEPIF00-2015-F-0025 & 
0lEPIF00-2016-F-0185) regarding potential adverse impacts on the 11 
ESA-listed species from the proposed relocation of U.S. Marine Corps 
(USMC) personnel from Okinawa, Japan to Guam. Will the Service recommit 
to providing all additional technical assistance/guidance needed for 
the U.S. Department of the Navy (DON) to fully implement the 
conservation measures specified in the final biological opinion?

    Answer. The U.S. Fish and Wildlife Service (Service) issued the 
July 18, 2017, final biological opinion regarding the proposed 
relocation of U.S. Marine Corps personnel from Japan to Guam after 
consultation with the Department of the Navy. The Service is committed 
to working with the Navy to provide the technical assistance and input 
necessary to ensure successful implementation of the biological opinion 
and conservation of Guam's imperiled species.

    Question 2. Given the importance of the USMC relocation (proposed 
action) for national security, what steps is the Service taking or 
planning to make additional agency personnel/resources available to DON 
to support conservation measure implementation?

    Answer. The Service participates in regular meetings with 
Department of Defense (DOD) officials to discuss priorities and needs 
and to ensure our agencies are aligned and deploying resources 
accordingly. The Service recognizes the collaboration and technical 
assistance needs of the DOD in the Pacific and strives to meet those 
needs within allocated funding and staffing levels.

    Question 3. Is the Service confident that current regional agency 
resources/personnel are sufficient to meet the Service's obligations to 
support the DON's implementation of the conservation measures 
identified in the final biological opinion?

    Answer. Yes. The Service is confident that given current allocated 
funding and staffing levels, we will be able to support the Department 
of the Navy's implementation of the conservation measures identified 
within the final biological opinion.

    Question 4. To the maximum extent practicable, will the Service 
commit to meet all the deadlines and time frames specified by the final 
biological opinion, including providing agency responses to DON in a 
timely manner?

    Answer. The Service is committed to working with DON to meet time 
frames identified within the biological opinion, given current 
allocated funding and staffing levels. Coordination throughout the 
consultation process has resulted in improved communication and 
technical assistance between our agencies, and we expect that will 
continue.

    Question 5. What is the Service doing to address concerns about 
inadequate public access to the Guam National Wildlife Refuge, 
particularly the Ritidian Unit?

    Answer. The Ritidian Unit of the Guam National Wildlife Refuge is 
currently open to the public from 7:30 a.m. to 4:00 p.m., 7 days a 
week, and currently receives about 90,000 visitors a year, hosting 200-
300 visitors on the weekends. The Refuge is subject to closure on all 
major Federal holidays or during bad weather, high-surf advisories or 
other hazardous conditions in the interests of public safety. The 
Service would welcome the opportunity to work with you and your office 
to address any concerns regarding public visitation access to the 
Ritidian Unit.

    Question 6. Is the Service considering, planning, or willing to 
examine formal mechanisms for local consultation/input regarding access 
at the Refuge, including right-of-ways to privately owned land adjacent 
to the Ritidian Unit?

    Answer. The Ritidian Unit of the Guam National Wildlife Refuge lies 
within the designated Surface Danger Zone for the Marine Corps Live 
Fire Training Range. The Refuge road and unimproved right-of-way is 
currently used by adjacent landowners. In the future, access to this 
site will be controlled by the Navy, consistent with public safety 
concerns and the direction provided by Congress in the National Defense 
Authorization Act for Fiscal Year 2015. We continue to support an 
alternate access route that would run outside of the Refuge and Surface 
Danger Zone. The U.S. Government will continue to work with neighboring 
landowners on access issues, while taking into account public safety 
concerns.
                   Questions Submitted by Rep. Pearce
    Question 1. You mention in your testimony the necessity for Fish 
and Wildlife Service staff on the ground to work with local landowners. 
We have a situation in my district regarding the New Mexico Meadow 
Jumping Mouse and a rancher. To date, the Fish and Wildlife has been 
unwilling to work toward a solution that works for everyone.

    Would you commit to working with our office to attempt to find 
common ground?

    Answer. Yes. The U.S. Fish and Wildlife Service (Service) would be 
happy to meet with your office and the U.S. Forest Service (USFS) to 
work toward a solution that addresses your concerns and those of your 
constituent while being consistent with the law. Service and USFS 
representatives have met with livestock grazing permittees to discuss 
best management practices for grazing activities that would conserve 
the New Mexico meadow jumping mouse and are committed to promoting 
collaboration with the ranching community. If our past efforts have not 
resulted in conservation actions that are suitable to the rancher and 
the needs of the species, then we must re-evaluate those efforts. We 
are committed to doing so.

                                 ______
                                 

    The  Chairman. Thank you.
    We will now turn to Mr. Corwin for your 5 minutes.

STATEMENT OF JEFF CORWIN, BIOLOGIST, HOST OF ABC'S OCEAN TREKS 
                        WITH JEFF CORWIN

    Mr.  Corwin. Thank you very much. Good morning, Chairman 
Bishop, Ranking Member Grijalva, and members of the House 
Natural Resources Committee. My name is Jeff Corwin, and I come 
to you today as a wildlife biologist, a television presenter, 
an avid outdoorsman, and a father. And I am here to discuss 
with you today the importance of the Endangered Species Act.
    I have been fortunate over my career to have many profound 
and thrilling encounters with some of our world's most 
incredible creatures. I truly feel blessed to have my life 
passion flourish into a rewarding career. And I believe this 
opportunity could only have materialized in our great country.
    A few years ago, I had the heart-pounding opportunity to 
dive with giant, tractor-sized Steller sea lions off the coast 
of Alaska to document the impact of the warming Prince William 
Sound. If you ever want to feel truly insignificant, go 
eyeball-to-eyeball with a pugnacious, 5,000-pound Steller sea 
lion at 80 feet.
    Alongside the heroes of the U.S. Fish and Wildlife Service, 
I helped rescue a desperately ill California condor, a bird 
that was on death's door from lead poisoning. Her blood test 
revealed that she had enough toxins in her to kill 12 adult 
men. Incredibly, she not only survived through herculean 
rehabilitation efforts, but she was released back into the 
wild.
    Why all this effort for a single bird? Well, at one time 
there were only less than 20 of these birds. Today, more than 
400 survive out in the wild. And that is because every condor 
matters, and that is because of the Endangered Species Act.
    In 2008, while white-knuckled, gripping the seat of a low-
flying helicopter, I swooped across a vast, expanse of ice with 
a team from the U.S. Geological Survey on a quest to capture a 
mighty polar bear. Soon, we spotted a robust sow with two 
galloping cubs in tow, as they moved across the expansive ice. 
The wind was whipping at 40 miles an hour, and the temperature 
was a face-numbing ^70 degrees Fahrenheit.
    Despite the bitter cold, my heart was warmed from this 
remarkable encounter, and I savored every second of this humble 
moment, working with these scientists, as they collected 
incredibly important data for genetics and health assessment 
and, of course, attached an incredibly complex transmitter to 
track this creature. Unfortunately, the results from that test 
revealed that the cubs had ingested heavy metal toxins through 
the milk from their mother: a powerful example of, no matter 
how remote, wildlife remains vulnerable to the negligence of 
human kind.
    I have been fortunate to experience the magnificent wonders 
of nature, and I can say unequivocally that there is no other 
place on Earth that boasts the diversity of landscape and 
creatures than what we have here in our country. We are truly 
blessed with an extraordinary natural heritage, and we are 
lucky to walk out each day and experience the natural splendor 
that is uniquely ours.
    I have seen firsthand the amazing efforts of the talented 
men and women who are on the front lines of our agencies of 
conservation, fighting to save endangered species. Recovering 
endangered species from the brink of extinction and restoring 
their habitat is one of our Nation's greatest success stories.
    Think of the symbol of our country: the bald eagle. In the 
1970s, only 400 pair remained. Today, more than 20,000 pair 
survive. Every child in America today in the Lower 48 can 
witness a wild bald eagle. Grizzly bears and gray wolves have 
returned to the Western Plains. Black-footed ferrets, once 
declared extinct, now thrive in the shortgrass prairie. All of 
this because of the Endangered Species Act.
    But today, I come to you as my most important reason to 
testify, and that is my most important resource, and that is my 
two daughters, Maya and Marina. The ultimate goal as a father 
is to ensure that they have a healthy, robust ecosystem where 
they can thrive and prosper. And I believe the Endangered 
Species Act is critical in securing the natural legacy that we 
all depend upon. Thank you.

    [The prepared statement of Mr. Corwin follows:]
  Prepared Statement of Jeff Corwin, Wildlife Biologist, Author, and 
 Television Host on H.R. 424, H.R. 717, H.R. 1274, H.R. 2603, and H.R. 
                                  3131
    Good afternoon Chairman Bishop, Ranking Member Grijalva, and 
members of the House Natural Resources Committee. My name is Jeff 
Corwin and I am a wildlife biologist, explorer, television host, and 
lifelong naturalist. I have hosted numerous wildlife TV series, 
including the ABC TV series ``Ocean Treks with Jeff Corwin.'' I also 
authored the books ``100 Heartbeats: The Race to Save Earth's Most 
Endangered Species'' and ``Living on the Edge: Amazing Relationships in 
the Natural World.'' Thank you for inviting me to appear before the 
Committee today to deliver testimony on five bills related to Federal 
wildlife conservation.
    I've been fortunate over my career to have some amazing, intimate 
encounters with some of our world's most threatened and endangered 
species. I swam with Steller sea lions off the coast of Alaska. I 
rescued a poisoned California condor and returned it to the wild. I 
stood in Big Cypress National Preserve just 20 yards from a Florida 
panther, tracking his movements on a radio transmitter, but still 
unable to see this elusive big cat.
    In 2008, from the passenger seat of a low-flying helicopter, I 
swooped across a vast expanse of Arctic ice, searching for the mighty 
polar bear. Soon we spotted a family of gleaming white bears galloping 
at close to 20 miles an hour to escape what I'm sure momma bear thought 
to be a giant flying threat to her and her cubs. I stepped out onto the 
frozen tundra, into ^20 degree winds, the membranes of my eyes stinging 
and my breath instantly forming icicles on my face mask. The adventurer 
in me loved every second of this, even the pain and discomfort.
    We tagged the bear and used the data to learn more about how this 
magnificent creature was adapting to a swiftly shrinking ice sheet. The 
scientists I was traveling with had committed decades of their careers 
to their research, searching for ways to help these bears cope with an 
uncertain future. I've been fortunate to experience the magnificent 
wonders of nature, and I can say unequivocally that no other country in 
the world boasts the diversity of landscape and wildlife that we have 
here in America. We are truly blessed with an extraordinary natural 
heritage. And, I've seen firsthand the amazing work of the women and 
men who work for the Nation's wildlife conservation agencies. They 
should enjoy our full confidence that the science they rely on to do 
what's best for wildlife is respected and supported by us all.
    Bringing back endangered species from the brink of extinction and 
restoring their habitat is one of our Nation's greatest conservation 
success stories. Bald eagles now fly across the skies of nearly every 
state. Grizzly bears and gray wolves have returned to the Western 
Plains. Black-footed ferrets, once declared extinct, now thrive in the 
American prairie.
    But I fear that if we are not strong and resolute in our commitment 
to protecting endangered species and their habitat, we will quickly 
lose all the momentum we've gained and leave a legacy of mass 
extinction. I have spent time with hundreds of species, but I also have 
experienced seeing what extinction is like firsthand. I've encountered 
creatures that are no longer on this planet; they are gone forever. We 
cannot just rely on past accomplishments--not when we've come so far 
and still have so much further to go.
                       the sixth mass extinction
    These stories are not anomalies, but rather firsthand evidence of a 
disturbing phenomenon taking place on our planet. Scientists have 
concluded that we are well into the sixth mass extinction that planet 
Earth has experienced and that this one is largely caused by humans.\1\ 
The most recent update to the International Union for Conservation of 
Nature's (IUCN's) Red List of threatened species found that the global 
extinction crisis is much greater than we previously thought.\2\ Out of 
over 700 new species of birds that were added to the list in 2016, 11 
percent of them are threatened with extinction. Giraffes are now 
threatened with extinction, with populations in southern and eastern 
Africa declining by as much as 40 percent in the past three decades. An 
article published recently in the Proceedings of the National Academy 
of Sciences described the problem of declining wildlife populations as 
a ``biological annihilation.'' \3\ The crisis cannot be overstated.
---------------------------------------------------------------------------
    \1\ Ceballos, G., Ehrlich, P., Barnosky, A., Garcia, A., Pringle, 
R., Palmer, T., Accelerated modern human-induced species losses: 
Entering the sixth mass extinction, June 19, 2015, http://
advances.sciencemag.org/content/1/5/e1400253.
    \2\ IUCN, New bird species and giraffe under threat--IUCN Red List, 
Dec. 8, 2016, http://www.iucnredlist.org/news/new-bird-species-and-
giraffe-under-threat-iucn-red-list.
    \3\ Ceballos, G., Ehrlich, P., Dirzo, R., Biological annihilation 
via the ongoing sixth mass extinction signaled by vertebrate population 
losses and declines, May 23, 2017, http://m.pnas.org/content/early/
2017/07/05/1704949114.full.pdf.
---------------------------------------------------------------------------
    The loss of biological diversity is one of the most urgent global 
environmental problems we face today. Species all over the globe 
continue to face habitat loss, climate change, wildlife trafficking, 
pollution, and other existential threats. If we fail to take the 
necessary action to address human-caused threats to biodiversity, all 
species--including us--will face severe consequences in the coming 
decades and centuries. Sadly, we are on track to lose many beloved 
species forever. As the father of two daughters who love nature as much 
as I do, I am not ready to accept a future without vibrant, robust 
natural resources.
            the role of government in wildlife conservation
    The Federal Government plays an important role in conserving 
wildlife. In 2009, I testified before the House Appropriations 
Subcommittee on Interior, Environment and Related Agencies to advocate 
for substantial, dedicated funding to help safeguard America's wildlife 
and natural resources from the impacts of global warming. Here we are 8 
years later. Despite some administrative progress in recent years, it 
pains me to say that the government has not done enough to protect and 
conserve our imperiled species during that time. Congress has failed to 
adequately fund the Federal agencies charged with implementing 
important wildlife conservation programs, while simultaneously aiming 
to weaken our existing conservation laws. Wildlife conservation used to 
be a priority in this country and the rest of the world looked to the 
United States as a leader in this field. Now, wildlife conservation--
especially conservation work to benefit our most vulnerable species--is 
discouraged at the highest levels of government. Instead of being a 
pioneering leader in battling the global extinction crisis, we've not 
only taken the back seat--we've hijacked the process and seem intent on 
burning it to the ground. The five bills before the Committee today 
reflect a dismal and complacent view that I believe our political 
leaders have adopted toward wildlife conservation. It's as if they've 
forgotten how rare it used to be to see wild turkeys across the 
landscape or how special it was to spot a single bald eagle flying 
along the coastline. It's only because of our focused conservation 
efforts over the past several decades that dozens of species that were 
once on the brink of extinction are now flourishing.
                       the endangered species act
    The Endangered Species Act (ESA) is a great example of a celebrated 
American law that the rest of the world looks to as a model for 
conserving wildlife. The ESA is our Nation's most effective law for 
protecting wildlife in danger of extinction. It has prevented more than 
99 percent of listed species from going extinct, including the American 
bald eagle, the brown pelican, and the Florida manatee. We have a 
responsibility to be good stewards of our environment and protect our 
natural heritage for our children and grandchildren. The ESA transforms 
this principle into practice by protecting endangered species and their 
habitat so that future generations can experience animals in the wild, 
including seeing an orca swim off the coast of Washington State, 
spotting a bald eagle soaring in Maine, or hearing the cry of a wolf in 
Yellowstone National Park.
    When my daughter Maya was 3 years old, I had the pleasure of taking 
her to participate in the historic release of 14 black-footed ferrets 
into their grassland habitat. This is an animal that nearly went 
extinct in the wild and was only brought back from the brink thanks to 
extraordinary efforts under the ESA. Saving the black-footed ferret 
from the fate of extinction was a herculean task that required science, 
hard work and funding. The black-footed ferret is the ultimate 
Lazarus--from 18 captive animals that I had the privilege of filming in 
a zoo many years ago, it is now a recovering population that has helped 
restore an important Great Plains ecosystem. We take success stories 
and habitat restorations like this for granted rather than seeing them 
for what they are--tangible examples of how our conservation efforts 
under the ESA and other laws have paid off.
    I have also seen how human-caused threats can harm individual 
animals to the detriment of the species. In this case, the species in 
question was the critically endangered California condor--a magnificent 
bird with a wingspan of over 9\1/2\ feet. I joined biologists from the 
U.S. Fish and Wildlife Service (FWS) near Big Sur to help rescue a 
California condor in extreme distress. We brought the condor into the 
Los Angeles zoo to conduct a lead test and found that it had high 
levels of lead in its system. While this was just one individual animal 
that was affected, that condor represented roughly \1/500\th of the 
entire remaining population. The United States started the work to save 
this species from the brink of extinction. We owe it to future 
generations to continue that work for the condor and all species 
threatened with extinction. Wildlife conservation is an ongoing 
process. We cannot afford to be complacent and take for granted that 
our country's magnificent natural heritage will be here for our 
children without our continued, sustained commitment.
    I'm concerned that instead of rising to meet the current challenges 
we face, the bills that are the subject of today's hearing would 
collectively turn the U.S. government's back on the hard work that is 
required to save species for future generations. These five bills and 
numerous other measures that have been introduced this Congress 
demonstrate an unwillingness to do more to conserve imperiled species. 
Instead, the bills seek to do less. Each of these bills would harm 
threatened and endangered species and erode our most important tool to 
save them from extinction--the ESA.
 description of h.r. 424, h.r. 717, h.r. 1274, h.r. 2603 and h.r. 3131
    H.R. 424 (``Gray Wolf State Management Act of 2017'') would block 
Federal Endangered Species Act protections for gray wolves in the Great 
Lakes states and Wyoming. Specifically, this bill--which would be more 
aptly named the ``War on Wolves Act''--would overturn a Federal 
District Court decision and remove existing Endangered Species Act 
protections for gray wolves in Michigan, Minnesota, and Wisconsin. It 
would also codify a recent D.C. Circuit Court of Appeals decision that 
stripped Endangered Species Act protections for wolves in Wyoming. 
Further, the bill would prohibit future judicial review of both 
legislative wolf de-listings. In doing so, this legislation would not 
only undermine the ESA's science-based decision-making process, but 
also set a dangerous precedent for the rule of law and citizens' access 
to the courts more broadly. This bill continues a damaging precedent of 
allowing politicians to interfere with science-based listing decisions 
and encourages other insidious legislative attacks on the ESA.

    H.R. 717 (``Listing Reform Act'') puts a price on species 
conservation by enabling the FWS to determine that a species that would 
normally be listed as threatened would not receive protections if there 
are negative economic impacts associated with the listing. It would 
also completely gut the citizen petition process for listing species by 
removing all the deadlines that have historically allowed citizens to 
have their petitions ruled on in a timely fashion. The ESA was written 
to ensure that listing decisions are based on the best available 
science--not politics. Yet this bill would wrongly prioritize politics 
over science in determining whether or not our Nation's most endangered 
wildlife deserves protection.

    H.R. 1274 (``State, Tribal, and Local Species Transparency and 
Recovery Act'') would subvert the ESA's science-based listing process 
by allowing any information provided by states, tribes, or counties to 
constitute ``best available science.'' By automatically assuming such a 
broad swath of information to be defined as such without any scientific 
input or review, the bill would contradict the meaning of ``best 
available science.'' Moreover, H.R. 1274 would direct the Federal 
Government to utilize state and local data in its listing decisions, 
regardless of whether the data is based in science. H.R. 1274 is not 
only contradictory, but duplicative: under the ESA, the Federal 
Government already works extensively with the states, considers state 
and local data when making listing decisions, and notifies affected 
states of proposed listing determinations.

    H.R. 2603 (``Saving America's Endangered Species Act'') would strip 
ESA protections for non-native species within the United States. It 
would eliminate Federal protections for individual animals of listed 
foreign species in the United States, including chimpanzees, tigers, 
elephants, addax, several species of antelope, several species of 
parrots, pangolins and giant pandas. The legislation would obstruct the 
FWS's ability to regulate illegal wildlife trafficking or issue permits 
for exhibitors of foreign endangered and threatened species. Despite 
this bill's misleading name, eliminating permitting requirements for 
foreign species under the ESA will not benefit American species--it 
would only harm some of the most severely endangered species in the 
world and contribute to the decline of foreign species on the brink of 
extinction.

    H.R. 3131 (``Endangered Species Litigation Reasonableness Act'') 
would undercut citizen engagement and enforcement of the ESA by 
impeding citizens' ability to obtain counsel and challenge illegal 
government actions. Under H.R. 3131, citizens who successfully 
challenge illegal government actions under the ESA would be subject to 
fee recovery restrictions that could make it difficult for them to 
obtain counsel. In doing so, H.R. 3131 would make it more difficult for 
citizens from across the political spectrum to engage in the 
implementation of this fundamentally democratic law and to hold Federal 
agencies accountable for complying with it.
                               conclusion
    We cannot afford to lose focus on the importance of protecting 
wildlife and habitat for ours and future generations. We have not 
inherited our natural world from our parents; we are simply borrowing 
it from our children. We have a moral responsibility to be good 
stewards of our environment and ensure our children have something 
worthwhile when we are gone. The future of our planet rests squarely in 
our hands and the United States is in a particularly good position to 
take action before it's too late. Thanks to our visionary conservation 
laws like the Endangered Species Act, our native wildlife and their 
habitat have fared better than those in most countries. We must remain 
committed to the conservation values we hold dear and focus on positive 
initiatives to keep our natural heritage intact for future generations. 
We can and should lead the world in addressing the global extinction 
crisis. Now is the chance for us to step up and not lose the momentum 
of the last 50 years to protect nature's most endangered species from 
extinction.
    Although I recognize that I appear before you today as an expert 
with a career that is based in nature, I am here because, like many of 
you, I am a father. My job as a parent to my two amazing daughters is 
to ensure they have a healthy future. I must feed them well, teach them 
kindness and hope, encourage them to take risks, and show them how to 
be kind to their fellow human beings. The preservation of our landscape 
and the wildlife that inhabit it is a huge part of that. How we protect 
our planet sets an example for our children. I want them to have a 
future where wild animals roam free, special places remain undisturbed 
and our natural heritage continues to be our greatest asset.
    We must ensure that the laws designed to protect endangered and 
threatened species--along with the resources needed to enforce them--
remain intact.

    As a father, my job is to ensure my kids have a healthy future.
                                 ______
                                 
 Questions Submitted for the Record to Jeff Corwin, Biologist and Host 
               of ABC's ``Ocean Treks with Jeff Corwin''
                   Questions Submitted by Rep. Bishop
    Question 1. Please disclose the years in which you served on the 
Board of Directors for the Defenders of Wildlife.

    Answer. I was elected to serve on the Board of Directors for 
Defenders of Wildlife in 2004 and served until 2016.

    Question 2. Please describe the duties, obligations, and 
responsibilities you assumed as a member of the Board of Directors of 
Defenders of Wildlife. Please also describe in detail all duties, 
responsibilities, or obligations that your current association with the 
group entails.

    Answer. The Defenders of Wildlife board of directors controls and 
administers the affairs and funds of the organization. As a member of 
the board, I had the following general responsibilities:

    <bullet> All board members are expected at all times to vote and 
            act with Defenders' best interests in mind.

    <bullet> The board is responsible for ensuring that Defenders meets 
            legal requirements and that it is operating in accordance 
            with its mission and for the purpose for which it was 
            granted tax-exemption.

    <bullet> The board is responsible for ensuring the proper and 
            effective operation of Defenders of Wildlife.

    <bullet> In accordance with their individual capabilities, all 
            board members are expected to assist in making sure that 
            Defenders is provided with the financial and other 
            resources it needs.

    <bullet> I served on the board's Communications & Publications 
            Committee (later renamed Marketing & Communications), which 
            advises the board on proposed marketing and communications 
            strategies, from 2006-2013. I also served on the Executive 
            Committee, which exercises the authority of the board 
            during intervals between meetings of the board, from 2010-
            2011.

    As I am no longer a board member of Defenders of Wildlife and 
therefore have no formal association with the group, I have no duties, 
responsibilities or obligations to Defenders of Wildlife.

    Question 3. Please disclose all Endangered Species Act related 
cases that Defenders of Wildlife filed, and/or was party to while you 
served on its Board.

    Answer. I did not sit on the Defenders of Wildlife board's 
litigation committee, which is charged with reviewing and approving all 
litigation conducted by the organization. Although the board was 
generally briefed on legal developments, it has been more than a year 
since I've left the board, and I do not recall the specific Endangered 
Species Act-related cases that Defenders of Wildlife filed and/or was 
party to while I served on its Board. I understand, however, that Ya-
Wei Li, Defenders' Vice President for Endangered Species Conservation, 
recently provided a comprehensive list of such litigation to the 
Oversight & Investigations Subcommittee of this Committee.

    Question 4. Please disclose the amount of attorney's fees paid to 
the Defenders of Wildlife under the Equal Access to Justice Act, or the 
Justice Fund, for each case filed, and/or for each case for which 
Defenders of Wildlife was a party while you served on its Board.

    Answer. As I noted, I was not a member of the board's litigation 
committee. Although the board was generally briefed on legal 
developments, I do not recall the details of attorney's fees paid to 
Defenders of Wildlife.

                                 ______
                                 

    The  Chairman. Thank you.
    Mr. Willms.

  STATEMENT OF DAVID WILLMS, POLICY ADVISOR, WYOMING GOVERNOR 
                           MATT MEAD

    Mr.  Willms. Chairman Bishop, Ranking Member Grijalva, 
members of the Committee on Natural Resources, thank you for 
the invitation to share Governor Mead's and Wyoming's 
perspective on the Endangered Species Act.
    The civic duty and moral responsibility to conserve our 
Nation's wildlife and the ecosystems upon which they rely 
transcends politics. Congress said as much when it nearly 
unanimously passed the Endangered Species Act in 1973. Yet for 
the past several decades, divisive partisan rhetoric has 
politicized wildlife management. In the meantime, both wildlife 
and people suffer.
    To move forward, we must acknowledge that the Endangered 
Species Act both succeeds and fails. We must celebrate its 
successes, but recognize and seek to remedy its failures in a 
way that allows the ESA to better serve wildlife and people.
    This mind-set led Governor Mead to launch the Species 
Conservation and Endangered Species Act initiative when he 
became Chair of the Western Governors Association in the summer 
of 2015. Using a transparent, inclusive, and bipartisan 
process, Governor Mead brought a diverse group of thought 
leaders together from around the country to discuss ways to 
improve the Endangered Species Act and species conservation, 
more generally.
    After 2 years, Western Governors adopted a series of 
recommendations that described specific funding, regulatory, 
and statutory recommendations to further strengthen the 
Endangered Species Act and enhance species conservation. These 
recommendations identify and seek to address many of the issues 
identified in the bills you are considering today.
    Western Governors recommended additional funding in certain 
areas. Governor Mead supports these recommendations, as well as 
recommendations that deliver more direct funding to states for 
species conservation. However, before making large 
appropriations for Endangered Species Act implementation, it 
makes sense to identify and rectify procedural inefficiencies 
within the ESA that unnecessarily strain existing U.S. Fish and 
Wildlife resources.
    After correcting these inefficiencies, the Fish and 
Wildlife Service and Congress will better understand where they 
can redistribute existing funding, and where additional funding 
may be appropriate.
    For example, the deadlines in Section 4 of the ESA invites 
uncontrolled procedural and legal gambits intentionally 
designed to cripple the Fish and Wildlife Service's ability to 
implement the ESA. This, in turn, erodes support from many of 
the stakeholders necessary for species conservation.
    However, the deadlines are not sacrosanct. When Congress 
adopted the ESA in 1973, it did not include deadlines. In 1982, 
after complaints that the Fish and Wildlife Service 
intentionally delayed listing decisions, Congress amended the 
ESA, adding the current 90-day and 12-month deadlines. Rather 
than being rooted in science, these deadlines were politically 
motivated to spur the Administration into taking timely action 
on potential species listings.
    However, Congress could not anticipate the strategic 
onslaught of species petitions and related litigation that 
would strain the agency decades later. After 35 years, let us 
admit that existing deadlines in Section 4 have outlived their 
usefulness. In addition to the petitions and litigation 
problems, the compressed deadlines discourage innovative and 
voluntary conservation, and may limit Fish and Wildlife Service 
access to valuable scientific data that could otherwise inform 
listing determinations.
    Through their June 2017 recommendations, Western Governors 
identified two possible ways to address these issues, which are 
attached and described in detail in my written testimony. 
Wyoming supports both.
    Our current system also makes recovering species and 
removing ESA protections for them difficult. Currently, roughly 
30 percent of all listed species have no recovery plan. On the 
other extreme, species like grizzly bears and gray wolves in 
Wyoming exceeded recovery plan objectives for more than 15 
years before returning to state management, with the constant 
threat of litigation looming. This needs to change to maintain 
the integrity and support for the ESA from the varied 
stakeholders upon which it depends.
    States already play a significant role in species recovery. 
As described in detail in my written testimony, willing states 
should be allowed to lead recovery teams and develop recovery 
plans for listed species. States have already contributed to 
the recovery of some of the Nation's most iconic species.
    For example, Wyoming spent more than $42 million recovering 
grizzly bears, including research, public education, and 
landowner incentives. They can do more. Further, to facilitate 
successful state management upon de-listing, judicial review of 
a de-listing rule should be delayed until the completion of the 
statutory post de-listing monitoring period. This would not 
jeopardize recently de-listed species.
    Fish and Wildlife Service has never, to my knowledge, 
relisted a species that it successfully de-listed due to 
recovery. This underscores the seriousness with which the 
states accept their responsibility to develop and implement 
management plans that ensure recovered species into the 
foreseeable future.
    In conclusion, Governor Mead supports the Endangered 
Species Act. The ESA is responsible for igniting some of the 
most remarkable species recoveries ever documented, and 
continues to facilitate the recovery of other imperiled 
species. However, it is far from perfect. It can and should 
work better, both for wildlife and for people. The 
recommendations put forward by Western Governors through 
Governor Mead's initiative are both reasonable and achievable 
solutions.

    [The prepared statement of Mr. Willms follows:]
   Prepared Statement of David J. Willms, Policy Advisor to the Hon. 
                  Matthew H. Mead, Governor of Wyoming
    Mr. Chairman and members of the Committee, thank you for the 
invitation to testify today. I have worked on endangered species issues 
for my entire career, first as a Senior Assistant Attorney General for 
the state of Wyoming, and then in private practice. Today, I am a 
natural resources policy advisor for Wyoming Governor Matthew H. Mead, 
and teach a graduate course on the Endangered Species Act at the 
University of Wyoming. I appreciate the opportunity to share Governor 
Mead's, and Wyoming's perspective on the Endangered Species Act.
    The civic duty and moral responsibility to conserve our Nation's 
wildlife and the ecosystems upon which they rely transcends politics. 
Congress said as much when it nearly unanimously passed the Endangered 
Species Act (ESA) in 1973. Yet for the past several decades, divisive 
partisan rhetoric has politicized wildlife management. In the meantime, 
both wildlife and people suffer. To move forward, we must acknowledge 
that the ESA both succeeds and fails. We must celebrate its successes, 
but recognize, and seek to remedy its failures in a way that allows the 
ESA to better serve wildlife and people.
    This mind-set led Governor Mead to launch the Species Conservation 
and Endangered Species Act Initiative (Initiative) when he became the 
chair of the Western Governors' Association (WGA) in the summer of 
2015. Using a transparent, inclusive, and bipartisan process, Governor 
Mead brought a diverse group of thought leaders together from around 
the country to discuss ways to improve the ESA, and species 
conservation more generally. Over 2 years, the Initiative hosted nine 
facilitated work sessions, six webinars, multiple surveys and 
questionnaires that produced two reports outlining opportunities to 
strengthen the ESA. This work led to a resolution that Governors 
unanimously adopted in June of 2016. The National Governor's 
Association adopted a similar resolution in early 2017. Then last 
month, Western Governors adopted a new series of recommendations that 
describe specific statutory, regulatory, and funding recommendations to 
further strengthen the ESA, and enhance species conservation.
    Governor Mead hopes this Committee finds these bipartisan 
recommendations helpful as you consider updating the ESA. You will find 
that several of the challenges Western Governors identified with the 
ESA's current implementation are consistent with the challenges 
underlying many of the bills you are considering today. For 
illustration, I would like to explain from Wyoming's perspective, how 
the WGA recommendations address common criticisms of the ESA including, 
(1) funding shortfalls, (2) reducing procedural litigation, and (3) a 
more robust recovery planning process.
                                funding
    Groups routinely argue that inadequate funding serves as an 
impediment to successful ESA implementation. Some of these arguments 
have merit. Western Governors recommended additional funding in certain 
areas including: (1) to address the current backlog of recovered 
species awaiting down-listing or de-listing; and (2) to enhance 
incentive based conservation efforts for listed and non-listed species. 
Governor Mead supports these recommendations, as well as 
recommendations that deliver more direct funding to states for species 
conservation. Other funding may also be appropriate; however, those 
funding discussions are, in some cases, premature.
    Before making large appropriations for ESA implementation, it makes 
sense to identify and rectify procedural inefficiencies within the ESA 
that unnecessarily strain existing U.S. Fish and Wildlife Service (FWS) 
resources.\1\ After correcting these inefficiencies, the FWS and 
Congress will better understand where they can redistribute existing 
funding, and where additional funding may be appropriate.
---------------------------------------------------------------------------
    \1\ The Secretaries of the Interior and Commerce have authorities 
under the ESA, which manifest through the Fish and Wildlife Service and 
National Marine Fisheries Service. For purposes of my testimony, I 
refer to the FWS because Wyoming interacts with them exclusively.
---------------------------------------------------------------------------
                         procedural litigation
    For example, the current structure of Section 4 of the ESA invites 
uncontrolled procedural and legal gambits intentionally designed to 
cripple the FWS's ability to implement the ESA. This in turn erodes 
support from many of the stakeholders necessary for species 
conservation. Section 4 establishes the protocols for listing and de-
listing species. Under this section, a person may submit a petition to 
the FWS requesting ESA protection for a species as either threatened or 
endangered. Within 90 days, the FWS must determine whether the petition 
contains enough information to warrant a more detailed analysis. If it 
does, then the FWS must make a final determination about the species 
within 12 months. These deadlines are the source of the greatest 
acrimony in ESA implementation. However, they are not sacrosanct.
    When Congress adopted the ESA in 1973, it did not direct the FWS to 
act on petitions it received in a specific time frame. In 1978, 
Congress amended the ESA, and gave the FWS 2 years to make a final 
determination on whether or not to list a species. Under the 1978 
amendment, if the FWS failed to act within 2 years, it was required to 
withdraw the rulemaking until it received new information about the 
species.
    In 1982, after complaints that the FWS intentionally delayed 
listing decisions, Congress again amended the ESA adding the current 
requirement that the FWS make an initial 90-day finding, and that it 
act on a substantial 90-day finding within 12 months of the date it 
receives a petition. Congress did not establish these deadlines using 
any scientific rationale. Instead, Congress imposed a politically 
concocted, arbitrary deadline to spur the Administration into taking 
timely action on potential species listings.
    However, Congress did not anticipate the strategic onslaught of 
species petitions and related litigation that would strain the agency 
decades later. Prior to 2003, the FWS never received more than 25 
species listing petitions in a single year. Since then, species 
petitions have skyrocketed. In 2007, the Services received petitions to 
list 695 species, and another 432 in 2010--nearly all of which 
originated from two non-governmental organizations. These two groups 
attempt to overwhelm the FWS with so many species petitions that the 
FWS is unable to respond within the statutory time frames. Then, these 
two groups litigate, in hopes that the FWS will acquiesce to their 
demands. We should not allow two groups to dictate the policy of an 
entire agency because we are afraid to acknowledge and address the 
problem.
    After 35 years, let us admit that the politically motivated 
deadlines in Section 4 have outlived their usefulness. In addition to 
the problems discussed above, the compressed deadlines discourage 
innovative and voluntary conservation, and may limit FWS access to 
valuable scientific data that could otherwise inform a listing 
determination.
    Through their June 2017, recommendations, Western Governors 
identified two possible ways to address these issues. Wyoming supports 
both. Congress could amend Section 4 to give the FWS greater 
flexibility to prioritize petitions it receives, but with an 
understanding that it must still make a decision by a specific date. 
Alternatively, Congress could amend Section 4 to give the FWS 
discretion to defer listing determinations up to 5 years if the species 
meets certain conditions. For example, the FWS could defer a listing 
decision to allow state-led conservation efforts an opportunity to 
succeed, or to allow the completion of ongoing scientific studies 
related to the petitioned species.
    In addition to alleviating the agency workload, these pragmatic 
changes have other benefits. They would allow the FWS to ensure that 
the most imperiled species receive immediate attention, thus reducing 
the likelihood of extinction. They would encourage more creative and 
collaborative conservation efforts like those undertaken for greater 
sage grouse and lesser prairie chicken. They would ensure that listing 
decisions are based on the best available science. Finally, they would 
significantly reduce litigation, allowing agency personnel to spend 
more time developing and implementing strategies for recovering listed 
species.
                           recovery planning
    The ESA envisions recovering a species to the point that its 
protections are no longer necessary. Yet, our current system makes 
removing protections for recovered species difficult. This must change. 
Currently, 493 species, or roughly 30 percent of all listed species 
have no recovery plan. This means species like Canada lynx, which the 
FWS listed as threatened more than 17 years ago, sit in purgatory with 
no discernible path to recovery. On the other extreme, species like 
grizzly bears and gray wolves exceeded recovery plan objectives for a 
generation before returning to state management.
    Grizzly bears first met their ESA prescribed recovery objectives in 
2003--an event that would presumably trigger de-listing. Yet, the FWS 
took 4 more years before publishing a de-listing rule in 2007. 
Ultimately, the rule failed to survive judicial review on a procedural 
technicality. Grizzly bears continued to increase in population and 
expand their range, yet it took until June of this year before the FWS 
issued a new de-listing rule addressing the 9th Circuit's lone concern. 
Instead of celebrating grizzly bear recovery as an ESA success story, 
hosts of organizations have already issued notices of intent to sue the 
FWS over its de-listing rule. They allege procedural deficiencies in 
the rule as well as hypothetical, unsubstantiated, prospective harm.
    Fundamentally, these groups do not want to see grizzly bears de-
listed because they do not trust states to manage wildlife within their 
borders. However, they fail to recognize two important facts. First, 
states played a significant role in recovering grizzly bears. Since the 
early 1980s, Wyoming has spent more than $42 million on grizzly bear 
recovery--including contributing to research that makes this population 
of grizzly bears perhaps the most studied mammalian population on the 
planet. Wyoming also funds public education and landowner incentive 
programs that engender support for grizzly bears on a multiple-use 
landscape. Second, the FWS has never relisted a species that it 
successfully de-listed due to recovery. This fact underscores the 
seriousness with which the states accept their responsibility to 
develop and implement management plans that ensure a recovered species 
into the foreseeable future.
    For these reasons, Governor Mead encourages Congress to consider 
the WGA recommendation that would encourage willing states to lead 
recovery teams and develop recovery plans for listed species. Those 
recovery plans should contain discrete, achievable goals that when met 
satisfy all of the de-listing criteria under Section 4 of the ESA. When 
the species meets the recovery goals established in the recovery plan, 
the FWS should immediately initiate a status review of the species for 
purposes of considering de-listing or down-listing of the species. 
Finally, once the FWS de-lists a species, states should manage the 
species. To allow states an opportunity to succeed, Congress should 
consider delaying judicial review of a de-listing rule until the 
completion of the post de-listing monitoring period established through 
the de-listing rule pursuant to statute.
                                 wolves
    I briefly want to address this Committee's efforts to ensure wolves 
in Wyoming remain under state management. Earlier this year, after a 
protracted legal battle, the Federal Circuit Court in Washington, DC 
issued a mandate that reinstated a 2012 FWS rule de-listing gray wolves 
in Wyoming. Today, Wyoming is managing wolves pursuant to a federally 
approved wolf management plan that ensures a recovered wolf population 
in Wyoming for the foreseeable future. The provision of the bill 
protecting the FWS wolf de-listing rule from further judicial review 
provides the states with needed predictability while still ensuring a 
recovered wolf population.
    Regardless of the mechanism, any measure that ensures state 
management predictability into the future provides the most pragmatic 
and reasonable solution for both the gray wolf population and Wyoming 
citizens. The ESA preserves the responsibility for the FWS to relist 
Wyoming's gray wolf population if it becomes threatened or endangered 
in the future. The current draft of this bill does not affect this ESA 
requirement.
                               conclusion
    Governor Mead supports the Endangered Species Act, as evidenced by 
his leadership of the Species Conservation and Endangered Species Act 
Initiative through the Western Governors' Association. The ESA is a 
valuable tool for ensuring that our suite of wildlife remains for the 
enjoyment of future generations. The ESA is responsible for igniting 
some of the most remarkable species recoveries ever documented, and 
continues to facilitate the recovery of other imperiled species. 
However, it is far from perfect. It can, and should work better, both 
for wildlife and for people. The recommendations put forward by Western 
Governors through Governor Mead's Initiative are both reasonable and 
achievable solutions that warrant serious consideration.
    Thank you again for this opportunity to share Wyoming's perspective 
on ways to strengthen the ESA and enhance species conservation.

                                 *****

                               ATTACHMENT

WGA Species Conservation and the Endangered Species Act Initiative Year 
                          Two Recommendations

Preamble
    The Western Governors' Association (WGA), under the leadership of 
then-Chairman Wyoming Governor Matt Mead, launched the Western 
Governors' Species Conservation and Endangered Species Act Initiative 
(Initiative) in 2015. Since the Initiative's inception, WGA has hosted 
numerous workshops, webinars, and work sessions to create a forum for a 
diverse coalition of stakeholders to share best practices in species 
management, promote the role of states in species conservation, and 
explore options to improve the efficacy of the Endangered Species Act 
(ESA).
    While the Initiative has closely examined the ESA, the effort goes 
well beyond consideration of the Act alone. Governors also are seeking 
to encourage voluntary conservation--through early identification of 
sensitive species and establishment of institutional frameworks that 
incentivize collaborative voluntary conservation--thus avoiding the 
need to list species in the first place.
    The first year of the Initiative (2015-2016) resulted in approval 
of WGA Resolution 2016-08: Species Conservation and the Endangered 
Species Act--an expansive resolution encapsulating Governors' 
principles informed by the Initiative. The Resolution instructs WGA 
staff to develop a multi-year workplan to further Governors' policy 
principals on Species Conservation and the ESA. What followed in the 
first year of workplan implementation (2016-2017) was a continuation of 
the transparent, inclusive, and stakeholder driven process to refine 
and examine avenues for implementation of Governors' policy statements 
expressed in the Resolution.
    A suite of recommendations addressing proactive and incentive based 
voluntary conservation species and ESA implementation emerged from year 
two work sessions. Work session participants were not expected to reach 
full consensus on recommendations forwarded by the Governors. However, 
comity among work session participants gave rise to significant 
progress toward conceptual agreement and helped inform the Governors' 
deliberations on the recommendations contained in this document.
    As interest within Congress and the Administration in examining the 
ESA builds, Western Governors' submit these bipartisan statutory, 
regulatory and funding-related recommendations consistent with 
implementation of the principles forwarded in WGA Resolution 2016-08, 
Species Conservation and the Endangered Species Act.
    Importantly, with respect to statutory recommendations, Western 
Governors' acknowledge any congressional effort to amend the ESA will 
be complicated and spark diverse opinions. WGA's ESA initiative enjoyed 
diverse stakeholder input and broad consensus; these resulting 
recommendations represent bipartisanship at this stage. Each Governor 
reserves judgment on whether to support congressional action, based 
upon unknown future legislative language.
Statutory

  1.  (A) Amend Section 4 of the Endangered Species Act to create 
            flexibility for the U.S. Fish and Wildlife Service (FWS) 
            and National Marine Fisheries Service (NMFS) (collectively, 
            ``Services'') to create a prioritization schedule for 
            petitions received. The Services must assign a petitioned 
            species a listing priority within 12 months of a positive 
            90-day finding. Species in immediate risk of extinction 
            will receive highest priority, while species with ongoing 
            conservation efforts or species for which listing would 
            provide limited conservation benefit within the foreseeable 
            future will be placed in a lower priority category.

      (B) Amend Section 4 of the Endangered Species Act to create a 
            statutory exception for the U.S. Fish and Wildlife Service 
            (FWS) and National Marine Fisheries Service (NMFS) 
            (collectively, ``Services'') to defer 12-month findings for 
            a species under the ESA when: (1) a conservation plan is 
            either being developed or implemented to meet the 
            conservation needs of the species. In the case of species 
            that range across multiple states, this refers to a plan in 
            each state or a range-wide plan. The Services may renew the 
            deferral every five years so long as they have worked with 
            states to complete a determination that the conservation 
            plan continues to meet the conservation needs of the 
            species; (2) a delay will allow time to complete data 
            collection or complete studies relating to the petitioned 
            species; (3) species for which listing would provide 
            limited conservation benefit within the foreseeable future.

  2.  Require the Secretary to make a determination on whether or not 
            to designate critical habitat for a species. The Secretary 
            shall designate critical habitat if he or she determines 
            such a designation is necessary to recover the species. If 
            the Secretary determines that such designation is not 
            critical to recovery of the species, the Secretary may 
            decline to designate critical habitat for a species. If the 
            Secretary designates critical habitat, it must link such 
            designation to recovery objectives and plans. For many 
            species, recovery planning cannot occur until years after a 
            listing, leaving a lot of time for critical habitat to be 
            compromised in the meantime. When necessary, critical 
            habitat should continue to be designated at the time of 
            listing, and re-evaluated as part of the recovery planning 
            process. The Secretary will retain current authority to 
            permit exclusions from critical habitat designations for 
            discrete purposes.

  3.  Upon listing, the Services will convene a recovery team within 12 
            months. States will have the option to lead and develop 
            that team. The Recovery Team shall create a recovery plan, 
            and lead its implementation. The recovery plan shall 
            include criteria, that when met, would require the Recovery 
            Team to recommend de-listing or down-listing to the 
            Services. Whenever necessary, the recovery plan should be 
            updated to include the best available science and 
            strategies to address all recognized threats to recovering 
            the species. Upon receipt of the recommendation to de-list 
            or down-list a species from the Recovery Team, the Service 
            shall initiate a status review of the species for purposes 
            of considering de-listing or down-listing. Once the 
            Services issue a de-listing rule, they shall develop a post 
            de-listing monitoring plan in a timely fashion, and 
            judicial review of the delisting rule will be delayed until 
            the completion of the post de-listing monitoring review 
            period so long as a federally endorsed conservation plan is 
            in place.

Regulatory/Administrative

  1.  Examine the possibility of providing assurances on public land to 
            minimize the disincentive to enrolling in Candidate 
            Conservation Agreements with Assurances (CCAAs) for 
            permitted public land users with operations spanning both 
            federal and private land. Assurances provided may not come 
            in the form of incidental take permit associated with 
            CCAAs, but rather a suite of assurances such as increased 
            AUMs or extended grazing lease renewal periods for 
            operators providing conservation actions on public lands, 
            providing the assurances would not compromise the intent of 
            the CCAA to recover the species to the point that ESA 
            listing is not necessary.

  2.  When a landowner implements conservation measures as a part of a 
            federally endorsed conservation agreement, the Services may 
            exclude private land covered under the agreement from any 
            critical habitat designation. This authority currently 
            exists under the ESA, but needs further clarification and 
            guidance.

  3.  When making listing determinations, the Secretary must take into 
            account conservation efforts to protect species, including 
            efforts by states, federal agencies, and private 
            landowners.

  4.  The Services should work with states to develop templates for 
            voluntary conservation programs and conservation tools that 
            are intended to incentivize voluntary conservation for a 
            variety of species and habitats. These templates would 
            provide a more streamlined process of implementing 
            voluntary conservation programs for candidate and listed 
            species.

  5.  Encourage the Service to develop Species Status Assessments to 
            help inform a listing determination. If listing is deemed 
            warranted, use this same assessment to inform development 
            of a recovery plan blueprint so stakeholders are able to 
            implement effective recovery actions prior to the release 
            of a formal species recovery plan.

  6.  Given the Services' new policy of using Species Status 
            Assessments (SSAs) as a routine part of listing and 
            recovery decisions made under the ESA, recommend the 
            Services promulgate regulations to ensure the SSAs serve 
            their intended function of collecting and analyzing 
            foundational science on a species and updating that 
            information promptly when new data or analysis becomes 
            available. Give state wildlife agencies a leadership role 
            on SSA teams commensurate with their position as the 
            repository of the bulk of the data and expertise on many 
            species. Most critically, provide an adequate internal 
            appeals process for challenging the conclusions of an SSA, 
            either to Ecological Services leadership or to the Regional 
            Director, to ensure that a misguided determination does not 
            become embedded in multiple future decisions about a 
            species.

  7.  Develop a national policy for the implementation of 4(d) rules 
            that details best practices and incentivizes strong local 
            input.

  8.  Clarify or emphasize existing authority under the ESA for states 
            to exercise concurrent jurisdiction with the Services to 
            implement the ESA, including management of threatened 
            species and issuance of Section 10 take permits, if states 
            demonstrate a desire and capacity to do so.

  9.  If states decline to develop and lead a recovery team, as 
            described in Statutory Recommendation #3, the Services 
            shall still seek sufficient participation from states to 
            assemble recovery teams. States maintain strong wildlife 
            management expertise, relationships with their regulated 
            communities, and are able to better identify those 
            individuals and entities that can best contribute to the 
            recovery planning process.

 10.  Establish an informative ``playbook'' to inform citizens on how 
            to engage throughout various steps of the ESA process.

 11.  In the case of species which are listed as threatened or 
            endangered where listing provides limited conservation 
            benefit within the foreseeable future, concurrent with the 
            listing, Services should issue a 4(d) rule that emphasizes 
            regulatory flexibility. Services should also consider 
            delaying critical habitat designations, as well as modify 
            the way in which they conducts consultations.

Funding

  1.  Pair economic incentives with critical habitat and priority 
            conservation designations on private land and public land 
            permitted users to alleviate the burden of critical habitat 
            designations on private land while rewarding stewardship of 
            quality habitat. Incorporate a scoring system--similar to, 
            but not duplicative of, farm bill incentive scoring 
            system--developed by stakeholders and including states, for 
            private land conservation priority to assign varying 
            economic incentives.

  2.  The Services' budget should include specific line items directing 
            funding to assist stakeholders interested in seeking 
            assurance agreements and other voluntary conservation 
            efforts.

  3.  The Services currently allocate very little of their recovery 
            budget to de-listing or down-listing recovered species, 
            which causes species to remain listed as threatened or 
            endangered longer than the ESA intends. Congress should 
            allocate money to the Services through a specific line-item 
            in their budgets to enable the Services to timely de-list 
            or down-list species.

  4.  Congress should allocate additional funding to the Services' to 
            implement the ESA. Western Governors believe that adoption 
            of these recommendations will improve the efficacy of the 
            ESA, but recognize that the Services and states require 
            adequate funding to ensure successful implementation of the 
            Act. Governors will work with Congress to identify 
            priorities for funding that will facilitate voluntary 
            species conservation efforts and improve the efficacy of 
            the ESA.
                                 ______
                                 
 Questions Submitted for the Record to Davis Willms, Policy Advisor to 
                       Wyoming Governor Matt Mead
                   Questions Submitted by Rep. Bishop
    Question 1. You mentioned in your written statement that 493, or 
roughly 30 percent of listed species have no recovery plan--for 
example, the Canadian Lynx has been listed for 17 years with no plan.

    1a. Please explain how the lack of recovery planning has impacted 
states and the species?

    Answer. Delayed recovery planning negatively impacts wildlife and 
people in several ways. First, it complicates land management planning 
documents. When Federal agencies update their land use documents, they 
must address threats to listed species. In the absence of recovery 
plans, agencies lack the requisite detail to understand where to manage 
for the benefit of listed species, and where to allow multiple uses on 
the landscape. This can delay planning processes and create unnecessary 
disruptions to other uses of Federal land.
    Second, it discourages states from investing financially in species 
recovery. Canada lynx were listed as threatened 17 years ago, but have 
no recovery plan. Consequently, Wyoming spent only $8,209 on Canada 
Lynx in 2016. Other species with active recovery plans receive far more 
resources. In 2016, Wyoming spent $2,606,261 on grizzly bear recovery, 
$265,107 on black-footed ferret recovery, and $25,376 on Preble's 
meadow jumping mouse recovery. Even unlisted species with active 
conservation plans received more financial investment than lynx. For 
example, Wyoming spent $2,770,262 on sage grouse conservation and 
$332,764 on black-tailed prairie dog management in 2016.
    Third, species recovery takes longer without a recovery plan. 
Consequently, the costs and delays of Endangered Species Act (ESA) 
compliance continue longer. This includes completing Section 7 
consultations for projects with a Federal nexus, and developing a 
conservation plan to acquire an incidental take permit under Section 
10. In each instance, these processes can delay project implementation, 
increase costs, and in rare instances stop the project. The longer a 
species remains listed, the longer people must endure these burdensome 
steps.
    Finally, one of the stated purposes of the ESA is to recover 
species to the point that the ESA's protections are no longer 
necessary. It requires the U.S. Fish and Wildlife Service (FWS) develop 
a recovery plan to achieve this purpose. Species with recovery plans 
recover faster and more effectively than those without a plan. So, the 
FWS's failure to develop recovery plans for roughly 30 percent of 
listed species potentially jeopardizes those species' long-term 
survival.

    1b. How would state-led recovery teams benefit recovery efforts?

    Answer. States have the local relationships and species knowledge 
to lead an effort that will expedite species recovery. States can 
leverage their relationships with landowners to facilitate conservation 
on private lands. States can also utilize their species data to best 
articulate and implement a road-map to species recovery. Both of these 
factors will lead to quicker and more effective species recovery.
    Quicker species recovery has many benefits. It ensures species 
survival, engenders support for the ESA from the regulated community, 
and allows wildlife managers to turn their attention to other imperiled 
species. Further, with states leading recovery efforts, the FWS may 
have increased flexibility to spend limited resources on species with 
greater need. This benefits all species, and gives the regulatory 
certainty they desire.
    Western Governors identified ways Congress and the FWS can improve 
the recovery planning process. The specific recommendations are 
described in my written testimony and the WGA Species Conservation and 
the Endangered Species Act Initiative Year Two Recommendations, which 
is attached to my written testimony.

    1c. Please elaborate on the importance of state-led conservation 
efforts and how allowing them time to work benefits the species, our 
economy, and our communities.

    Answer. Wildlife and people benefit when the protections of the ESA 
are not needed. State-led conservation efforts frequently preclude the 
need to list species. This benefits people, and the species that the 
conservation efforts target. For example, Wyoming developed a 
conservation strategy for greater sage grouse that ultimately helped 
ensure that it would not require ESA protections, while protecting 
Wyoming's economy. Wyoming's conservation strategy will cost its 
economy roughly $1 billion annually and 5,495 jobs. However, if the FWS 
listed sage grouse as threatened or endangered, Wyoming would suffer 
economic harm of $1.5 to $5.3 billion annually and a loss of up to 
24,000 jobs. (Temple Stoellinger, David Taylor, A Report on the 
Economic Impact to Wyoming's Economy From a Potential Listing of the 
Sage Grouse, University of Wyoming, 2016).
    Wyoming's efforts to conserve sage grouse succeeded because it had 
time to develop and implement its strategy. This time allowed Wyoming 
to solicit participation from a diverse group of stakeholders to 
develop a framework that worked for sage grouse, and people.
    State led conservation efforts benefit listed species too. The FWS 
does not have the resources to recover every listed species. If states 
are implementing conservation plans that preclude the need to list 
species, the FWS can invest more time and money in recovering truly 
imperiled species.
    The rigid timelines in Section 4 of the ESA can hinder creative 
conservation efforts. Western Governors recognized this, and endorsed 
creating flexibility in the ESA to encourage greater prelisting 
conservation. Those recommendations are included as part of my written 
testimony.

    Question 2. The Gray Wolf State Management Act would protect the 
wolf de-listing rule from further judicial review and lend more 
stability and predictability to state management efforts.

    2a. How did years of uncertainty impact the State of Wyoming and 
why is certainty in the de-listing process important to states?

    Answer. When wolves reached their recovery objectives of 10 
breeding pairs and 100 wolves in 2002, Wyoming and its citizens 
anticipated that the state would soon begin managing wolves. However, 
years of litigation and disagreements about state management plans 
followed. Wyoming entered its first of five lawsuits related to wolf 
de-listing in 2004, and resolved its last lawsuit earlier this year.
    In 2009 and 2012, the FWS returned management to the state only to 
have a Federal judge reinstate protections. In the meantime, wolf 
populations rose to nearly 400, and local support for wolves waned.
    For years, Wyoming sportsmen have invested in wolf recovery. 
Through the Game and Fish Department, sportsmen compensate livestock 
producers who suffer losses from wolf depredation. Last year, the Game 
and Fish Department compensated landowners for $390,000 in sheep and 
cattle losses attributed to wolves, which is an increase of $80,000 
over the prior year. Without state management, this number will only 
increase, and sportsmen will grow increasingly frustrated along with 
landowners.
    Earlier this year, the Federal Circuit Court in Washington, DC 
reinstated Wyoming's 2012 de-listing rule. Since then, Wyoming has 
managed wolves pursuant to its management plan. State management should 
result in decreased human/livestock conflict, fewer sportsmen dollars 
going to damage compensation, and increased support for wolves on the 
landscape. The state management plan also ensures a recovered wolf 
population for the foreseeable future. Yet, the threat of litigation 
continues, which perpetuates distrust from the public, and skepticism 
from the state.

    2b. Short of additional acts of Congress to de-list recovered 
species and protect them from years of litigation, how would you 
suggest we improve the de-listing process to lend more certainty and 
predictability to state management efforts?

    Answer. Western Governors identified two specific ways to improve 
the de-listing process, which are detailed in WGA Species Conservation 
and the Endangered Species Act Initiative Year Two Recommendations, 
attached to my written testimony. First, give states the opportunity to 
lead the development of a recovery team, and implementation of a 
recovery plan. The recovery plan should contain criteria, that when 
met, would trigger a status review for potential de-listing or down-
listing.
    Second, once the FWS de-lists a species, consider delaying judicial 
review until the end of the post de-listing monitoring period. This 
would allow states to implement FWS endorsed management plans for a 
minimum of 5 years without the threat of litigation. At that time, 
litigants would have to base their challenge to the de-listing rule on 
realized, rather than theoretical harm. Since no species that FWS 
successfully de-listed due to recovery has ever been relisted, adding 
this provision will not negatively impact wildlife. However, it will 
provide greater certainty to states, and the regulated communities 
impacted by perpetual litigation.

    Question 3. The Listing Reform Act allows for threatened species 
designations to be precluded due to economic factors, and allows for 
reconsideration of precluded threatened species listings only if the 
Secretary determines that there is a danger of species extinction, or 
if the Service receives a new petition that includes alternative 
actions that can be taken to avoid the economic impacts of listing.

    3a. Should economic factors be considered in threatened species 
designations, and if so, why?

    Answer. The impacts of a listing can devastate local economies. 
Governor Mead recognizes this, as do other Western Governors. That is 
one of the reasons that so many states, local governments, landowners, 
industries, and conservationists came together to conserve the greater 
sage grouse. We should encourage more creative, collaborative 
conservation efforts to obviate the need to list species. This creates 
healthier wildlife populations, and ensures that state and local 
economies do not suffer from species listings.
    Western Governors identified two potential statutory solutions to 
incentivize earlier species conservation. Both involve amending Section 
4 of the Endangered Species Act in a way that recognizes and rewards 
state-led, voluntary conservation efforts through deadline flexibility. 
Western Governors also identified a number or regulatory suggestions 
for enhancing voluntary conservation. The specific recommendations are 
described in my written testimony, and attached as the WGA Species 
Conservation and the Endangered Species Act Initiative Year Two 
Recommendations. If implemented, these recommendations should greatly 
reduce the number of threatened listings, thus making consideration of 
economic factors in threatened species designations unnecessary.

    3b. From your perspective, would the ability to preclude threatened 
species listings due to economic factors facilitate higher-quality 
listing decisions that benefit both species and our Nation?

    Answer. The WGA Species Conservation and the Endangered Species Act 
Initiative Year Two Recommendations, attached to my written testimony, 
identify several ideas to alleviate the economic consequences of a 
threatened species listing.

                                 ______
                                 

    The  Chairman. Thank you. Mr. Holsinger for 5 minutes.

    STATEMENT OF KENT HOLSINGER, MANAGER, HOLSINGER LAW, LLC

    Mr.  Holsinger. Thank you, Mr. Chairman, members of the 
Committee. It is an honor to be here today to testify on these 
important issues.
    It has been since 1988 that the Endangered Species Act was 
substantively amended. If you look back at that time, the 
Soviet Union was a superpower. I was probably listening to Def 
Leppard on a Sony Walkman. Updates to the ESA are long, long 
overdue. And, as Mr. Willms testified, that is probably why the 
Western Governors Association (WGA) has put forth specific 
recommendations for change.
    I cannot underscore the significance here: 19 Western 
Governors, 3 U.S. territories, never before in my career has 
WGA expressly supported specific amendments to this Act. They 
do today, and for very good reason.
    If you step back from the five bills we are talking about 
today, there is a common theme. And that theme, a small number 
of radical litigants are gaming the system at taxpayer expense. 
And, as a result, they are wasting the scarce resources that we 
should be putting forth for species that are truly in need of 
protection and for on-the-ground conservation efforts.
    As the Daily Caller has reported from data from a GAO 
report that the Ranking Member actually ordered, 90 percent of 
ESA settlements have gone to environmental groups. More than 50 
percent of those to two groups: WildEarth Guardians and the 
Center for Biological Diversity (CBD). Those two groups have 
litigated innumerable times. In fact, from 2000 to 2009, CBD 
has filed suit 409 times; WildEarth Guardians, 180; from 2009 
to 2012, CBD 117 lawsuits, WildEarth Guardians, 55.
    Since 1990, we scrutinized Federal court records and found 
that these two groups alone have filed over 1,500 lawsuits--
most against the Department of the Interior and Agriculture, 
most raising ESA as an issue. These groups are gaming the 
system. They are creating the very logjams they sue over.
    Section 4 of the Endangered Species Act allows any person 
to petition to list a species. These groups are petitioning to 
list hundreds at a time. And that simply cannot be done. So, as 
a result, the agencies miss deadlines, and these groups then 
litigate over those deadlines. They sue, they settle, they 
collect their attorney's fees--as you heard, often at 
exorbitant rates--and they rinse and repeat and do it over and 
over again. It is disgraceful, it is wasting our resources, and 
it has to stop.
    What is worse, these habitual litigators are even 
collecting government grants for the privilege. In 2016, 
WildEarth Guardians collected $800,000 from the Federal 
Government, up from $500,000 in 2015. As a result of this 
litigation, we are strangling in red tape, with severe economic 
consequences to hardworking families, local communities, and 
wildlife conservation itself.
    The ESA was passed in 1973 with visions of grizzly bears 
and bald eagles. Who could have foreseen the listings, the 
litigation, the controversy over 32 northwest mollusks, or the 
Chiricahua scurf pea, the alkaligrass? It is time that we re-
prioritize to species that are truly in need.
    We listen to the states and the local governments that 
often have the best information on wildlife. The states have 
been managing wildlife successfully and recognized by the 
courts in doing so since 1896 in the U.S. Supreme Court case of 
Gear v. Connecticut.
    I urge the Committee to adopt these important measures, and 
also consider delegating ESA authority to the states, much like 
we do the Clean Air Act. Listings for full species only, so 
that we can concentrate on our efforts on those truly in need 
of protection.

    [The prepared statement of Mr. Holsinger follows:]
 Prepared Statement of Kent Holsinger, Manager and Founder, Holsinger 
  Law, LLC on H.R. 717, H.R. 2603, H.R. 1274, H.R. 424, and H.R. 3131
                              introduction
    Thank you for the opportunity to testify on these important issues. 
Holsinger Law, LLC is a small, Denver-based law firm that specializes 
in lands, wildlife and water law. I am testifying as the manager and 
founder of Holsinger Law, LLC. In that capacity, I can attest to the 
impacts the Endangered Species Act (``ESA'' or ``the Act'') has had on 
many of our clients, such as individual landowners, agricultural 
interests, water providers and energy producers.
    According to the U.S. Fish and Wildlife Service's (``FWS'') 
Environmental Conservation Online System, approximately 1,564 U.S. 
species have been listed under the ESA since the Act's passage in 1973 
(and not counting those species listed under its predecessors). Only 23 
domestic species have been de-listed due to recovery. In other words, 
we can celebrate the recovery of only 1 percent of all domestic listed 
species in the United States. The regulatory burdens of the ESA have 
been severe while its successes have been sparse.
    In the 44 years since the ESA was passed, it has become 
increasingly apparent that implementation is plagued with problems. 
Various listing decisions have proven: a clear lack of coordination 
with state and local governments; a failure to designate recovery goals 
within set time frames; the failure to economically incentivize private 
conservation; and a tendency to allow sue-and-settle litigation, among 
other issues.
    The Act is long overdue for amendment. The last time the ESA was 
substantively updated (1988), the Soviet Union was a superpower and Def 
Leppard topped the pop charts. Former Idaho Senator Dirk Kempthorne 
tried, but ultimately failed, to amend and reauthorize the ESA in 1997. 
I was intimately involved in those efforts as well as the amendments to 
the ESA that passed the House in October of 2005.
    A FWS document, ``[A] History of the Endangered Species Act of 
1973'' nicely summarizes amendments to the Act over the years. The most 
significant amendments were made in 1978. They allowed Federal agencies 
to undertake actions jeopardizing listed species as long as such action 
was exempted by a Cabinet-level committee; required concurrent 
designation of critical habitat with a species listing; directed that 
plans for conservation of fish, wildlife, and plants be developed; 
expanded land acquisition authority; and defined distinct population 
segments as limited to vertebrates.
    The 1982 amendments required listing determinations to be made 
based solely on biological and trade information; instituted 12-month 
finding requirements; permitted designation of experimental 
populations; prohibited removal and possession of endangered plants 
from Federal land; introduced habitat conservation plans that allowed 
for incidental take.
    The 1988 amendments introduced monitoring of recovered and 
candidate species; expanded protections for listed plants; required 
public notice and comment on recovery plans and required expenditure 
reports for Section 6 funding.
    Minor amendments for the Department of Defense were made in 2004 
and 2009, but did not substantially affect the provisions of the 
original Act. Funding was authorized through Fiscal Year 1992. Since 
then, Congress has appropriated funding to continue ESA implementation.
The ESA versus Species Conservation
    ESA listings often restrict the ability to manage for species and 
could even result in more harm than good. Inevitably, a listing or 
potential listing becomes a threat to landowners because of the 
inherent economic consequences. See Amara Brook, Michaela Zint, Raymond 
De Young, Landowners' Responses to an Endangered Species Act Listing 
and Implications for Encouraging Conservation, 17 Conservation Biology 
1473, 1638 (Dec. 2003) (Where an extensive survey of landowners showed 
many managed their land so as to avoid the presence of a listed 
species). This has even been found to facilitate development of private 
lands.
    The listed red-cockaded woodpecker provides a good example. A 
single colony can cost up to $200,000 in foregone timber costs 
according to the Cato Institute. See Jonathan H. Adler (https://
object.cato.org/sites/cato.org/files/serials/files/regulation/2007/12/
v30n4-6.pdf). Many landowners managed their forest lands to avoid 
nesting of the species:

        [Ben] Cone of North Carolina managed 7,200 acres of timberland 
        with 70-80 year harvest rotations, small cuts, and controlled 
        burns, which . . . created habitat for the red-cockaded 
        woodpecker. When the endangered woodpecker took up residence on 
        Cone's land, more than 1,500 acres were placed under the 
        control of the U.S. Fish and Wildlife Service (see Stroup 
        1997). In response, Cone began a harvest rotation of 40 years 
        on the rest of his land in order to eliminate the mature pines 
        favored by the woodpecker and also remove any possibility that 
        the federal government would take control of his remaining 
        land.

        Ben Cone's experience is not an isolated incident, as a study 
        by economists Dean Lueck and Jeffrey Michael (1999) confirms. 
        Using data from hundreds of forest plots in North Carolina, 
        they found that the more red-cockaded woodpeckers in the 
        vicinity, the more likely the landowners were to harvest 
        younger trees. . . . (Lueck and Michael 1999, 36). The 
        landowners' incentive for using this shorter rotation was to 
        ensure the birds did not move onto their property, possibly 
        leading to land-use restrictions. Clearly, the ESA is creating 
        perverse incentives.

Holly Fretwell, Forests: Do we get what we pay for? Property and 
Environment Research Center. (January 1999), https://www.perc.org/
articles/do-we-get-what-we-pay.

    A similar study found that ``land designated as critical habitat 
[for the cactus ferruginous pygmy owl] was, on average, developed one 
year earlier than equivalent parcels.'' Jonathan H. Adler, Anti-
Conservation Incentives, Cato Institute. (Winter 2008).
    According to Bureau of Land Management (``BLM'') and U.S. Forest 
Service officials, the ESA creates ``. . . a complex maze of processes 
and procedures, which field biologists and managers must attempt to 
negotiate on a daily basis in order to implement on-the-ground 
projects.'' USFS and BLM, Improving the Efficiency and Effectiveness of 
the Endangered Species Act, (Dec. 15, 2003). In regards to the 
peregrine falcon, leading experts concluded, ``despite having the 
authority for implementing the ESA, and a number of their biologists 
contributing importantly to the recovery program, as an agency the FWS 
had a limited role, and its law enforcement division, which was in 
charge of issuing permits as well as enforcing regulation, was 
regularly an obstacle to recovery actions.'' (Burnham and Cade 2003) 
(emphasis added).
    Because the regulatory straightjacket of the ESA creates a 
disincentive to landowners, listing often stands in the way of good 
conservation work. Even the FWS has expressed that it ``supports 
voluntary conservation as the most effective method to protect species 
and their habitats.'' See 70 Fed. Reg. 2245. Further, FWS acknowledges 
``that listing may affect local planning efforts, due to its effect on 
voluntary conservation efforts.'' Id. at 2246.
    Based on these and many other similar examples of the ESA's 
perverse incentives, it is clear the ESA penalizes the very stewards of 
the majority of habitat for listed species (private landowners). 
Providing compensation and incentives for landowners is essential for 
productive conservation.
Listing through Litigation
    Currently, Federal agencies are subject to statutory time frames 
for reviewing listing petitions and making determinations. Rather than 
guiding and expediting the listing process, however, these time frames 
instead become the tool of litigious activist groups seeking to push 
their own agendas while recovering litigation costs. In fact, these 
groups often cause the issues they subsequently litigate.
    Over the past several years, a small cadre of environmental groups 
has buried the FWS with listing petitions under the ESA. WildEarth 
Guardians (``WEG''), the Center for Biological Diversity (``CBD''), and 
their like have a long history of filing both numerous and onerous 
listing petitions. For example, in 2007 WEG submitted two petitions 
seeking to list 475 Southwestern species and 206 species in the 
Mountain-Prairie Region. A 2013 petition sought to list 81 marine 
species. CBD petitioned to list 404 species in a single 2010 petition.
    These massive and numerous petitions serve only to increase FWS's 
workload--and by extension, the time needed to review and subsequently 
make determinations. FWS has already struggled to carry out Section 4 
directives. Environmental activist groups see this ensuing delay--
brought about in part because of the extensive petitions they 
themselves have submitted--as an opportunity to litigate. In a February 
8, 2016 article, Robert Jackson and John Eick for the American 
Legislative Exchange Council reported that sue-and-settle agreements 
had quintupled during the Obama administration compared to previous 
administrations. CBD and WEG are repeat offenders to say the least. 
They filed 117 and 55 lawsuits respectively between 2009 to 2012. 
Collectively, these two groups (and their predecessors in interest) 
have filed roughly 1,500 lawsuits since 1990.
    The perverse incentives to litigate under the ESA must be removed.
Failure to Involve State and Local Governments and to Incorporate State 
        and Local Input
    While Section 4(b)(1)(A) requires the Secretary to take into 
account efforts by a state or its political subdivision to protect 
species or its habitat, as well as predator control, ESA listing 
decisions are frequently made without full cooperation of state and 
local governmental entities. As a result, listing decisions often fail 
to take into account the best sources of information on the species.
    For example, the FWS cited ``[I]nadequate'' local, state, and 
Federal regulatory mechanisms in its November 20, 2014 listing decision 
on Gunnison sage grouse (``GUSG''). In doing so, the agency ignored: 
rising population numbers; a rangewide conservation plan; local working 
groups and conservation plans; Candidate Conservation Agreements and 
scores of conservation easements. The state of Colorado estimates 
nearly $50 million in conservation efforts have gone toward GUSG 
conservation. Colorado, joined by Gunnison County and others, 
challenged the GUSG listing in Federal court.
    FWS has also refused to cooperate with states and local governments 
on its Mexican wolf recovery efforts. The state of New Mexico 
challenged the agency in Federal court based on its refusal to work 
with the Fish and Game Commission on a state permit to reintroduce 
wolves. The District Court ruled for New Mexico, but unfortunately the 
Tenth Circuit Court of Appeals overturned the decision. In another 
disappointing Tenth Circuit decision, the Court recently held the 
Commerce Clause authorized regulation of a listed species (Utah prairie 
dog) in a single state. Legislative updates to the ESA are sorely 
needed.
Best Available Science
    Pursuant to Section 4(b)(1)(A) of the ESA, ``The Secretary shall 
make determinations . . . solely on the basis of the best scientific 
and commercial data available to him after conducting a review of the 
status of the species and after taking into account those efforts, if 
any, being made by any State or foreign nation, or any political 
subdivision of a State or foreign nation, to protect such species . . 
..'' A determination must be based on proven data--not conjecture. Yet 
the very definition of best available science has come under scrutiny 
in several recent cases due to the increasing use of speculative long-
term climate change modeling.
    The listing decision on greater sage-grouse provides another 
example. There, a single report (the USGS Monograph) was cited nearly 
300 times. Unfortunately, the Monograph is highly flawed and fails 
basic standards of quality, objectivity and integrity.
    Amendments to the ESA must ensure the agencies truly utilize the 
best available science.
             the western states support updates to the esa
    The Western Governors' Association (``WGA'') has been actively 
seeking ESA reform for several years, and, to that end, launched the 
Western Governors' Species Conservation and Endangered Species Act 
Initiative. In its Policy Resolution 2017-11, WGA identified seven 
changes needed to improve the ESA:

  1.  Setting clear recovery goals for listed species and working 
            actively to de-list recovered species;

  2.  Increasing the regulatory flexibility of the Service to review 
            and make decisions on listing petitions or to change a 
            species' listing status;

  3.  Utilizing the cooperative efforts of Federal agencies and state 
            governments and private landowners;

  4.  Using the best available science in listing decisions;

  5.  Ensuring funding and incentives for conservation;

  6.  Determining a set definition for the term ``foreseeable future'' 
            (in particular relative to climate change); and

  7.  Permitting state and local governments to be full partners in 
            agency decisions, as these entities are the best 
            repositories of current available information and science 
            regarding the wildlife within their borders.

Legislation would Redress Significant Flaws with the Act
    H.R. 2603 (``Saving America's Endangered Species Act'' or ``SAVES 
Act'')--seeking to amend the ESA to provide that non-native species in 
the United States shall not be treated as endangered species or 
threatened species for purposes of the Act.

    H.R. 424 (``Gray Wolf State Management Act of 2017'')--directing 
Secretary to reissue final rules published in 2011 and 2012 which 
removed the Western Great Lakes region and Wyoming gray wolf 
populations from the List of Endangered and Threatened Wildlife. Note: 
Bill provides that ``such reissuance shall not be subject to judicial 
review.''

        76 Fed. Reg. 81666 (2011)--``removing the [Western Great Lakes 
        Distinct Population Segment] from the List of Endangered and 
        Threatened Wildlife. We are taking this action because the best 
        available scientific and commercial information indicates that 
        the [Western Great Lakes Distinct Population Segment] does not 
        meet the definitions of threatened or endangered under the 
        Act.''

        77 Fed. Reg. 55530 (2012)--``The best scientific and commercial 
        data available indicate that gray wolves (Canis lupus) in 
        Wyoming are recovered . . . . [We are] remov[ing] the gray wolf 
        in Wyoming from the Federal List of Endangered and Threatened 
        Wildlife . . . and remov[ing] the Yellowstone Experimental 
        Population Area established in 1994 to facilitate 
        reintroductions'') relating to gray wolves in Western Great 
        Lakes region and in Wyoming.

    H.R. 717 (``Listing Reform Act'')--amending ESA to require review 
of the economic cost of adding a species to the list of endangered 
species or threatened species. Furthermore, the ESA shall be amended to 
strike the Section 4(b)(3)(A) clause requiring the Secretary to make a 
finding within 90 days. This Bill also amends the ESA to permit 
prioritization review of listing petitions, amends the requirement to 
make a determination within 12 months to ``as expeditiously as 
possible.''

    H.R. 2109 (``Endangered Species Litigation Reasonableness Act'')--
conforming citizen suits brought under the ESA to conform with other 
existing law. Namely, this amends Section 11(g)(4) to award costs of 
litigation not to ``any party,'' but rather to ``any prevailing party 
in accordance with section 2412 of title 28, United States Code [Equal 
Access to Justice Act].''

    H.R. 1274 (``State, Tribal, and Local Species Transparency and 
Recovery Act'')--requiring that all data upon which endangered and 
threatened listing decisions are based be made available to those 
states which are affected by those determination. Namely, this amends 
Section 6(a) in that such transparency of information is to be included 
in a Federal agency's cooperation with the states. Furthermore, ``best 
scientific and commercial data available'' shall include ``all such 
data submitted by a state, tribal or county government.''
                          other needed updates
Stifling Conservation Work
    A common thread in dealing with these issues is the need to 
mitigate impacts for regulatory compliance. But, incredibly, agencies 
like the BLM are requiring permitting and red-tape even for projects 
that improve or enhance habitat. National Environmental Policy Act 
(``NEPA'') compliance, along with the ESA, is stifling conservation 
work.
    For listed species, activities that require Federal permits, 
licenses or authorizations require consultation with the FWS under 
Section 7 of the ESA. This can result in significant delays and costly 
project modifications. For example, surveys may be required for some 
listed species that are not present for significant months out of the 
year. And existing Federal permits, licenses or authorizations could be 
subject to reinitiation of consultation upon new listings or 
information. Finally, some actions on public or private lands could be 
construed to ``take'' listed species or their habitat under Section 9 
of the ESA. Violations of the ESA are subject to substantial civil and 
criminal penalties.
Recovery Goals
    Moving goalposts have become a hallmark of recovery goals. An 
example of a problematic listing and recovery process is that of the 
Mexican gray wolf. While the recovery process for this subspecies has 
similarly been characterized by lack of cooperation with state 
agencies, it is marked by a failure to rely on best available science 
and failure to set population benchmarks by which recovery success 
could be measured. In fact, while the Mexican gray wolf has been listed 
under the ESA since 1976, only as of the issuance of the June 30, 2017 
Draft Revised Recovery Plan has FWS set recovery benchmarks to aid in 
determining when the subspecies will be eligible for de-listing.
                     holsinger law, llc litigation
    I have been involved in approximately one dozen Federal cases over 
the past 13 years on behalf of agriculture, counties, oil and gas, 
trade associations and other clients. Many of these were actions to 
intervene in litigation filed by environmental groups. Others were 
Freedom of Information Act (``FOIA'') cases where agencies refused to 
divulge information that should have already been public. Recently, 
Holsinger Law, LLC represented four Colorado counties in challenging 
Obama administration land use plan amendments on greater sage-grouse. 
Among other things, the counties allege state and local plans and 
conservation efforts were ignored in favor of eleventh-hour mandates 
from Washington, DC.
                               conclusion
    The ESA must be amended to require definite recovery goals and 
examine the true cost of regulation under this powerful statute. 
Listing determinations should be prioritized with adequate time to 
solicit information from states and local governments to truly utilize 
the best available science. The perverse incentives for litigation must 
be removed. At the same time, efforts to incentivize private 
conservation should be maximized. Finally, decisions should be based 
primarily at the state and local government levels.
    Now is hardly the time for ``business as usual'' under the ESA. 
Listings are frequently proving more harmful than beneficial to the 
listed species. Scarce resources are being wasted on litigation driven 
by a handful of activist groups with little or no real conservation 
benefits. While some activist groups have posited that Congress aims to 
weaken the ESA and strip protections, such statements could not be more 
disingenuous. The ESA is not a perfect law, and this fact has been 
borne out through the low rate of species recovery, the numerous highly 
contested listing decisions, and the high costs of ESA litigation. Both 
people and wildlife would benefit from improvements to the ESA, NEPA 
and other Federal laws. Congress and the Administration should be 
working to reduce frivolous litigation, streamline permitting to 
promote on-the-ground conservation efforts, alleviate economic burdens 
and promote jobs. Thank you again for the opportunity to testify.
                                 ______
                                 
   Questions Submitted for the Record to Kent Holsinger, Manager and 
                      Founder, Holsinger Law, LLC
                   Questions Submitted by Rep. Bishop
    Question 1. During the hearing, Rep. Polis characterized Secretary 
Zinke's review order on land use plan amendments for sage grouse as a 
Washington, DC affront to the wishes of states and local governments. 
How would you respond to this?

    Answer. It is astonishing and disappointing how out of touch 
Congressman Polis is on this issue. The Obama administration 
perpetrated one of the greatest land grabs in U.S. history through its 
heavy-handed Washington, DC mandates in the name of greater sage-
grouse. Wildlife management is a state issue. Yet, the Obama 
administration amended 98 land use plans across 11 Western states to 
virtually block multiple uses of our public lands.
    On August 13, 2012, five Colorado Counties and two conservation 
districts complained bitterly that their input in the process had been 
ignored in favor of top-down, one-size-fits-all direction from 
Washington, DC. See attached letter to BLM State Director Helen 
Hankins.

    [The letter follows:]

                                                August 13, 2012    

Helen Hankins
Bureau of Land Management
Colorado State Director
2850 Youngfield Street
Lakewood, Colorado 80215-7093

Re: BLM's Greater Sage-Grouse Environmental Impact Statement

    Dear Director Hankins:

    The undersigned local governments have been participating in the 
regular Greater Sage-Grouse Cooperating Agency meetings that the Bureau 
of Land Management (BLM) hosts. We are particularly appreciative of the 
magnitude of the planning effort BLM is directed to undertake. We are 
even more appreciative of the candid straight-forward information BLM 
has shared during Cooperating Agency meetings. Although we plan to 
continue participating in the process, we are deeply concerned the 
process does not accommodate the mandates that BLM consider the views 
of local governments as envisioned under the Federal Land Policy and 
Management Act (FLPMA) or the National Environmental Policy Act (NEPA).
    Since before the first Cooperating Agency meeting May 18, 2012, 
many participants have publically raised concerns about the BLM giving 
little deference to existing sage grouse planning documents which we 
have spent years developing. We have also commented on the too-narrow 
range of alternatives which BLM will be analyzing, and specifically 
that the alternatives BLM is considering do not balance the basic need 
of grouse conservation and social and economic growth within our 
jurisdictions.
    As various situations have arisen in Cooperating Agency meetings, 
it is apparent that BLM is bound by parameters that reflect advance 
decisions by BLM on the preferred alternative while not addressing the 
scientific controversies regarding the status of sage grouse 
populations. These parameters are also not consistent with the needs 
within our respective communities. From the outset we believed the 
National Technical Team (NTT) Report supported an extreme grouse-
conservation alternative, warranting analysis as an extreme 
alternative. Then a few weeks ago, we learned that the Washington 
Office of BLM had directed BLM to consider an even more conservation-
oriented alternative, one that makes the NTT report look ``middle of 
the road.'' When local governments requested an equally balanced 
alternative providing for the current development of oil and gas, 
recreation uses, and grazing resources, we were constrained to 
modifying the NTT Report. This direction flies in the face of NEPA's 
mandate that BLM consider a range of reasonable alternatives. A 
balanced use alternative should be among those analyzed in the Draft 
Environmental Impact Statement. In addition, the NTT report focuses on 
limiting ground disturbance to a 3% threshold in primary grouse areas 
which will drastically affect the economies of NW Colorado. We do not 
support BLM Washington defining what constitutes disturbance in solely 
Washington driven committees, rather, BLM should use its Cooperating 
Agencies to determine disturbance definitions.
    BLM's parameters directed from the Washington BLM Office provide 
little opportunity for meaningful input from local governments. These 
limits ensure that BLM does not address consistency with local 
government plans, the broader multiple use mandates of FLPMA and other 
Federal laws, use only peer-reviewed quality data, or explore the 
scientific controversies regarding conservation of the sage grouse. We 
are even more concerned that Washington has already determined the 
preferred alternative that BLM must select, hence the limited latitude 
given to the Cooperating Agencies.
    In addition to the limitations BLM has placed upon the land use 
planning process, we are deeply concerned about the unrealistic 
timeframe for completing the Sage Grouse Environmental Impact 
Statement. A Draft Environmental Impact Statement is scheduled to be 
published by the spring of 2013, across Northwest Colorado, much less 
11-western states with insufficient time to meaningfully involve the 
stakeholders. The short time-frames will drastically limit the quality 
of the document, and more importantly the level of protection the sage 
grouse receives. We fully recognize these timeframes can be traced back 
to a 2011 court decision dictating such timeframes, but nevertheless 
find them ridiculously burdensome, and impossible for BLM to adequately 
address such a complex issue.
    We recommend first that BLM return this process to what the law 
requires, which is close coordination with state and local governments. 
Second, BLM must develop a balanced-use alternative that includes and 
reflects state and local government conservation efforts, not just 
federal agency viewpoints. Third, BLM needs to secure an extension of 
time, because the EIS will be challenged and short-cutting the process 
will only end in failure, and finally BLM must immediately involve the 
Cooperating Agencies in defining what constitutes ground disturbance.

            Sincerely,

        Garfield County 
        Commissioners                 Moffat County Commissioners
        Jackson County 
        Commissioners                 Rio Blanco County Commissioners
        Routt County Commissioners    Douglas Creek Conservation 
                                      District
        White River Conservation 
        District

                                 *****

    No fewer than 283 state and local governments, entities and 
individuals protested the plan amendments. Nine governors of the 
affected Western states provided Consistency Review letters and five 
states appealed the BLM's responses. There are no fewer than nine 
lawsuits against the land use plan amendments--including one brought by 
our clients, Garfield, Jackson, Moffat and Rio Blanco Counties.
    Secretary Zinke ordered a review of the land use plan amendments to 
ensure that they address the concerns of states, local governments and 
stakeholders. I believe the majority of states, local governments and 
stakeholders are extraordinarily grateful to Sec. Zinke and the Trump 
administration for this desperately-needed review.
    On April 3, 2017, the Moffat County Commissioners expressed its 
appreciation to President Trump relative to his actions to reduce 
regulatory burdens. See attached letter to President Trump. The 
Commissioners pointed out that industry and environmental conservation 
are compatible and that the Obama administration land use plan 
amendments were ``driving a stake in the heart of the viability of our 
local industries, and immediate action from your administration is 
requested.''

    [The letter follows:]

                        Moffat County Commissioners

                                                      April 3, 2017

Mr. Donald J. Trump
President of the United States of America
1600 Pennsylvania Avenue
Washington, DC 20500

    Dear President Trump:

    The Moffat County Commissioners would like to express our 
appreciation for the recent Presidential Executive Orders and actions 
to provide a more business friendly environment for energy development. 
We were especially pleased when Roz Leighton your Regional Political 
Director, White House Office of Political Affairs reached out to 
Commissioner Moe to discuss your recent rollback of Obama's Clean Power 
Plan. After hearing of our unique circumstances she immediately 
connected us with Billy Kirkland, Special Assistant to the President, 
Deputy Director, Intergovernmental Affairs. While we are extremely 
pleased with your bold actions, time is not on our side and northwest 
Colorado requests special attention from the Trump Administration.
    In Moffat County, 81.3% of our voters supported President Trump, 
largely because our community knows we are the epicenter of past 
president Obama's desire to destroy fossil fuel energy industries. 
Energy related companies make up all of Moffat County's top 10 
Taxpayers. Of Moffat County's $410 million assessed value, 72% of that 
is from energy related companies. Moffat County is the second largest 
county in Colorado, just over 3,000,000 acres in size, and over 60% 
federally owned surface and over 80% federally owned minerals. There 
are four coal mines and two coal fired power plants, along with immense 
oil and natural gas resources within an hour drive of our county seat. 
We host the largest Greater Sage Grouse populations in Colorado, the 
largest elk herds in North America, world class big game hunting, and 
endangered fish in one of the last undammed rivers in Colorado. Our 
livelihoods depend on utilizing the natural resources, but face 
constant onslaught of rules and regulations driven from the 
environmental movement and implemented by the Obama administration, 
which have a crippling effect of our local economy. The ``war on 
coal,'' oil and natural gas has been extremely detrimental to our 
economy. These past eight years have taken their toll economically and 
emotionally on us all. Because of you and your administration we are 
now turning optimistic.
    Moffat County has dozens of examples where we have demonstrated 
that industry and environmental conservation and enhancement can 
simultaneously thrive. However, regulations such as the newly adopted 
Greater Sage Grouse Plan from the Bureau of Land Management are driving 
a stake in the heart of the viability of our local industries, and 
immediate action from your administration is requested.
    Attached are three links to youtube videos and news articles that 
describe the ``perfect storm'' of over regulation crippling our 
economy, which we request support from your office:

        https://www.youtube.com/watch?v=Om207kbe6Xl

        https://www.youtube.com/watch?v=npZntUn8JMU

        http://www.usatoday.com/story/news/politics/elections/2016/11/
        04/coal-mining-craig-colorado-election-day-hillary-clinton-
        donald-trump/93235678/

    We would like to discuss with you and your staff, our suggestions 
on how to move forward protecting the environment while simultaneously 
allowing our local and regional energy industry to thrive. Moving 
forward will take support from the Trump administration, and we look 
forward to discussing this with you at your earliest convenience.

            Respectfully,

        Franklin A. Moe, Chairman     Don Cook, District 1
        Moffat County Commissioner    Moffat County Commissioner

        Ray Beck, District 2
        Moffat County Commissioner

                                 *****

    Question 2. Representative Polis noted that the Endangered Species 
Act conferred economic benefits.

    2a. Would you say that the Endangered Species Act provides economic 
benefits to states, local governments, or private entities?

    Answer. Prior to Congressman Polis' participation in this hearing, 
the words ``economic benefits'' and ``listing under the Endangered 
Species Act'' may never have been uttered together. There's an old 
adage that, if one discovers a rare mineral on his or her property, the 
land becomes much more valuable; yet, if one discovers a rare species, 
the land becomes valueless.
    The Endangered Species Act (``ESA'') has long been recognized as a 
hindrance not only to economic activity, but to on-the-ground wildlife 
conservation. In one of our coalition efforts, a single business had to 
spend in excess of $1 million on a single consultation over a single 
species on Colorado's front range. In addition, the business had to 
spend nearly $300,000 per year in annual monitoring efforts after the 
consultation. According to the Western Area Power Administration, 
restrictions on reservoir operations for ESA and related issues at Glen 
Canyon dam have cost an estimated $50 million annually \1\ with 
additional impacts following 2016 permitting of an estimated additional 
$104 million cost. This does not include the cost of similar 
restrictions at Flaming Gorge and the Aspinall Unit reservoirs.
---------------------------------------------------------------------------
    \1\ https://www.wapa.gov/regions/CRSP/environment/Documents/
PostRODFinal.pdf.
---------------------------------------------------------------------------
    In a 2005 Report, the House Resources Committee estimated that 
implementation of the ESA costs businesses, individuals and local 
governments nearly $3 billion annually. Interestingly, that same year, 
the National Marine Fisheries Service estimated non-native species were 
the cause of endangerment of some 48 percent of listed species at a 
cost of more than $120 billion in 2005 alone.\2\ The economic analyses 
required in critical habitat designations paint a similar picture of 
the staggering cost of ESA listings.
---------------------------------------------------------------------------
    \2\ http://www.endangeredspecieslawandpolicy.com/2016/02/articles/
fish-wildlife-service/up-for-debate-whats-the-real-cost-of-endangered-
species-predation/.

    2b. Would the ability of the Secretary to consider economic impacts 
in designations of threatened species actually benefit species 
conservation and motivate states, landowners and industry to conserve 
---------------------------------------------------------------------------
the species and keep it off the list?

    Answer. Economic analysis has been part of critical habitat 
designations for many years. Unfortunately, the Obama administration 
eviscerated this important tool through the rulemaking process. 
Congress should reinstate robust economic analysis for critical 
habitat. Such considerations would aid in listing decisions as well.

    2c. From your perspective, would the ability to preclude threatened 
species listings due to economic factors facilitate higher-quality, 
innovative listing decisions and petitions for reconsideration that 
benefit both species and our Nation?

    Answer. Wildlife management is always a balancing act. Currently, 
implementation of the ESA is a zero-sum game with few opportunities to 
prioritize. Economic and other factors (such as protecting full species 
rather than subspecies or population segments) should play a role going 
forward.

    Question 3. Statutory time frames for agency review of listing 
petitions have been utilized by litigious environmental groups to make 
money and paralyze Federal and state conservation efforts. You 
mentioned that these groups often cause the issues that they 
subsequently litigate.

    3a. Can you elaborate how litigious environmental groups utilize 
the petition process to drum up more opportunities to litigate?

    Answer. The worst actors, including Center for Biological Diversity 
(``CBD'') and WildEarth Guardians (``WEG''), have been petitioning to 
list hundreds of species at a time. The agencies simply cannot handle 
such a burden. As a result, they miss deadlines and CBD and WEG sue, 
settle over revised deadlines, and collect attorney's fees at taxpayer 
expense. These groups are causing the very problems they litigate over. 
This abuse must stop.

    3b. What are some problems with using settlements to determine how 
petitions are processed?

    Answer. Using sue and settle litigation, environmental groups can 
avert the public process and exert special influence on agency decision 
making. The infamous 2011 settlements over 757 species are a good 
example.

    3c. The onslaught of listing petitions has prompted several multi-
species mega settlements in recent years. Do these types of settlements 
allow for state involvement in the decision-making process or for 
appropriate consideration of science?

    Answer. Settlement of litigation is often behind closed doors. 
Neither the states nor the public have an opportunity to understand or 
influence the outcome.

    Question 4. Multi-species listings strain agency resources as the 
different regions work to manage species that may not even need listing 
in the first place. In your opinion, do these sorts of mega-settlements 
help species or are they tools for litigious groups to make money?

    Answer. Multi-species listings are a tremendous waste of resources. 
The ESA provides that any person may submit ``a'' petition to list. It 
does not authorize petitions for dozens or hundreds of species at a 
time. The agencies cannot hope to process such petitions. As a result, 
they miss deadlines and the radical groups litigate. None of this 
results in on-the-ground conservation work for species that are truly 
in need of protection. Instead, it perpetuates a vicious cycle that 
funds attorneys and litigation at the expense of our communities and 
our wildlife.

                                 ______
                                 

    The  Chairman. Thank you. I thank our witnesses for your 
testimony. It is interesting to know the last time we worked on 
this Act, I had color in my hair, Louie actually had hair, and 
Raul was still a hippie.
    [Laughter.]
    The  Chairman. So, we are at the right stages right now, 
yes.
    I appreciate that. We are going to open the Committee 
process. By Committee Rules, we have 5 minutes to ask questions 
of that. Once again, I will ask Committee members to be kind to 
our witnesses, that if you are going to ask a question, at 
least give them 30 seconds before the end of the time. Because 
once again, I will stop you when the 5 minutes are over. And I 
will try and set the standard myself by asking the first 
questions.
    In the Huizenga bill--and you can start me now--the 
attorney fees are capped for these well-funded groups you have 
mentioned in there, and allows only prevailing parties to 
collect them, which is what we do with other groups right now, 
like the elderly and low-income individuals, as well as 
veterans.
    Mr. Holsinger, first of all, would a cap in attorney's 
fees, allowing only prevailing parties to collect them, in your 
opinion, lessen the incentive for environmental groups to file 
these needless lawsuits?
    Mr.  Holsinger. Absolutely, Mr. Chairman. This is an 
excellent way to, I think, end some of these perverse 
incentives.
    The  Chairman. You also mentioned in your testimony the 
statutory time frames for agency reviews of listing petitions, 
and that has become a tool to make money and paralyze Federal 
and state conservation efforts. Would more agency flexibility 
and petition deadlines--once again, provided in the Olson 
bill--would that help curb this excessive litigation?
    Mr.  Holsinger. Yes, Mr. Chairman. In fact, the vast 
majority of this litigation is over those deadlines. So, giving 
the agency some additional flexibility could be a tremendous 
help.
    The  Chairman. Mr. Sheehan, would fewer lawsuits benefit 
your agency, alleviate pressure on the resources that you are 
trying to find?
    Mr.  Sheehan. Absolutely, Mr. Chairman. When we have to 
redirect our resources from doing conservation on our wildlife 
and plant species in favor of researching and working on 
litigation actions, that certainly detracts from our ability to 
protect those species.
    The  Chairman. OK, thank you. Comptroller Hegar, you know, 
Texas has its own program. Texas has been empowered to study 
species, conserve them, and has succeeded in many of the 
things, in keeping species off of the list. In Representative 
Olson's bill, it adds consideration of economic factors.
    Can you explain how considering economic impacts and 
species conservation can work together and go hand in hand?
    Mr.  Hegar. Yes. Thank you, Mr. Chairman. The two go hand 
in hand because when you look at, for example, a river. If, as 
we are studying today, we are spending $3.6 million on mussel 
research in four different river basins in Texas. When you look 
at the health of the mussels, there are also economic 
considerations, whether it is in the Austin area with folks 
that utilize the river for recreational purposes, or whether it 
is municipal purposes, industrial purposes, downstream, which 
was in my old Senate district, so you have a convergence of all 
these interests coming together.
    Then, as a background, as an individual who grew up on a 
family farm and is still actively engaged in that farming 
operation, as was said earlier, we are the best stewards. We 
want to make sure there is wildlife. We want to make sure there 
is that economic impact, because you also derive income from 
having that economic impact.
    So, it is all intertwined, and it is extremely important to 
take in the economic considerations, because you don't want to 
shut down, say, for example, the Permian Basin. And we have 
done a significant job in the habitat conservation plan out 
there with the dunes sagebrush lizard, and allowing that 
economic activity to continue to grow in the Permian Basin.
    The  Chairman. Great. I appreciate what Texas has been 
doing.
    Mr. Willms, the Western Governors Association has 
recommended greater state participation in these processes, 
endangered species processes, all together. In your experience, 
has the Federal Government--realizing once again the Federal 
Government still is personality driven, one of the problems 
that we do have--but has the Federal Government been 
transparent in the data that it uses in making their decisions?
    Mr.  Willms. Mr. Chairman, I would say as transparent as 
they can be, although we often don't see the data released.
    I think there are other issues with respect to data 
transparency that are worth looking at. For example, some 
copyright issues about some of the challenges we face, the 
Service telling us they cannot release information or 
particular studies because of copyright concerns with the 
authors.
    The  Chairman. Well, what about state and local-driven 
data? Has that been effectively used in the past?
    Mr.  Willms. There are always better ways to use, or more 
effective ways to use state data and locally given data. We 
have been asking for years for the opportunity to be consulted 
as early on in the process as possible, to be able to provide 
all the data that we might have on a species to better inform 
decision making for the agency. And many times that is not 
considered.
    The  Chairman. That is the purpose of the Newhouse bill. It 
is to try to make sure there is transparency and greater 
ability of having other entities provide this data. In your 
opinion, would that be a benefit to species recovering a 
listing decisions process?
    Mr.  Willms. It is certainly beneficial for the Service to 
have all available data and all state data that it might have 
when it is trying to make a decision based on the best 
available science. It would be helpful to have all available 
science.
    The  Chairman. OK. And Greg, I have one last question for 
you, but I only have 11 seconds left, so I am not going to ask 
it. I will yield back and recognize Mr. Grijalva.
    Oh, wait. Before you start, I would also ask unanimous 
consent that Mr. Grijalva--is here.
    Mr.  Grijalva. Thank you.
    [Laughter.]
    The  Chairman. No, no, that is not what I want. I ask 
unanimous consent that Mr. Polis is allowed to join us and 
participate in the hearing.
    And we also have a new member of the Committee, if you 
would like to introduce him.
    Mr.  Grijalva. Thank you very much, Mr. Chairman. Yes. It 
is indeed a great pleasure to welcome a new member on our side 
of the aisle, Representative Jimmy Gomez.
    Mr. Gomez will be joining this Committee coming from 
California and bringing with him a considerable expertise on 
the issues that this Committee deals with through all its 
processes, and a background in air quality issues, water 
quality issues in California, environmental issues, including 
environmental justice issues in California. We welcome him. We 
are delighted to have Representative Gomez part of this 
Committee and on our side of the aisle.
    Jimmy is a child of an immigrant family, just like me. But, 
unlike me, he holds a master's degree from Harvard. We welcome 
him to the Committee.
    And for California, who is terribly under-represented on 
this Committee, it brings additional parity to the membership.
    Mr. Gomez, welcome. Looking forward to working with you, 
sir.
    The  Chairman. It looks like four too many right now. Thank 
you, Representative Gomez. I appreciate you being part of the 
panel.
    Those were your questions, right? You yield back?
    Mr.  Grijalva. Not yet. Give me 5 minutes. Was that long?
    Thank you, Mr. Chairman.
    Mr. Sheehan, we have not had an opportunity to visit with 
you before. I look forward to that opportunity in your new 
position.
    Following the admonition of the Chairman, trying to ask 
questions and ask for yes or no or any elaboration that is 
short, trying to get through the questions that I have, I 
appreciate that.
    I was also struck by the analogy that you used regarding 
health care in the hospital, in terms of endangered species and 
recovery and moving the patient out. I see the Endangered 
Species Act akin to a government program like Medicaid that 
promotes health care to the most vulnerable amongst us. And, in 
doing so, provides those vulnerable populations that we live 
with in this country an opportunity to have health care. 
Because, without it, one would suspect and surmise that those 
very individuals, 25 million, would be endangered, as well. So, 
there is a similarity and an analogy that we can use there.
    Mr. Sheehan, do you believe that decisions regarding 
species listing, de-listing, and recovery under ESA should be 
based on science or politics? You can answer one way or 
another. One word answer, if you can, yes or no. You can 
elaborate a tad.
    Mr.  Sheehan. Absolutely, science is the way that should be 
addressed.
    Mr.  Grijalva. Thank you, sir. Do you believe that Federal 
management of threatened and endangered species is appropriate 
and reflects the intent of Congress and the valid interest of 
all Americans and their quest in preventing extinction?
    Mr.  Sheehan. Is that still directed to me? I wasn't sure.
    Mr.  Grijalva. Yes, sir.
    Mr.  Sheehan. I am sorry, could you re-say that a little 
bit?
    Mr.  Grijalva. Do you believe that the Federal management 
of threatened and endangered species is appropriate and 
reflects the intent of Congress and the valid interest of all 
Americans in preventing extinction?
    Mr.  Sheehan. I believe that the Federal Government was 
given authority to oversee these species when they are in a 
critical status and placed on the endangered species list. But 
as those recovery objectives are defined by scientists and 
achieved by scientists, I absolutely believe that management of 
that needs to go back to the states, who are not only doing 
most of the management for the endangered species on the list, 
but also for all of the other many thousands of species that 
are not on the list.
    Mr.  Grijalva. And one more yes-or-no, if possible, Mr. 
Sheehan. Do you believe that climate change is real and is 
impacting threatened and endangered fish and wildlife?
    Mr.  Sheehan. I believe that climate change does exist and 
has for a very long time. Does it impact some of our species? 
Yes, it does impact some of the species. But how we factor that 
into our decision-making process is one that is much more 
complicated.
    Mr.  Grijalva. Thank you, sir.
    Mr. Corwin, you have seen wildlife all over the world, 
including elephants in Africa and other species that are 
subject to relentless poaching and trafficking. H.R. 2603 would 
remove ESA protections from any non-native wildlife or wildlife 
products that happen to be in the United States. What would the 
impact of this bill be on illegal wildlife trade?
    And does this bill overturn the recent ban on African 
elephant ivory in the United States?
    And who profits from this legislation, trans-national 
networks that rely on illegal wildlife and timber trade for 
income?
    Those are three that you can elaborate in the half-a-minute 
or more that we have.
    Mr.  Corwin. The black market trade of wildlife is 
profound. It is a $20 billion-a-year industry. It is second 
only to arms and drug trade. And the status of a creature, a 
species, as endangered does not change as it moves from one 
border to the next.
    We have the CITES, which we use to protect species 
internationally, and various appendixes, and a tiger is still 
critically endangered, whether it is in the United States or 
whether it is in another country. And we globally have a 
responsibility as stewards to ensure that these species have 
the best opportunity to survive.
    Mr.  Grijalva. Thank you, sir. I yield back.
    The  Chairman. Thank you. With that I will turn to Mr. 
Gohmert for questions.
    Mr.  Gohmert. Thank you, Mr. Chairman. I would first point 
out I have more than 20 letters here in support of relieving 
the conservation-stifling regulation of non-native endangered 
species that we provide in H.R. 2603.
    I have a letter from the National Aquaculture Association, 
whose 5,500 members' farms not only provide jobs, but have an 
annual farm-to-gate income of $1.6 billion. And that is all 
legal, no illegal trade at all. The NAA states that the listing 
of non-native species is duplicative, hampers commerce, and 
oppresses conservation.
    A letter from Mickey Ollson, the Director of the Wildlife 
World Zoo, the largest zoo and only aquarium in Arizona, with 
half-a-million guests annually, and he states that captive 
breeding programs are stifled by the redundant listing of non-
natives in the endangered species list.
    The American Federation of Aviculture, a non-profit 
organization writes on behalf of their 5,000 members to 
describe the impact of these current regulations. If a 
collection manager in Missouri would like to bring a new 
bloodline into the macaw collection from Pennsylvania, current 
regulations would prevent that.
    I have a letter from the U.S. Association of Reptile 
Keepers, writing in support of H.R. 2603, asking the question, 
``How is making it illegal to share education about ESA-listed 
non-native spotted pond turtles . . . by banning the sale of 
domestically hatched turtles across state lines helpful to 
conservation of the species?''
    A letter from Mr. Doug Kemper, who is the Founding Director 
of the Seattle Aquarium, the Aquarium at Moody Gardens in 
Galveston, the Oklahoma Aquarium, and now is the Executive 
Director of Medicine Park Aquarium in Medicine Park, Oklahoma. 
He writes that the SAVES Act, H.R. 2603, will make conservation 
great again, that the ESA imposed arbitrary geographic 
boundaries that created genetic islands within the states. The 
ESA rendered each state, essentially, a country for the 
purposes of movement of captured endangered species.
    A letter from the Endangered Species Propagation Survival 
and Research Center, who houses the largest herds of Arabian 
oryx, slender-horned gazelles, in the United States. They write 
that the current ESA regulation of non-native species is anti-
conservation because the population of said species in 
captivity is so small, genetic diversity via unabated 
interstate exchange among the population is critical to their 
continued existence.
    Finally, I have a letter from the Zoological Association of 
America, one of the largest trade associations of the industry. 
They promote responsible ownership, management, and 
conservation, and they write that their members ``rely on the 
ability to move individual animals among collections to best 
maintain a robust, captive population to provide the best 
opportunities for successful breeding of endangered species. 
The onerous and prohibitive regulation of captive-bred, non-
native species under the ESA is counter-productive to 
conservation efforts.''
    Mr. Chairman, I would ask unanimous consent that all of 
these letters in full support of the SAVES Act be entered into 
the record.
    The  Chairman. Without objection.

    [The information follows:]

Rep. Gohmert Submission--Letters of Support for H.R. 2603

                             Alabama Gulf Coast Zoo

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    The SAVES Act, H.R. 2603, is fully supported by the Alabama Gulf 
Coast Zoo. H.R. 2603 removes duplicative and onerous regulation, 
enhances conservation, and is just plain common sense.
    Since 1989, the Alabama Gulf Coast Zoo has provided unique 
opportunities for up close encounters with some of the world's rarest 
animals. We are dedicated to conservation, education and animal care. 
From humble beginnings, the zoo found to fame as Animal Planet's ``The 
Little Zoo that Could,'' and we are currently building a new facility. 
We pride ourselves on educating the public about conservation and the 
importance of endangered species while offering hands-on experiences 
with our collection. More than 220,000 visitors annually take advantage 
of the experience we offer.
    Our zoo works extensively with endangered species breeding 
facilities and we depend on easily moving animals into and out of our 
collection to continue to provide families with once-in-a-lifetime 
experiences where they can not only learn about these endangered 
species, but learn to love them, and consequently to conserve them 
throughout their lifetimes. The current duplicative regulation of 
nonnative species severely prohibits our ability to provide these 
educational opportunities in conservation for our guests.
    It is simply not in the interest of conservation of nonnative 
endangered species to list them under the ESA.
    I strongly support H.R. 2603 to remove this duplicative regulation 
and to enhance conservation efforts in captive populations.

            Sincerely,

                                                Patti Hall,
                                                          Director.
                                 ______
                                 
        The American Federation of Aviculture, Inc.

                                                       July 6, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I write to you on behalf of the more than 5,000 members and 
associated members of the American Federation of Aviculture, Inc. (AFA) 
in support of H.R. 2603--the SAVES Act.
    The AFA is a nonprofit national organization established in 1974, 
whose purpose is to represent all aspects of aviculture (Bird Breeding) 
and to educate the public about keeping and breeding birds in 
captivity. Our membership consists of bird breeders, pet bird owners, 
avian veterinarians, pet/bird store owners, bird product and food 
manufacturers, farmers, zoos, and other people interested in the future 
of aviculture. The AFA is dedicated to the promotion of aviculture and 
the conservation of Avian Wildlife through the encouragement of captive 
breeding programs, scientific research and the education of the general 
public. The goal of AFA is to ensure long-term, self-sustaining 
populations of exotic birds both in captivity and in the wild. The AFA 
promotes population management and cooperative breeding programs to 
ensure the long-term survival, health, and genetic diversity of birds 
in captivity. Aviculture indirectly contributes to conservation of wild 
populations by providing a supply of healthy pet birds replacing the 
need to harvest exotic birds from the wild habitats for this purpose. 
Over the years AFA has participated as a non-governmental organization 
supporting the goals and objectives of both the Endangered Species Act 
and the Convention on International Trade in Endangered Species 
(CITES).
    The duplicative regulation of nonnative species by the Endangered 
Species Act (ESA) seriously hinders conservation by virtually 
prohibiting the interstate sale and movement among collections even as 
managers work to maintain robust genetic diversity. If a collection 
manager in Missouri would like to bring a new bloodline into their 
macaw collection from a collection in Pennsylvania, current regulations 
are so onerous as to bring that plan to a full stop.
    CITES, currently consisting of 183 nations, regulates the 
international movement of endangered and threatened species, 
effectively protecting endangered species from commercial international 
trade. Virtually all exotic species currently held by private 
individuals and public zoos in the United States have come to the U.S. 
through the monitored trade of the CITES convention. Therefore internal 
regulations such as those under the ESA are duplicative and unnecessary 
and only place undue restrictions on citizens with legally held 
species. The current regulations under the ESA basically treat each 
State as if it were a separate country for the purposes of animal 
movement!
    For more than four decades, nonnative species conservation has been 
stifled by redundant ESA listings and the genetics of very important 
species are congested into State locales where they are prohibited in 
interstate trade by the ESA. H.R. 2603 will enhance the conservation 
and genetics of captive species by allowing for improved genetic 
diversity among captive populations previously isolated by arbitrary 
geographic lines; it is time to reverse this error by passing H.R. 
2603.
    Please do not hesitate to contact me if you have any questions.

            Sincerely,

                                           Jamie Whittaker,
                                                         President.
                                 ______
                                 
                     Avicultural Society of America

                                                       July 3, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I write you today representing the 450 members of the Avicultural 
Society of America (ASA) to make sure you know that the ASA strongly 
supports passage of H.R. 2603, the SAVES Act. For far too long, the 
duplicate listing of nonnative species on the ESA has stifled 
conservation efforts in captivity. It is time to finally end the 
oppression and let conservationists loose to Save our Vulnerable and 
Endangered Species!
    Duplicate listing of nonnative species under the ESA has crippled 
our members' efforts at conservation through development of robust 
captive populations--either for intended reintroduction to the wild or 
as a type of insurance against stochastic events in their native lands. 
By stifling movement of birds between collections through prohibitive 
regulation, the genetic diversity of our captive flocks has been 
hampered.
    Indeed, the listing of nonnative species under the ESA is NOT in 
the interest of conservation.

    The ASA was originally founded in 1927 with several laudable 
missions:

    <bullet> the study of foreign and native birds

    <bullet> the dissemination among the members and public of 
            information for the care, breeding and feeding of birds in 
            captivity

    <bullet> the perpetuation of species that are threatened with 
            extinction

    <bullet> the publication of matters pertaining to aviculture 
            through ``The Bulletin''

    Today, the ASA is the oldest, most prestigious and venerated 
avicultural organization in the United States. ASA boasts members 
across the United States as well as in other countries. Our members are 
currently keeping and breeding virtually every type of bird found in 
aviculture.
    Perhaps most important of all, ASA does things that are good for 
birds in the wild as well as those in aviculture. Consider species such 
as the Scarlet-chested Parakeet, the California Condor, the Black-
hooded Red Siskin, the Nene Goose and many others where, due to 
successful avicultural techniques, there are probably more individuals 
in aviaries than exist in the wild. Aviculturists have saved these 
species from almost certain extinction and many of our members' birds 
have been used in reintroduction efforts in the wild.
    The ASA supports the passage of H.R. 2603 to enhance conservation 
and eliminate redundant government regulation that is prohibiting 
conservation.

            Sincerely,

                                             Carol Stanley,
                                                         President.
                                 ______
                                 
                                   Robert J. Berry,
                                             Houston, Texas

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I strongly urge passage of H.R. 2603, the SAVES Act, to remove ALL 
nonnative species from the Endangered Species Act (ESA).
    The listing of nonnative species under the ESA, when they are 
already protected from international trade within CITES (Convention on 
the International Trade in Endangered Species of Wild Fauna and Flora), 
is an unnecessary redundancy in that regard. The listing of nonnative 
species under ESA also tends to dilute the focus and attention on 
protections of our native U.S. species for which the Act was originally 
intended, as well as funding and enforcement oversight for those 
efforts.
    Such restrictions also negatively impact the ability to establish 
long-term, self-sustaining captive populations of non-native species 
within the U.S. avicultural community that could potentially provide 
critical genetic diversity that may be needed in the future to help 
bolster or re-establish wild populations that are imperiled.
    While serving as the Houston Zoo's first curator of birds (1972-
1987) as well as my lifetime of experience as a private sector 
aviculturist, I have advocated the importance of establishing long-
term, self-sustaining captive populations as a valuable conservation 
tool.

            Respectfully submitted,

                                            Robert J. Berry
                                 ______
                                 
                                 Dallas Safari Club

                                                      July 12, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Mr. Gohmert:

    On behalf of the more than 6,000 members worldwide of the Dallas 
Safari Club, I am writing to express the Club's enthusiastic support 
for H.R. 2603, the SAVES Act. The SAVES Act removes duplicative and 
oppressive regulation of endangered species while leaving in place the 
protections for endangered species provided under the Convention on 
International Trades in Endangered Species (CITES).
    Since 1982, the Dallas Safari Club's (DSC) mission has been to 
conserve wildlife and wilderness lands; to educate youth and the 
general public and to promote and protect the rights and interests of 
hunters worldwide. DSC funds mission-driven programs annually: quail 
research, desert bighorn sheep reintroduction and habitat enhancement 
in Texas; moose, elk, stone sheep and caribou projects in British 
Columbia; elephant and lion projects in Africa.
    As you are aware, hunters are some of the most ardent 
conservationists, both here in the U.S. and abroad. In fact, private 
hunting operations in Africa control more than 540,000 square miles of 
land--that is 22% more than is protected by National Parks. In the 
U.S., the captive populations of some antelope are thriving--
specifically three species that were removed from onerous Endangered 
Species Act (ESA) regulations through legislation. Captive populations 
of these species have exploded. We believe that it is time to take 
action to provide that same opportunity for all nonnative endangered 
species in the U.S. by removing them from the ESA.
    America's hunters and ranchers should be allowed to participate 
fully in endangered species conservation and the SAVES act will provide 
them with that opportunity by promoting captive populations and 
allowing sustainable use principles to increase numbers.
    H.R. 2603 is a great step toward conservation that the DSC fully 
supports. Please do not hesitate to contact me if you have any 
questions.

            Sincerely,

                                               Craig Nyhus,
                                                         President.
                                 ______
                                 
Endangered Species Propagation, Survival & Research 
                                             Center

                                                      July 11, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    My family has ranched in West Texas for 4 generations. I operate 
one of the larger ranches in this area covering 37,000+ acres. We 
produce or have produced meat goats, sheep, cattle, horses and exotic 
hoofed-stock. I founded and served as President of the American Meat 
Goat Association and am a long-time member of the Exotic Wildlife 
Association, which believes strongly in conservation of animal species 
through commerce. My ranch has been home to the largest herds in the 
U.S. in the past decade or so of the exceedingly rare and endangered 
Arabian oryx, Oryx leucoryx, slender-horned gazelle, Gazella 
leptoceros, and Persian onager, Equus hemionus onager. ESPSRC, Inc. has 
repatriated more than 150 Arabian oryx to the Court of the Crown Prince 
(government) of the United Arab Emirates (UAE) to aid in repopulating 
the oryx to their native habitat where they had become extinct decades 
ago.
    The listing of non-native species in the Endangered Species Act 
(ESA) has never been and is NOT now conducive to any degree of 
conservation of said species, let alone conservation through commerce. 
Because the population of said species in captivity is so small, 
genetic diversity via unabated interstate exchange among the population 
is critical to their continued existence. ESA's listing of the above 
species and the resulting regulatory requirements has made introduction 
of novel genetics into my herds significantly difficult. Thus, the 
maintenance of a genetically diverse captive population of these 
species was and is not supported by current ESA regulations. However, 
the passage of H.R. 2603 would lift this oppression and enhance 
conservation opportunities for all non-native endangered species 
currently hampered by the inclusion of said species in the ESA.
    Therefore, H.R. 2603 is a bill whose time has come and I strongly 
support its passage!
    Commerce in non-native endangered species supports conservation. 
The greater the number of individuals employing their private resources 
to support these valuable creatures being cared for in the U.S., the 
stronger the population will become. A robust genetically diverse 
population allows for more repatriation efforts such as those with the 
Arabian oryx back to their native UAE.
    It is time to update the ESA to 21st century conservation 
principles and to harness private resources for optimum conservation of 
non-native endangered species. I strongly urge the passage of H.R. 
2603! Please do not hesitate to contact me if you have need of further 
information or have any questions.

            Sincerely,

                                          Thomas S. Carter,
                                                         President.
                                 ______
                                 
                        Exotic Wildlife Association

                                                      July 12, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    The Exotic Wildlife Association (EWA) supports H.R. 2603--the SAVES 
Act. This bill will enhance conservation, enhance commerce, and 
eliminate duplicate government regulation.
    Since 1967, when it was founded, the EWA has represented concerned 
ranchers engaged in exotic wildlife ranching. Our mission is to 
encourage and expand the conservation of both native and non-native 
hoofstock, and to help our members develop and strengthen the markets 
for their animals. We believe the concept of conservation through 
commerce is the answer to preserving wildlife, and suitable habitat. 
The EWA represents over 5,000 ranchers and ranching families throughout 
the U.S. and in several foreign countries that propagate and protect 
some of the largest populations of privately owned exotic wildlife. Our 
member objectives include:

    <bullet> Protect the rights of private property owners, including, 
            but not limited to, the right to manage and control their 
            own land and the native and nonnative hoofstock living on 
            it.

    <bullet> Defend the owners of native and nonnative hoofstock 
            species against the misrepresentations and false 
            allegations of animal rights activists.

    <bullet> Articulate the need for ``sustainable utilization'' of 
            wildlife, as a viable tool to maintain ``proper carrying 
            capacity'' on private property.

    <bullet> Educate policy-makers, the media and the public through 
            research and advocacy.

    <bullet> Promote ``conservation through commerce.''

    H.R. 2603 will take the handcuffs off private resources and allow 
them to fully engage and invest their private resources in conservation 
of endangered species. In the 21st century, the value of robust captive 
populations as insurance against habitat destruction has become 
apparent and no one is better able to provide for these captive herds 
than our members. H.R. 2603 will allow for more conscientious herd 
management with a focus on enhanced genetic diversity as each state 
will no longer be a country for the purposes of interstate movement 
species. The border will be put back where it was intended and that is 
at the international border rather than at each state line.
    H.R. 2603 is a good conservation policy that EWA fully supports. 
Please do not hesitate to contact me if you have any questions.

            Sincerely,

                                              Charly Seale,
                                                Executive Director.
                                 ______
                                 
                    Florida Aquaculture Association

                                                      July 13, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I am writing this letter as President of the Florida Aquaculture 
Association in support of your proposed Save America's Vulnerable 
Endangered Species (SAVES) Act. Your proposed legislation will 
appropriately refine the ESA's scope, reduce duplication of 
regulations, save U.S. taxpayers precious dollars, encourage U.S. 
commerce and actually enhance non-native species conservation.
    The Endangered Species Act of 1973 (ESA) has given protection to 
many native species. However, the ESA unnecessarily extends protections 
beyond that of native species to foreign species. Non-native species 
are already afforded protection under the Convention on International 
Trade of Endangered Species of Wild Fauna and Flora (CITES). Almost 200 
countries are signatories to these regulations. Each country is in the 
best position to assess the needs of its own native species 
populations. The species that need levels of protection are then 
regulated internationally by the exporting country.
    In these times of limited financial resources, duplication of time 
and effort are not appropriate and in fact are counterproductive. From 
a Federal perspective, expending time and resources to administer and 
enforce antiquated policies is wasteful and unnecessary. From a 
commercial perspective, having to operate under duplicative regulations 
is costly and inefficient, channeling effort and dollars away from 
innovation.
    The current ESA has other unintended consequences that hamper the 
U.S.'s goal of reducing the seafood trade imbalance. Because the ESA 
does not delineate between wild and captive-bred populations, any 
protections given to non-native wild populations, also apply to the 
culture and commerce of these non-native species within the United 
States.
    I will use sturgeon as an example. Farm raised non-native sturgeon 
thrive when grown in the Florida climate. These sturgeon start out as 
fertilized eggs that are imported from foreign fish farms and are CITES 
certified as non-detrimental to the wild native stocks. There are many 
generations separating these fish from the original wild stocks and the 
exporting countries recognize this fact and thus allow for commerce.
    A petition was filed in 2012 to list the wild populations of many 
sturgeon species under the protection of the ESA. This includes several 
foreign sturgeon species that are currently grown in Florida. If the 
Final Determination rules in favor of these wild populations, the 
Florida (and U.S.) non-native sturgeon industry will be forced with 
closure simply as collateral damage to the original intent of 
protecting the wild populations in their native ranges. The pending 
petition has caused farms to close thereby ceding the U.S. market to 
overseas farms that can sell to the U.S. under a captive exemption 
provided by CITES and authorized by the ESA. SAVES would eliminate 
regulation of non-native species and in doing so, would SAVE the U.S. 
non-native sturgeon industry!
    The United States is a leader in pioneering methodologies in 
raising and commercializing the production of aquatic species through 
sustainable and environmentally sound aquaculture techniques. U.S. 
aquaculture benefits conservation by providing a viable marketplace 
alternative to harvesting of wild stocks, thus reducing the fishing 
pressures on both the legal and illegal fisheries. In addition, 
aquaculture allows the academic communities to research topics such as 
physiology, nutrition, pathology and endocrinology, without disturbing 
or risking harm to non-native threatened and endangered wild stocks.
    Florida aquaculture and U.S. aquaculture is being hindered by the 
current ESA. I applaud and fully support Congressman Gohmert's efforts 
to bring the ESA into the 21st century.

            Sincerely,

                                              Marty Tanner,
                                                         President.
                                 ______
                                 
      Florida Tropical Fish Farms Association, Inc.

                                                      July 13, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I am writing to you to support the proposed ``Save our Endangered 
Species Act'' that Representative Gohmert of Texas is planning to 
introduce. Limiting the treatment of non-native species in the United 
States as endangered or threatened under the Endangered Species Act 
(ESA) of 1973 will (1) reduce redundancy and interference among 
regulations,(2) allow better conservation protections for imperiled 
species and native ecosystems, and (3) benefit commerce and the U.S. 
economy.
    I represent the Florida Tropical Fish Farms Association an 
organization of 116 aquarium fish and aquatic plant producers. 
Thoughtful and well-planned commercialization of foreign aquatic 
species currently listed under the ESA would greatly benefit my 
members, U.S. aquaculture as a whole, and the nation.
    The proposed Act would achieve numerous conservation, social, and 
economic benefits.
    (1) Regulations--The Convention on International Trade in 
Endangered Species (CITES) is the recognized international authority 
for international trade in imperiled species. CITES subjects 
international trade in imperiled species to controls designed to avoid 
uses incompatible with the species' survival. Listing under ESA is 
redundant and in some cases conflicts with CITES mission in that 
international and U.S. state boundaries become barriers to proper 
genetic management. Removal from ESA restrictions will further allow 
states to better manage these non-native species within their borders 
and permit commercialization.
    (2) Conservation--Genetic management is central to conservation of 
endangered species. Allowing freer movement of species across 
international and state lines will facilitate increasing genetic 
diversity of populations. Increasing the number of individuals of these 
species in conserved populations or in captive-use populations will 
further increase genetic diversity and improve the outlook of long-term 
management plans for many imperiled species. On the rare occasions when 
species that are imperiled in one part of the world threaten native 
ecosystems in the United States, thoughtful and precise management of 
these populations will be allowed, unlike under our current 
regulations.
    (3) Commerce--Several foreign species now listed under the ESA 
would have considerable economic value in U.S. aquaculture and related 
trade. Captive populations of such species as tropical marine corals, 
sturgeon, crocodilians, and turtles could increase the value of U.S. 
aquaculture/agriculture, provide exports for trade, and supply domestic 
ornamentals, food items, and leather goods to U.S. citizens. An 
outstanding example of the potential for commercialization of imperiled 
species going hand-in-hand with effective conservation is the American 
alligator. Once endangered, this species has rebounded in the wild to 
the point where wild harvest (commercial and recreational) and culture 
are commonplace. Culture has greatly assisted the rebound of alligators 
which today provide meat and hides for domestic and international 
commerce.
    In closing, we appreciate the leadership of Rep. Gohmert in this 
issue and strongly support the amendment to the ESA. If I or any of our 
association members can provide any additional information, please let 
me know.

            Sincerely,

                                             John Skidmore,
                                                         President.
                                 ______
                                 
             Florida Veterinary Medical Association

                                                      July 12, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    Representing more than 5,300 veterinary medical professionals in 
the State of Florida, the Florida Veterinary Medical Association (FVMA) 
supports the introduction of the SAVES Act. The welfare of our state 
depends largely on the conservation of our natural resources, and we 
believe this legislation represents a common sense approach to 
modernizing the conservation efforts which we have utilized since 1973, 
under the Endangered Species Act (ESA).
    We appreciate its intent to streamline conservation practices with 
the removal of regulations that protect nonnative species, which in the 
1970's, were included in the ESA to assist newly-formed international 
regulatory agencies to implement the protection of threatened species 
abroad.
    We are supportive of the Act's intent of relinquishing regulatory 
authority for the movement of nonnative species to states, to increase 
commerce and economic opportunity through deregulation of interstate 
movement, and decreasing federal spending for unnecessary regulation. 
Most importantly, we strongly agree that the Act will enhance animal 
welfare by allowing more animals to meet criteria for monitoring under 
the Animal Welfare Act.
    As the voice of veterinary medicine in the State of Florida, with a 
mission to advance the profession, promote animal health and well-
being, and protect public health, the FVMA is required to be engaged, 
and to support measures such as the SAVES Act, which will ultimately 
positively impact our state's management of programs that protect 
animals and the economy of Florida.

            Sincerely,

                                          Philip J. Hinkle,
                                                Executive Director.
                                 ______
                                 
                  Fort Worth Zoological Association

                                                      July 28, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I am writing to you in support of H.R. 2603, the SAVES Act. The 
Endangered Species Act (ESA) as it pertains to the breeding of 
protected species in managed populations creates impediments to 
conservation and research. By removing protections for species that are 
not native to the United States, the SAVES Act will streamline the 
transfer of specimens between institutions actively working to conserve 
them.
    As you know, the Convention on International Trade in Endangered 
Species (CITES) imposes strong and effective regulations that serve to 
protect endangered species. With the support of nearly 200 member 
countries, CITES provides the international framework to regulate and 
conserve endangered species. As such, the ESA is duplicative and, 
oftentimes, counterproductive. In addition to decreasing federal 
spending and removing redundant regulations, the SAVES Act would 
augment the conservation of endangered species by removing regulations 
that hinder participation in global conservation programs.
    The Fort Worth Zoo participates in coordinated breeding programs 
for more than 110 species, many of which are vulnerable, endangered or 
critically endangered. These programs manage the breeding of certain 
species in order to maintain healthy and self-sustaining populations 
that are both genetically diverse and geographically stable. However, 
to move specimens across borders for recommended genetic breeding often 
takes 6 months to a year for the U.S. Fish and Wildlife Service to 
issue permits, while other countries issue permission in weeks. The 
SAVES Act is critical in managing these populations globally and for 
some species, like elephants and rhinos, it may be their only hope for 
survival.
    The Fort Worth Zoo supports the SAVES Act, as it will enhance the 
conservation of non-native species. Thank you for your continued 
efforts to improve the outdated regulations regarding endangered 
species.

            Sincerely,

                                          Michael Fouraker,
                                                Executive Director.
                                 ______
                                 
Medicine Park Aquarium and National Sciences Center

                                                       July 3, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I write to you today in strong support of H.R. 2603, the SAVES Act. 
The SAVES Act is the best step towards conservation of endangered 
species that the U.S. Congress has taken in 40 years. The SAVES Act 
will not only remove onerous and duplicative government regulation and 
enhance commerce, it will make conservation great again!
    I have spent my entire career working for conservation of 
endangered species, first as the herpetarium supervisor at the Oklahoma 
City Zoo, then Curator of the New York aquarium, as founding Director 
of the Seattle Aquarium, founding Director of the Aquarium at Moody 
Gardens in Galveston, founding Director of the Oklahoma aquarium, and 
now as the Executive Director of the Medicine Park Aquarium in Medicine 
Park, Oklahoma. I have consulted extensively on exhibit design and 
operations with a number of significant zoological parks including the 
National Aquarium in Baltimore and Seattle's Museum of Flight and 
Pacific Science Center.
    The duplicative listing of nonnative species on the endangered 
species act (ESA) has crippled our ability to maintain robust captive 
populations to serve as a form of insurance against loss of these 
animals in the wild. The ESA imposed arbitrary geographic boundaries 
that created genetic islands within the states--in fact, the ESA 
rendered each state essentially a country for the purposes of 
interstate movement of endangered species.
    It is past time that we admit the ESA is not perfect and 
appropriately remove all nonnative species from the ESA by passing the 
SAVES Act. Please do not hesitate to contact me if you have need of 
further information or have any questions.

            Sincerely,

                                               Doug Kemper,
                                                Executive Director.
                                 ______
                                 
            National Animal Interest Alliance Trust

                                                      July 13, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

Re: H.R. 2603, ``Save America's Vulnerable and Endangered Species Act''

    Dear Congressman Gohmert:

    I am writing to you on behalf of the NAIA Trust, a broad-based 
animal welfare organization founded in 2001 to provide fact-based 
answers to complex and controversial issues regarding animals. We are 
dedicated to securing high standards of animal care and treatment; and 
to preserving the human-animal bond. Amongst our members across the 
United States are pet owners, hobby breeders, rescuers and animal 
professionals, scientists and veterinarians.
    I am writing to you today to ask you to support H.R. 2603, ``Saving 
America's Vulnerable and Endangered Species Act'' (SAVES). This bill 
would amend the outdated Endangered Species Act in a simple yet 
powerful manner: by narrowing the scope to regulate species that are 
native to the U.S. Nonnative species will be left to regulation under 
the Convention on International Trade in Endangered Species of Wild 
Fauna and Flora (CITES). Much of the ESA restrictions on nonnative 
species actually serve to HARM current conservation efforts by 
restricting interstate movement of nonnative species, which creates 
genetic isolation hindering breeding efforts. With this change, the 
U.S. Fish and Wildlife Services would then be able to focus all energy 
and resources to the preservation of native U.S. species. However, it 
is important to note that this does not impact the regulation of 
INVASIVE non-native species.
    The benefits of this legislation are endless. The government will 
be saving millions it costs to enforce, not to mention defending and 
fighting endless lawsuits and petitions from profiteering NGOs preying 
upon the easy manipulation of ESA. Interstate commerce and economic 
channels would be opened. H.R. 2603 is legislation that will truly 
serve to help the conservation of nonnative species through the 
expansion of captive populations and breeding programs.
    Please help to conserve both native and nonnative species with your 
support of H.R. 2603.

            Sincerely,

                                             Sara Chisnell,
                                              Legislative Director.
                                 ______
                                 
                   National Aquaculture Association

                                                       July 7, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

Re: H.R. 2603, Saving America's Endangered Species Act

    Dear Congressman Gohmert:

    The National Aquaculture Association (NAA) strongly supports 
passage of H.R. 2603, the Saving America's Endangered Species Act. The 
listing of nonnative species on the Endangered Species Act (ESA) is not 
only duplicative, it hampers commerce and oppresses conservation.
    The NAA is a non-profit trade association representing U.S. 
aquaculture that is composed of approximately 5,500 farms with a farm-
gate income of $1.6 billion annually. Our members culture native and 
nonnative fish, shellfish, reptiles, corals, crustaceans, and aquatic 
plants for consumption as seafood, use as bait or for stocking for 
recreational fishing, biological control of nuisance aquatic weeds, and 
aesthetic enjoyment in garden ponds or aquariums.
    Just last week, the National Marine Fisheries Service posted a 
notice seeking public comment on a proposed listing for nonnative giant 
clams. Several giant clam species are in the marine aquarium trade and 
U.S.-owned farms in the Pacific are successfully producing these 
animals. To be sure, these giant clams are not endangered in captivity 
and should not be listed! If listed, the farms producing them will 
surely decline as interstate movement and commerce will be 
catastrophically impacted. They may not become priceless, but they are 
sure to become worthless.
    Within the aquaculture community there is significant experience, 
knowledge, and applied science that has been cultivated over 
generations and could be leveraged to assist in the recovery of at-risk 
species. Unfortunately, the history of species listings indicates that 
there is little flexibility within the Endangered Species Act that 
would recognize this conservation benefit and allow farms to continue 
to operate successfully. As a consequence, these invaluable resources 
are lost.
    Quite frankly, the listing of nonnative species on the ESA is not 
beneficial to conservation, commerce or aquaculture and should be 
stopped--H.R. 2603 will do this and the NAA strongly supports this 
bill.

            Sincerely,

                                               Jim Parsons,
                                                         President.
                                 ______
                                 
                                    The Parrot Fund

                                                       July 4, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I thank you very much for sponsoring H.R. 2603, ``Saving America's 
Vulnerable and Endangered Species Act.'' I summarize below some reasons 
why I agree removing non-native species from under the purview of the 
Endangered Species Act (ESA) is a change whose time has come.
    (1) The purpose of the Endangered Species Act (ESA) was and is ``to 
protect and recover imperiled species and the ecosystems upon which 
they depend.'' How it has been implemented within the United States 
certainly is open to discussion and disagreement, yet within our 
country it has helped a large number of native species. The same cannot 
be said for non-native species living in foreign nations over which the 
U.S. has no jurisdiction, cannot make safe harbor agreements, or make 
any of the other national-local agreements that promote species 
conservation while reducing the negative impacts of the ESA on personal 
freedoms and private property rights. It is superfluous regulation with 
no purpose or beneficial effect.
    (2) The present implementation of the ESA makes it nearly 
impossible to maintain viable populations of non-native species in 
captivity because of the time consuming, complex, costly and often 
conflicting regulations that owners must contend with. Yet there is no 
concomitant benefit to those species in their native countries. 
Interstate exchanges of individuals for breeding purposes are hindered 
by the permitting requirements and expenses, and surplus animals (and 
presumably plants) cannot be sold but must be maintained by the 
breeder, given away, or destroyed. I personally am trying to breed 
several endangered parrot species. I know of out-of-state people who 
would sell me important genetic representatives to add to my breeding 
programs, but the present version of the ESA requires both of us to 
have captive breeding permits that are difficult, expensive and time 
consuming to try to obtain. I also have people who are interested in 
buying any surplus birds I may have, but I must tell them I cannot sell 
any to them because of the ESA regulations. I am thus a very small and 
simple example of how the present version of the ESA hinders the 
development of small businesses that might wish to do transactions 
across state lines.
    (3) Millions of dollars are wasted by the huge bureaucracies needed 
in the Fish and Wildlife Service and National Oceanic and Atmospheric 
Administration in responding to listing petitions, litigation, managing 
the permitting processes, and performing the required periodic 5-year 
reviews. Time that could be focused on native species and their 
recovery is wasted on regulating U.S. ownership of non-native species 
with only negative effects on the conservation of these species.
    (4) H.R. 2603 cleans up duplicate regulations: CITES, a major 
international conservation treaty with 183 parties, will continue to 
regulate international movement and protection of endangered species. 
There is no need for another U.S. law to regulate species not native to 
the U.S. While the CITES treaty certainly could be improved to be more 
effective and less political, the U.S. Endangered Species Act in no way 
addresses CITES problems. And the Wild Bird Conservation Act is more 
than adequate to regulate ownership of non-native birds in the United 
States.
    (5) Regulations should not impede personal freedom, economic 
opportunity, and interstate commerce without benefits that markedly 
exceed the damages caused. Applying the ESA to non-native species with 
a broad brush does not deliver such benefits.
    (6) Finally, I have had to point out to some people who initially 
objected to H.R. 2603 because of the problem of dangerous and invasive 
species, that H.R. 2603 does not impact the Government's ability to 
regulate non-native invasive species under the Federal Injurious 
Wildlife Law (Lacey Act 18 U.S.C. Sec. 42).
    In closing, thank you for submitting this amendment to the House 
Committee on Natural Resources. I have asked my Congressman Bill Flores 
to support this much needed modernization of the Endangered Species 
Act. I hope your efforts come to fruition.

            Regards,

                                            Janice D. Boyd,
                                                         President.
                                 ______
                                 
                Pet Industry Joint Advisory Council

                                                      July 11, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    On behalf of the Pet Industry Joint Advisory Council (PIJAC), I 
write today in support of the Saving America's Endangered Species 
(SAVES) Act, H.R. 2603. As the country's largest pet trade association, 
representing the interests of all segments of the pet industry 
throughout the United States, PIJAC counts among its members national 
associations, organizations, corporations and individuals involved in 
the commercial pet trade. More specifically, PIJAC represents the 
interests of pet stores, distributors, pet supply manufacturers, 
breeders, retailers and pet owners throughout the United States.
    The SAVES Act addresses a very real defect in the way the 
Endangered Species Act (ESA) is currently administered. By removing 
non-native species from the auspices of the ESA, this Act would restore 
uniform national oversight to the interstate transfer of non-native 
species. It would permit the individuals and organizations across the 
country who are committed to breeding for preservation and responsible 
enjoyment to more readily interact with one another, thereby improving 
the genetic diversity of breeding groups and removing restrictions that 
currently result in surplus animals being held or even destroyed.
    We at PIJAC are proud to work with the federal government and 
international non-governmental organizations on a wide range of 
conservation and protection efforts. We have a memorandum of 
understanding with the U.S. Fish and Wildlife Service regarding the 
public-private partnership known as Habitattitude, which educates the 
public on proper disposal of non-native and potentially invasive 
species. We regularly engage with the government on issues stemming 
from the Lacey Act's oversight of invasive species. And we are active 
participants in discussions surrounding international trade in exotic 
species through CITES.
    It is with this experience and perspective that we are able to say 
that the SAVES Act is a welcome attempt to remove a duplicative and 
costly element of the ESA by clarifying that non-native species here in 
the United States are not to be treated as endangered or threatened. 
This change will not jeopardize existing protections, but it will 
certainly improve efforts to preserve species that may be endangered or 
threatened in their native habitats.

            Respectfully,

                                                Mike Bober,
                                                   President & CEO.
                                 ______
                                 
              Rainforest Clinic for Birds & Exotics

                                                      July 14, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

Re: PLEASE SUPPORT H.R. 2603

    Dear Congressman Gohmert:

    I am an avian veterinarian and also an aviculturist (parrot 
breeder). I work with many species of exotic (Non-native) birds which 
are listed as Endangered or Threatened under the Endangered Species 
Act.
    I support H.R. 2603 because listing of non-native species under the 
ESA does not provide tangible benefits to the conservation of those 
species and in fact it limits exchange of specimens between states, 
thereby restricting genetic diversity in captive populations.
    ESA listing of non-native species is un-necessary because they 
receive adequate protection for the effects of trade by the CITES 
treaty and more recently the Wild Bird Conservation Act. As part of a 
working group associated with the American Federation of Aviculture, we 
found no evidence that the U.S. Fish and Wildlife Service has provided 
any support to enhance the conservation of listed psittacines (parrot) 
species in the wild.
    This amendment will eliminate the need for the Captive Bred 
Wildlife Program which requires costly and onerous permitting and 
restrictions of birds and animals moving around the U.S., as well as 
constant monitoring of the species status in the wild. The U.S. has no 
jurisdiction in those species native countries.
    Passage of H.R. 2603 will free up resources so that the U.S. Fish 
and Wildlife Service can concentrate on our native species.
    H.R. 2603 will enhance the ability of U.S. Citizens to work with 
and conserve U.S. captive populations of non-native species.

            Respectfully submitted,

                                           Susan Clubb, DVM
                                 ______
                                 
                                   The Snake Keeper

                                                      July 13, 2017

Hon. Rob Bishop, Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Bishop:

    I am writing to you in regarding H.R. 2603, the SAVES Act. I have 
previously contacted your office as well as the offices of our other 
congressional leaders here in the state of Utah regarding this bill.
    My husband and I have been breeding and caring for various species 
of reptiles and amphibians for the past 30 years. Through these years 
there has been tremendous progress made in the captive husbandry and 
propagation of numerous species of terrestrial animals, aquatic life 
and plants. However, many of our laws regarding wildlife have not kept 
up with the advances in wildlife husbandry.
    We enthusiastically support H.R. 2603 as it will remove non-natives 
from the ESA listing. This will allow individuals and institutions 
working with endangered non-native species to establish stronger 
breeding programs by allowing for greater genetic diversity of those 
programs. The offspring from such programs will be far more robust and 
they will become an invaluable asset for building the foundations of 
future breeding programs.
    There is a finite amount of resources available to implement 
programs. It is impossible for the U.S. to control what happens in 
other countries where ESA species reside. Removal of the non-native ESA 
species will allow for greater resources to be used for our own ESA 
species here in the U.S. Federal spending on non-native ESA species 
would be decreased. U.S. Fish and Wildlife would be able to discontinue 
the Captive Bred Wildlife permit system and associated reviews. This 
would allow for more of their limited resources to be used for our own 
native ESA species.
    Thank you for your time. We urge you to strongly support H.R. 2603 
as an effective way to strength conservation efforts of non-native ESA 
species here in the U.S.

            Sincerely,

                                        Colette Sutherland,
                                                     Owner TSK Inc.
                                 ______
                                 
                  Southwick Wild Animal Farm, Inc.,
                                      dba Southwick's Zoo  

                                                      July 17, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    Today I write to express my full support of H.R. 2603--the SAVES 
Act. For more than 4 decades the Endangered Species Act (ESA) has 
hampered conservation through redundant and unnecessary regulation of 
nonnative species.
    Southwick's Zoo was opened in 1963 by my grandfather. Over the 
years, the zoo has grown to 300 naturalistic acres and more than 850 
animals. We welcome 450,000 visitors each year and offer them 
opportunities to get close to and learn about some of the most 
endangered species in the world.
    Being located in Massachusetts, the oppressive nature of the ESA 
regulation of nonnative species is particularly problematic. Given that 
the states in the New England area are small, it is quite likely that 
we are unable to engage with collections just a few miles away. 
Certainly, if one is interested in conservation of endangered species, 
one can clearly and readily understand that these draconian regulations 
are not in the interest of conservation of endangered species. 
Maintaining genetic diversity within the captive population is one of 
the most valuable contributions available for ex-situ conservation--
listing nonnative species under the ESA fails to recognize this 21st 
century approach to conservation.
    As a veterinarian, I understand the complicated nature of ESA-
related issues including animal welfare and disease concerns. H.R. 2603 
doesn't impact current disease regulations and may serve to enhance 
animal welfare. Let's welcome the American conservation into the 21st 
century and modernize the ESA by removing its oppressive listing of 
nonnative species. Pass H.R. 2603!

            Sincerely,

                                       Peter J. Brewer, DVM
                                 ______
                                 
             Turtle and Tortoise Preservation Group

                                                      July 13, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

Re: Support for H.R. 2603, ``Saving America's Vulnerable and Endangered 
        Species'' Act

    Dear Congressman Gohmert:

    On behalf of the Turtle and Tortoise Preservation Group (TTPG), 
this letter is submitted in support of H.R. 2603, known as the 
``SAVES'' Act. TTPG is an educational 501(c)(3) non-profit association, 
The mission of the TTPG is to ensure survival of the world's turtle and 
tortoises through captive breeding. The TTPG supports the private 
ownership of chelonians and recognizes the substantial role that the 
private sector has played in the captive breeding and conservation of 
turtles and tortoises. TTPG members have specialized knowledge and 
expertise on the captive care and breeding of chelonians obtained 
through education, research, and practical knowledge gained from years 
of experience in maintaining and breeding chelonians. The TTPG shares 
knowledge and educate individuals and organizations regarding captive 
care, husbandry, health, breeding, and conservation of chelonians. 
Members pursue and encourage legal, ethical, and moral efforts to 
prevent extinction of turtle and tortoise species. The TTPG recognizes 
that captive breeding reduces the pressure on wild populations and 
provides assurance colonies for species threatened in the wild due to 
habitat loss, disease, or natural disasters.
    One portion of the ESA that would be eliminated by H.R. 2603, and 
directly impacts private breeding efforts, is the Captive Bred Wildlife 
(CBW) permit system. This permitting system is redundant to the 
Convention on International Trade in Endangered Species (CITES) global 
administration in international trade and movement of endangered and 
threatened species. CITES is a robust worldwide society with nearly 200 
member countries. The strength and effectiveness of CITES makes the use 
of the ESA, through the CBW permit system to protect non-native, 
captive bred species held within the U.S. redundant.
    In addition, the CBW permitting system is costly, labor intensive 
for the U.S. breeders working with non-native endangered species and 
the permit provides absolutely no benefit to the conservation of these 
species. The regulatory body that oversees the permitting system, the 
U.S. Fish and Wildlife Service (USFWS), has also openly said they do 
not believe in ex-situ breeding populations. What we have seen the 
permit system actually do is discourage breeders in the U.S. from 
working with any non-native endangered species that may actually 
benefit the captive breeding the most. It will cost the breeder money 
in permit fees every five years, time, and tremendous effort in filing 
for permits that are administered by an office that discourages private 
breeding of endangered species. The time for a response from USFWS to 
your application routinely takes more than a year now. There is 
additional time spent by the breeders to prepare the required annual 
reports to USFWS. Those who do have the permit can stilI only sell to 
others with the permit that have those species listed. Such hesitations 
and restrictions inadvertently create genetic bottlenecks within the 
existing captive breeding populations. This is not only detrimental to 
the captive population, but only reduces the long-term vitality of 
captive breeding populations that are no longer being removed from the 
wild and imported into the U.S.
    It is time to update the Endangered Species Act and remove this 
redundant, costly, time wasting listing of nonnative endangered 
species. This will allow USFWS to focus their resources on imperiled 
native wildlife.

            Respectfully submitted,

                                        Paul Vander Schouw,
                                            Director of Operations.
                                 ______
                                 
         Wildlife World Zoo, Aquarium & Safari Park

                                                       July 5, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    The SAVES Act, H.R. 2603, is a bill that is way overdue. Since 1973 
when nonnative species were listed on the Endangered Species Act (ESA), 
they should have been removed. Listing nonnative species in the ESA is 
not only a duplicative, onerous regulation, but is counter-productive 
to conservation and significantly impedes commerce by prohibiting 
interstate movement of these animals.
    For the past 33 years I have owned and operated Wildlife World Zoo, 
Aquarium & Safari Park in Litchfield Park, Arizona. We are not only an 
accredited zoo, but the largest in Arizona and the first aquarium in 
Arizona. 400,000 people come to our park annually to experience rare 
animals and learn about the value of animals and their care while 
enjoying a family outing. Over 80,000 of these visitors are school 
children on field trips who enjoy several educational presentations 
each day featuring various animals. Since our opening in 1984, Wildlife 
World has been dedicated to providing hands-on and up-close experiences 
with some of the rarest species in the world in order to spark an 
interest in conservation, in even the most cynical of our visitors!
    Wildlife World not only exhibits endangered species, but we 
successfully reproduce these animals as part of organized, cooperative 
breeding programs for conservation. Our access to genetic diversity 
among ESA-listed nonnative species is severely hampered by their 
listing on the ESA. In fact, captive breeding programs are stifled by 
ESA listings as interstate movement is largely prohibited and CBW 
permits are becoming difficult to renew.
    One of the reasons that our guests return to Wildlife World is not 
only the connections they make with our animals, but to see the rarest 
and most endangered species. If we are unable to maintain and continue 
to successfully reproduce these species, our annual admissions will 
certainly be negatively impacted. Wildlife World employs over 100 
people full time and has significant community engagement. We owe this 
not only to our great staff, but to the rare and endangered species 
with whom our visitors can enjoy viewing and learning about.
    Nonnative species should not be listed on the ESA. I strongly 
support H.R. 2603 to remove this duplicative and onerous regulation and 
to enhance conservation efforts in captive populations.
    Please do not hesitate to contact me if you need any further 
information or have any questions.

            Sincerely,

                                             Mickey Ollson,
                                                    Director/Owner.
                                 ______
                                 
                                  Wildwood Aviaries

                                                      July 13, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I am writing in support of H.R. 2603, the SAVES Act. This positive 
bill does the following:

    <bullet> Removes duplicative regulations.

    <bullet> Increases commerce and economic opportunity through 
            deregulation of interstate movement of non-native species. 
            (See details below.)

    <bullet> Decreases spending of millions of tax dollars to respond 
            to lawsuits related to listing of non-native species.

    <bullet> Allows USFWS to focus on monitoring and protection of 
            native endangered species.

    The keeping and breeding of many different non-native species is a 
widespread activity in the United States, with an accompanying strong 
and vibrant positive impact on the U.S. economy. There are many 
segments of the manufacturing and business sectors involved in the 
production of goods and services related specifically to non-native 
species kept and bred in the USA. Some examples follow:

    <bullet> buildings/barns, outdoor pens, ponds

    <bullet> variety of types of wire, plastics, containers, and 
            equipment

    <bullet> tremendous variety of food types, from grains, seeds, nuts 
            to meat and vegetable products

    <bullet> stores and shops which sell equipment related to the care 
            and keeping of non-native species

    <bullet> individuals keep/breed non-native species as a full time 
            or part time income-producing occupation

    <bullet> non-native species organizations produce annual or monthly 
            shows, exhibits, fairs in various parts of the United 
            States, bringing in visitors and income to local 
            communities.

    <bullet> ownership of non-native species has resulted in the 
            development of professions related to the care and keeping 
            of these species, such as non-native animal veterinarians 
            who treat everything from parrots to emus or from reptiles 
            to primates.

    Speaking as a person who owns non-native endangered parrots, over 
the past two years I have spent more than $250,000 in construction in 
order to house these birds properly. Routine monthly expenditures 
include the provision of food items, the use of avian veterinarians, 
the purchase of transport containers, air cargo shipments, and 
expenditure for workers hired to assist with daily routines. I am 
simply one person among many thousands who work with non-native 
species: birds, mammals, reptiles, etc. All of these individuals across 
the U.S. are involved in the creation of jobs, demand for the 
manufacture and sale of a wide variety of equipment and products, 
demand for a wide variety of types of foods, etc., all of which results 
in a huge economic boost for communities, and for the production of tax 
dollars for the USA.
    It makes sense to pass a law like H.R. 2603 which promotes economic 
success while also making it much easier for the USFWS to do its work 
to monitor and save native species, The ESA regulation of non-native 
species does nothing to protect these species and they should be 
removed from the ESA.

            Sincerely,

                                       Laurella Desborough,
                                               Claremore, Oklahoma.
                                 ______
                                 
                             Wildwood Wildlife Park

                                                      July 13, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    I am writing today to express Wildwood Wildlife Park's full support 
for H.R. 2603--the SAVES Act. This common sense legislation will 
relieve the oppressive regulation of the Endangered Species Act (ESA) 
from nonnative species and enhance conservation, increase commerce, and 
remove duplicative regulation.
    Wildwood Wildlife Park is home to more than 1,000 animals including 
many endangered species. My family purchased the zoo in 1997. We had 
previously owned and operated a private game farm. Our park is truly a 
family affair with our sons playing an integral part of operations. 
Indeed, we think of our guests as extended family and work to provide 
them with unique opportunities to learn about endangered species and 
through greater understanding, learn to love and conserve these 
precious resources. Children in particular that visit the zoo must be 
brought into contact with nature because they are the future caretakers 
of this planet. In the zoo children develop a large sense of respect 
and understanding towards the living world.
    Our collection depends on sophisticated breeding management to 
maintain a robust and healthy population. The redundant listing of 
nonnative species on the ESA nearly prohibits interstate movement of 
these species and significantly impacts genetic diversity within all 
captive populations. Modem conservation science recognizes the 
importance of not only genetic diversity but the true value of captive 
populations. Robust captive populations serve as a type of insurance 
against declining wild populations. If some natural disaster or disease 
outbreak should wipe out an existing wild population, the habitat could 
be restored and then restocked using animals from a healthy captive 
population. Current listing of nonnative species on the ESA does not 
contribute to the modern model for holistic conservation of endangered 
species.
    It is because of our love of endangered species and work in 
conservation that we fully support H.R. 2603's efforts to remove 
duplicate regulation, enhance commerce and animal welfare, and bring 
conservation into the 21st century.

            Sincerely,

                                   Judy and Duane Domaszek,
                                  Wildwood Wildlife Park Directors.
                                 ______
                                 
                          Zoosiana--Zoo of Acadiana

                                                       July 7, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

Re: Strong Support for H.R. 2603: The SAVES Act

    Dear Congressman Gohmert:

    My name is Matt Oldenburg and my family has owned and operated the 
Zoo of Acadiana (dba Zoosiana) in Broussard, Louisiana for the past 15 
years. We strongly support H.R. 2603, known as the SAVES Act. This bill 
is long overdue and it will eliminate duplicative, onerous regulation 
by removing nonnative species from the Endangered Species Act (ESA). 
Keeping nonnative species in the ESA is counterproductive to 
conservation and significantly impedes commerce by prohibiting 
interstate movement of these animals.
    Zoosiana is an accredited zoological park and is the only one 
privately owned and managed in Louisiana. We receive no taxpayer 
funding--at neither the local, state, nor federal levels. We host 
150,000 guests annually who come to our park to learn about and 
appreciate the many animals living here. 30,000 of these guests attend 
through school field trips!
    Our zoo provides daily care and maintenance for more than 1,000 
animals, representing 125+ species, many of which are endangered. We 
are fortunate to take this a step further and have a long history of 
successfully reproducing many of these endangered species. However, our 
access to genetic diversity for these animals is severely hampered by 
their listing in the ESA. Managed breeding programs are truly stifled 
by ESA listings as interstate movement is largely prohibited and the 
licenses to allow this, called CBW permits, are becoming difficult to 
renew.
    One of the reasons our guests continue to visit Zoosiana is to see 
rare and endangered animals. If we are unable to maintain and continue 
to successfully reproduce these species, our annual admissions will 
certainly be negatively impacted. Zoosiana employs a staff of 35 people 
and is heavily invested in the local communities. Our guests enjoy 
viewing and learning about our rare and endangered animals and we owe 
this to the first class animal care provided by our staff.
    Nonnative species should not be listed on the ESA. We strongly 
support H.R. 2603 to remove this duplicative and onerous regulation and 
to enhance conservation efforts in managed populations.
    Please do not hesitate to contact me if you need any further 
information or have any questions.

            Sincerely,

                                             Matt Oldenburg
                                 ______
                                 
                  Zoological Association of America

                                                       July 6, 2017

Hon. Louie Gohmert, Vice Chairman,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Congressman Gohmert:

    The Zoological Association of America (ZAA) strongly supports 
passage of H.R. 2603--the SAVES Act. The listing of nonnative species 
under the Endangered Species Act (ESA) is redundant and counter-
productive to conservation efforts for endangered species.
    ZAA is the one of the largest trade association in the zoological 
sector; counting among its members some of the finest facilities in 
United States. ZAA promotes responsible ownership, management, 
conservation, and propagation of animals through professional standards 
in husbandry, animal care, safety and ethics.
    Conservation, education and research are major pillars of our work 
at ZAA. Our members are involved in conservation work including 
reintroduction programs, rescue and rehabilitation, community outreach 
and education programs, and a series of predator/prey conflict 
avoidance programs and studies. Additionally, through maintenance of 
robust captive populations of endangered species, ZAA institutions 
create a conservation safety net for wild populations. These species 
management programs are coordinated across our membership to ensure the 
greatest genetic diversity and overall herd health for these species.
    ZAA's commitment to the fields of research and education takes us 
beyond animal ambassador programs and classroom education to more 
comprehensive work with wildlife management professionals around the 
globe. This work includes conducting and supporting research in 
behavioral sciences and genetics and exchanging information and 
training on husbandry, nutrition, best management practices, and 
veterinary care.
    Our members rely on the ability to move individual animals among 
collections to best maintain a robust captive population and to provide 
the best opportunities for successful breeding of endangered species. 
The onerous and prohibitive regulation of captive bred, non-native 
species under the ESA is counter-productive to conservation efforts. If 
our members cannot successfully maintain a healthy captive population 
of some of our most endangered species, we will lose that important 
genetic safety net. In addition, the general public will lose the 
opportunity to learn about these unique creatures while developing 
stewardship and compassion for the conservation of endangered and 
threatened species
    ZAA members contribute to and support in situ conservation 
worldwide, both independently and through the Hall Family ZAA 
Conservation Fund with a direct correlation between the guests, our 
member institutions, and supporting animals in the wild. We need to 
assure our members and the public that conservation of endangered 
species is a priority, and we can do that by lifting the redundant and 
unnecessary regulation of nonnative species under the ESA.
    H.R. 2603 is the best conservation policy in many years and ZAA 
strongly supports its passage. Please do not hesitate to contact me if 
you have any questions.

            Sincerely,

                                             John Seyjagat,
                                                Executive Director.

                                 ______
                                 

    Mr.  Gohmert. Thank you. I was touched by Mr. Corwin's 
testimony about being able to introduce ferrets with his 
daughter into an area where they were no longer. And that has 
happened around the world, and thank God that it has. But it 
normally happens, as I have been talking about, by groups that 
have, in captivity, endangered species in another country that 
are not at all endangered in the United States.
    African scimitar, horned oryx, is one of those. African 
Barbary sheep and Indian blackbuck antelope. India and Pakistan 
had to come to Texas to get these that were extinct in their 
country from people who were conserving them. But when the 
Federal Government comes in and says, ``Hey, these are 
endangered species,'' and they say, ``No, we have thousands in 
the United States among our breeders,'' they say, ``Well, we 
don't care. They're extinct overseas, we are going to list them 
as endangered, and we are going to have to permit everything 
you do on your land,'' they get rid of them and we lose those 
species.
    Only someone who thinks that whatever the question is the 
answer is ``government'' would think that the SAVES Act is a 
bad idea. Illegal wildlife trafficking will not be affected by 
this, because if it is illegal to transport any species, then 
it is still illegal after this bill passes. I yield back.
    The  Chairman. Thank you.
    Mr. Huffman, you are recognized.
    Mr.  Huffman. Thank you, Mr. Chairman. I think we have some 
very selective reliance on the position of our governors in 
this case. I have heard this recurring theme, that the Western 
Governors Association made a bunch of recommendations on the 
Endangered Species Act.
    Well, the Western Governors and governors all over this 
country have not exactly been bullish on the Trump-care 
legislation, and yet they were summarily ignored in this House. 
But if they come along with recommendations that may be read or 
construed to help weaken the Endangered Species Act, suddenly 
they are very persuasive authorities in this hearing.
    It is a good analogy that the Ranking Member made between 
the Endangered Species Act and health care, because I keep 
hearing again and again from my colleagues across the aisle, 
``We don't want to see species go extinct, but,'' and then 
begins the reasons why we have to do things to weaken the 
Endangered Species Act.
    There is really no conversation that I have had in this 
Committee in my 5 years here about anything that would actually 
strengthen the endangered species, anything that would actually 
give some policy meaning to this stated support for wildlife 
and species. All we ever talk about are pulling threads out of 
the Endangered Species Act to make it weaker and weaker.
    So, along come the Western Governors. In several of the 
witnesses' testimonies, we have heard about their specific 
recommendations because some of those recommendations are 
consistent with the long-standing agenda of this Committee: to 
weaken citizen enforcement, to make it harder to do listing, to 
make it easier to do de-listing, to weaken independent science, 
all the threads that the Committee keeps wanting to pull out of 
the Endangered Species Act, which many of us believe would 
cause it to unravel.
    So, a couple things about that. First of all, there are 
some of those recommendations from the Western Governors that 
are being ignored, like the increased funding for implementing 
the ESA. We don't talk about that. It certainly appears nowhere 
in the Administration's budget. We just had the Secretary of 
the Interior to testify about what a balanced budget looks 
like. In his view, the way you balance the budget is you slash 
the heck out of ESA implementation, so we have a disconnect 
there.
    The other disconnect is the implication that these 
recommendations were done by consensus among the Western 
Governors, because they were not. In fact, the largest of the 
Western Governors, Gov. Jerry Brown in California, correctly 
anticipated how this report would be misused by this Committee 
and this Congress, and he went on record on June 23 with a 
letter stating that, ``the current climate in Congress is 
marked by chaos and partisanship. This climate will not result 
in good conservation policy.''
    And that is why he specifically said in his letter, 
``California does not support congressional action on the 
Endangered Species Act and will not be supporting the [WGA] 
resolution.'' He was joined by Washington Governor Inslee, as 
well.
    So, I think it is important to note that this was not a 
consensus among the Western Governors. Some of them correctly 
foresaw the way politics would play out in this Committee and 
in this Congress. And without objection, Mr. Chairman, I would 
like to enter Governor Brown's letter of June 23 into the 
record.
    The  Chairman. Without objection.

    [The information follows:]

Rep. Huffman Submission

                   Governor Edmund G. Brown, Jr.,  
                            Office of the Governor,
                                     Sacramento, California

                                                      June 23, 2017

The Honorable Governor Matt Mead
Idelman Mansion
2323 Carey Ave.
Cheyenne, WY 82002-0010

    Dear Governor Mead:

    I am responding to your letter urging my support in adopting the 
amendment of the Western Governors' Association Policy Resolution 2016-
08. Unfortunately, California does not support Congressional action on 
the Endangered Species Act and will not be supporting the resolution.
    You spearheaded an inclusive thoughtful process. In contrast, the 
current climate in Congress is marked by chaos and partisanship. This 
climate will not result in good conservation policy.

    Thank you again for your leadership on this issue.

            Sincerely,

                                        Edmund G. Brown Jr.

                                 ______
                                 

    Mr.  Huffman. All right. With that, I yield back.
    The  Chairman. When you called him the largest governor, 
are you saying that Governor Brown is fat?
    [Laughter.]
    The  Chairman. Maybe. All right. Mr. Lamborn.
    Mr.  Lamborn. Thank you, Mr. Chairman, and thank you for 
having this important hearing today.
    Mr. Hegar, I have a question for you. In your written 
testimony, you state that, ``Currently, decisions on species 
must be made on the best scientific and commercial data 
available. But often, relatively little is known about the 
population, range, habitat, and needs of these species, 
providing a poor basis for decisions that can have major 
economic consequences.''
    Can you address whether the legislation before us today 
will help improve scientific cooperation and transparency?
    Mr.  Hegar. Yes, thank you for the question. Absolutely. In 
part, because of the three principles that I laid out--one, 
having a meaningful role for state involvement.
    And say, for example, not only looking at Texas Parks and 
Wildlife, which does a lot of work, and we work together 
significantly on issues because we overlap, but you have many 
other state agencies that have knowledge and information--
whether it is the Comptroller's Office, we are looking at 
economic impact; the General Land Office, which has all the 
lands out in west Texas, that oversees those and also our 
beaches; or whether it is Texas Department of Transportation, 
Soil and Water Conservation Board, Texas Commission on 
Environmental Quality.
    My point being, there are multiple state agencies, and all 
of these agencies have information, plus the states have 
connections with the universities that are doing research, the 
stakeholders that are involved, whether it is landowners or 
various industry groups. So, therefore, allowing us to provide 
that information makes better-informed decisions.
    And say, for example, a lot of times the information is 
decades old. So, the best-available data is something that is 
20 years ago, and I don't think we want to use decade-old 
information to make a listing decision, when the states have 
research--say, for example, in Texas--and a lot of data that we 
can provide. I think it is important that the Services take and 
utilize that information to make better-informed decisions.
    Mr.  Lamborn. All right, thank you.
    Mr. Holsinger, I am glad you are here today. I want to ask 
you about the Preble's meadow jumping mouse. And, Mr. Sheehan, 
I hope you are listening.
    Was the listing of the Preble's meadow jumping mouse for 
Colorado, but expressly not for Wyoming--I guess at the border 
between the two states, something happens--was that based on 
sound science?
    Mr.  Holsinger. Thank you, Congressman. It is nice to see 
you. That is a terrific example of the Endangered Species Act 
gone astray.
    The Preble's mouse was listed in 1998 as a sub-species of 
the meadow-jumping mouse. And it turns out that this meadow-
jumping mouse ranges across the greater part of North America, 
the greater part of the continent, all the way up to southeast 
Alaska, so the listing, I think, was very questionable.
    And I also think it is virtually criminal that the Federal 
Government is spending more money on the Preble's mouse than on 
the blue whale. That is something we looked at closely some 
years ago, and it is a wonderful example of how upside-down our 
priorities have become.
    Mr.  Lamborn. Thank you.
    Mr. Hegar, back to you again. Do you believe that the ESA 
process should take into account the economic impacts of 
critical habitat designations when they are doing their listing 
decisions?
    Mr.  Hegar. Yes, I think all economic data and information 
should be taken into account, because I believe that we can 
better manage the resources and the species. And that is why, 
as one example that I laid out over and over in my written 
testimony, as well as the oral, was having all the stakeholders 
involved.
    You can gather all the information that you need, taking in 
what is needed for the species, where are they located, what is 
the habitat, and also taking in the economic considerations, 
because the two are critically linked. And often, the resources 
that we, as individuals, are utilizing are the same resources 
that the species utilize. And making sure that those resources 
are better for everyone is critically important.
    Mr.  Lamborn. Mr. Willms, what happens to state budgets 
when an excessive, in my opinion, an excessive amount of money 
is spent on listings, or mitigating listings, based on a 
possible abuse, when that money could have been used for other 
things that the state has to pay for?
    Mr.  Willms. Certainly. Well, we end up spending a lot of 
money on species that have been recovered for a long period of 
time, and that is money that we could be spending in other 
places, like on our wildlife action plan, to work on non-game 
species, on species of concern for the state of Wyoming that we 
want to prevent the need to see listings of in the future.
    It hamstrings resources in a certain area where it might 
not be necessary.
    Mr.  Lamborn. OK. Thank you. Because my time is running 
out, I am not going to ask my eight-part question. I yield 
back.
    [Laughter.]
    The  Chairman. Thank you.
    Mr. Lowenthal.
    Dr.  Lowenthal. Thank you, Mr. Chairman, and thank our 
witnesses for being here today.
    First, I would like to take a moment to mention an 
endangered species success in my congressional district. Given 
the urban nature of the California 47th Congressional District, 
you might not think that we have any wildlife to worry about, 
but we do. We have the island fox on Catalina Island.
    When the Center for Biological Diversity and the Institute 
for Wildlife Studies petitioned the Fish and Wildlife Service 
in June of 2000 to list the species, there were only 103 of 
these individuals left on the island. After a listing in 2001, 
and a lot of hard work by the Fish and Wildlife Service, the 
Catalina Island Conservancy, and other local partners, the 
population of the Catalina Island fox has rebounded to a 
sustainable population of about 1,700. So, we have gone from 
103 to 1,700.
    The Fish and Wildlife Service recently down-listed the 
Catalina Island fox from endangered to threatened because the 
species has recovered biologically, but there still remains 
threats of disease. Without the Endangered Species Act, I 
believe our Catalina Island fox would most likely be extinct.
    So, for me, the Endangered Species Act is working, despite 
many attempts--and it has been systematic--to undermine it at 
every turn by attempting to exempt development projects from 
meeting Endangered Species Act consultations, from altering 
access to the judicial process, from blocking funding for 
specific recovery projects, and by squeezing both Fish and 
Wildlife and NOAA's budget, in general.
    In spite of all this, I would like to say that 99 percent 
of listed species have not gone extinct. That is an amazing 
record.
    Mr. Corwin, I have a question. One of the bills that we are 
discussing today, H.R. 2603, is opposed by the conservation 
community, as well as the Association of Zoos and Aquariums. 
This is the prestigious organization now led by former Fish and 
Wildlife Service Director Dan Ashe, that sets the gold standard 
for zoos.
    H.R. 2603 is endorsed by the Canned Hunting Operators, 
which is the trophy hunters in which the animal is kept in a 
confined area, the exotic pet industry, and it is also endorsed 
by what I would call a questionable zoo accreditation group 
called the Zoological Association of America. The bill 
eliminates permitting requirements for foreign species which 
are located within the United States.
    Can you explain to me why this bill would exacerbate the 
loss of wild populations of certain imperiled foreign species?
    Mr.  Corwin. Well, it is very important to note that, 
through the AZA, which is one of the most important, robust 
organizations for zoos and aquariums--it is sort of the ivy 
league organization that these groups belong to--they have 
many, many partners, including Federal partners.
    When an endangered species is recovered, it is not done 
alone on an island, it is with both private, state, and Federal 
partners.
    As for keeping species that are internationally recognized 
as endangered, that has to remain constant. And we know, for 
example, just recently in France, in a zoo, a rhino, one of the 
most critically endangered species on the planet, a white 
rhino, was actually poached in a zoo.
    This gathered a tremendous amount of world attention 
because it is critically endangered, and it is internationally 
recognized and protected under CITES. So, we need to apply that 
with wildlife that is in the United States, as well. Endangered 
species from other countries still should be afforded the 
protection here in the United States.
    Dr.  Lowenthal. Thank you. And, Mr. Chair, I still have 49 
seconds, and I yield back.
    The  Chairman. Thank you. I thought the endangered species 
in your district was going to be you, but----
    [Laughter.]
    Dr.  Lowenthal. That is true. We have two endangered 
species, if we listen to the Chair.
    The  Chairman. Mr. Wittman.
    Mr.  Wittman. Thank you, Mr. Chairman. I would like to 
thank our panelists for joining us today. And I want to begin 
by saying that certainly the Endangered Species Act is a very 
important law. It has done a tremendous amount to both recover 
and protect species. No debate about that.
    I think, though, today is about where is the balance in 
this Act? Where are the things that we see happening before us, 
and how can we make sure we better create that balance?
    Mr. Hegar, I want to go to you. You had spoken earlier 
about needing to consider the economic impact of designating 
critical habitat. And we see some of that happening in Virginia 
and along the East Coast, with the listing of the Atlantic 
sturgeon. In the listing of the Atlantic sturgeon now, NOAA is 
looking at designating certain areas as critical habitats. 
Those areas include New York Bight, the Chesapeake Bay, the 
Carolinas, the South Atlantic, including major shipping lanes 
and shipping channels.
    And we all know that, through time, Mother Nature has a 
tendency to fill those channels in. In order to make sure 
commerce can continue in those areas, there is the need to be 
able to dredge. If they are designated as critical habitat, 
that has a significant impact to the economies of states up and 
down this coast, on the Atlantic Coast, as well as the Nation's 
economy, with the ability to move commerce over the waterways, 
which I argue is a more environmentally friendly way to do 
that, rather than thousands of trucks on the road. Yet, we see 
this potential conflict there.
    Could you give me, from your experience, an example of why 
consideration of economic impacts is critical in looking at 
these critical habitat decisions?
    And can you give me an example about how you see 
stakeholders working together to make sure we find reasonable 
places to be on policy, and how we designate that habitat, 
making sure there is a balance in that decision making?
    Mr.  Hegar. Yes. First, I will key off on the stakeholder 
process, and in my written and oral testimony I mentioned that 
when I was a State Senator, I had implemented a process by 
which trying to resolve a 50-year ongoing struggle among all 
the various stakeholders in the Edwards Aquifer with various 
species.
    So, by not only passing legislation, but being very 
actively engaged and help stewarding that process along, where 
everybody was at the table, it was key that everyone was there. 
And we ultimately got to a successful HCP. And now, in this 
job, I have made sure that we keep that open, transparent, and 
everyone is involved.
    And my point is, coming back to your previous question, 
when you mentioned about economic conditions, and you, 
yourself, mentioned one prime example. If you look at things in 
a vacuum, and not the larger scale sometimes, which is the 
economic circumstances, then you are talking about dredging in 
a ship channel, where by now everything has to be by trucks and 
traffic and congestion, you can cause significant other 
environmental issues that can harm many other species when we 
are looking narrowly at one and trying to preserve that one, 
but we are not looking at the bigger picture at times.
    And I use that example when we are talking about the 
research that we are doing, and the significant amount of money 
that the state is putting into studying the 12 mussels in the 
four river basins that my office has authorized over $3 million 
in research by working in all the different basins, and also 
working with Fish and Wildlife, and using, actually, processes 
whereby we are trying to make sure that we can reimplement and 
put back species in areas, to make sure the species is safe, 
but also balancing that economic need of the greater area there 
in Texas, where there is a win-win. And I think those win-wins 
can exist, but we have to look at them in conjunction.
    Mr.  Wittman. Give me your perspective, then, on what you 
think we could do to the current ESA to improve it to better 
include consideration of economic impacts, to make sure 
decisions that are made are made with the full scope of 
considerations, and make sure that, in the long term, we are 
doing the right thing.
    Mr.  Hegar. I think to get to the economic considerations, 
it is absolutely critical. Two of the first things that I 
mentioned in making sure that we have a better process--(1) 
state involvement, because we have a closer connection there to 
the local communities and local areas. Even though Texas is a 
$1.7 trillion economy and the 10th largest in the world, we are 
engaged in all of those areas, me and my sister agencies, to 
make sure that we are working with all the stakeholders.
    And (2), which I think is more critical than anything else, 
is it is data-driven. You have the facts, the data, and the 
information. Say, for example, with the dunes sagebrush lizard 
out in the Permian Basin, the lizard is not in the entire 
Permian Basin. It is in certain areas. Being able to identify 
exactly where is critical one, two, and three habitat, so we 
can protect the lizard, but also enable that economic activity 
that is booming out on the Permian Basin, and which is driving 
not only Texas economy, but a lot of our national economy. The 
two can go in conjunction, and it is very critical that you 
have that data to make the right decisions.
    Mr.  Wittman. Thank you, Mr. Chairman. I yield back.
    Mr.  Tipton [presiding]. The gentleman's time has expired. 
Mr. Clay, you are recognized for your 5 minutes.
    Mr.  Clay. Thank you, Mr. Chairman, and I thank the 
witnesses for being here today.
    Mr. Holsinger, in your testimony, you criticize 
conservation groups for doing the same thing your industry 
clients do all the time: suing the government to represent 
their interests.
    In the case of the conservation groups, however, those 
interests represent millions of Americans, not just a few 
people.
    In February 2017, a GAO report examined an ESA deadline 
suit filed against the Fish and Wildlife Service and the 
National Marine Fisheries Service between 2005 and 2015. It 
found that, aside from helping the Services set schedules for 
completing overdue evaluations, the suits and subsequent 
settlement agreements and court orders did not affect the 
substantive basis of procedural rulemaking requirements the 
Services were to follow, or the substance of any rulemaking 
action to be completed.
    Do you disagree with the findings of this thorough and non-
partisan GAO review?
    Mr.  Holsinger. Thank you, Congressman. I think it is 
important to look not just at the conclusions from the report, 
but at the data from the report. And the data is real clear 
that environmental groups are responsible for 90 percent of all 
the litigation over ESA issues.
    As to how much benefit these thousands of lawsuits have 
been to the agency, I would be happy to defer to Mr. Sheehan. 
But I strongly suspect that this has done nothing but tie our 
agency in knots, and keep them from doing their jobs.
    Mr.  Clay. And I would think it would depend on what the 
overall outcomes of the suits are, too.
    The report also found that across the deadline suits filed 
between 2005 and 2015, 44 different lead plaintiffs 
representing a variety of interests filed suits against the 
Services. These plaintiffs included environmental groups, trade 
associations, local citizen groups, local governments, and 
recreational groups.
    So, while the groups you mentioned in your testimony have 
filed lawsuits, it is important to note they are not the only 
ones. Citizen petitions and suits are critically important to 
wildlife conservation, as they present new science and force 
the Services to take a hard look at species that the public 
feels may need, or may no longer need, ESA protection. So, I 
just make that point.
    Let me go to Mr. Hegar. I find it odd that your agency is 
in charge of state endangered species conservation when your 
website refers to you as Texas' chief financial officer, the 
state's treasurer, check writer, tax collector, procurement 
officer, and revenue estimator. How many biologists do you 
employ?
    Mr.  Hegar. Yes, our job is to go out and contract with the 
public universities, which also then have subcontracts with 
either other universities, that are both public and private, as 
well as private sectors, to make sure that we collect the data.
    Dr. Robert Gulley, who heads up that division--we only have 
six people in the division. However, the fact is they are all 
very well qualified. Our job is to not be the biologist, not to 
be the person on the ground collecting the data, but to ensure 
that the process by which, the data collection, as well as the 
process upon which all stakeholders are involved in the 
process, so we can ensure that Fish and Wildlife or Marine has 
the information that they need to make the appropriate 
decision.
    Mr.  Clay. So, you have more accountants than biologists.
    Mr.  Hegar. You could also say that I run a medium-sized to 
large law firm, with almost 3,000 employees and over 100 
lawyers. We are a jack of all trades. And interestingly, I am 
always telling my former colleagues in the Legislature that--
thank you for this new opportunity to run a new program, but I 
would like to just stick with what we are doing.
    Our office has been an attractant to all kinds of various 
things that are way beyond the constitutional scope of my 
office, this one included. However, we perform the task, and we 
make sure that we do it right.
    Mr.  Clay. It is still important to protect the shorelines 
of Texas----
    Mr.  Hegar. It is important that we protect the economy, 
protect the species, and make sure the data is given to Fish 
and Wildlife to make the right decisions.
    Mr.  Clay. All right.
    Mr.  Hegar. Thank you, Congressman.
    Mr.  Clay. Thank you, and my time is up.
    Mr.  Tipton. I thank the gentleman. I would now like to 
recognize Ms. Cheney for her 5 minutes.
    Ms.  Cheney. Thank you very much, Mr. Chairman, and thank 
you to all of our witnesses for being here today. I think this 
is a crucially important set of issues that we ought to be able 
to discuss, absent sort of the ideology and the partisanship. 
We all share the same desire to make sure that we preserve 
these species that matter so much.
    But we also need to make sure that the existing law is not 
being exploited. I wanted to ask Mr. Willms, if you could speak 
a little bit more toward this notion of the really unique, 
bipartisan effort that you have headed up, that Governor Mead 
headed up, that we have undertaken to try to reform the ESA in 
a way that is real, in a way that makes sure it is there to 
preserve species for future generations, but that also helps to 
protect it from some of the exploitation and abuses that we 
have seen.
    Mr.  Willms. Certainly. Thank you. First of all, I would 
say that the Western Governors Association, the Species 
Conservation and Endangered Species Act initiative had two 
phases. The first phase finished with a resolution in the 
summer of 2016 that passed unanimously. And I think it is worth 
noting that it passed unanimously, and it laid out a series of 
recommendations----
    Ms.  Cheney. Was that even California, Mr. Willms?
    Mr.  Willms. Yes, yes. It laid out a series of 
recommendations for ways to improve the Endangered Species Act.
    Over the course of this second year, we brought in 
stakeholders from every possible sector you could imagine from 
all over the country, to have the most complete, bipartisan 
dialogue on the Endangered Species Act that we have probably 
seen in a generation to generate the most specific 
recommendations that the governors have adopted, perhaps, ever 
through this organization.
    It is true that those recommendations were not adopted 
unanimously, although it was through a super-majority. But the 
reasons for not adopting unanimously, based on what I have 
seen, were not necessarily based on disagreement with the 
recommendations in the resolutions themselves, but a fear about 
the outcome once those recommendations get to this body. So, 
that is----
    Ms.  Cheney. Thank you. Could you talk a little bit, as 
well, Mr. Willms, about why it might be--one of the issues that 
we deal with, as we are looking both at this reform and in 
other areas, is how states are so different. And what Wyoming 
might need to do, in terms of managing our species, may be 
completely different from what other states need to do.
    Talk a little bit about why a state might be better 
positioned to make those decisions and determinations, rather 
than basically being subject to sort of a one-size-fits-all 
approach coming out of Washington, DC.
    Mr.  Willms. At a very fundamental level, I think it comes 
down to a matter of trust. Right? At the local level, at the 
state level, the trust that you have to build with the 
stakeholders that are necessary to recover species or prevent 
the need to list species are largely landowners. There are 
other stakeholders involved as well.
    But it is the state agencies and the state personnel that 
have the trust and the relationship with those landowners that 
are able to put programs in place, voluntary conservation 
programs that can be unique and creative to a set of 
circumstances on the ground that they know best and they can 
fit conservation around the needs of their own people. And it 
is the people on the ground that know each other better.
    Ms.  Cheney. And is there a difference, Mr. Willms, in the 
way that the state, for example, might use data than in terms 
of what we are seeing at the Federal level?
    Mr.  Willms. Can I have you----
    Ms.  Cheney. In terms of the type of data that the state is 
relying upon, in terms of the caliber of the data, the quality 
of the data, the transparency.
    Mr.  Willms. States are on the ground doing on-the-ground 
research every day. We have a wildlife agency that--a lot of 
people are under the misconception that our state game and fish 
agencies are only hook-and-bullet agencies, just agencies meant 
to manage species that are hunted and fished. But it goes well 
beyond that. We have wildlife action plans to manage species 
that go well beyond the hook-and-bullet species. And we have 
data that nobody else in the world has on these species. We are 
very well situated to be able to put together management plans 
and conservation strategies for a whole host of species, 
whether listed or not, to ensure that they are there for future 
generations.
    And we have been successful. We only have 12 listed species 
in the state of Wyoming, and only 3 of those 12 are located 
wholly within the state. I would say that is a pretty good 
track record.
    Ms.  Cheney. Thank you very much. And again, I would just 
like to commend you for your efforts, commend Governor Mead for 
his efforts on these issues, and urge us to be able to move 
forward with true reform, absent some of the partisanship that 
we have seen in this hearing, even this morning.
    Thank you very much. I yield back, Mr. Chairman.
    Mr.  Gohmert [presiding]. Thank you. At this time the Chair 
recognizes the gentleman from Colorado, Mr. Tipton, for 5 
minutes.
    Mr.  Tipton. Thank you, Mr. Chairman, and I appreciate the 
panel taking time to be able to be here.
    Mr. Holsinger, I would like to direct my first question to 
you. I thought it was interesting, reading your written 
testimony, when you were citing the Gunnison sage-grouse--the 
majority of habitat, which, by the way, happens to be in my 
district in Colorado. Fish and Wildlife Service has listed the 
Gunnison sage-grouse. You note in your testimony that they did 
this despite rising population numbers, rangewide conservation 
plans, local working groups and conservation plans. And, the 
state of Colorado has noted and estimated, $50 million in 
conservation efforts to be able to achieve rehabilitation of 
that species.
    Do you find this is going to be kind of a chilling effect 
when you see that type of local effort, that type of local 
investment, that type of local planning going into actually 
achieve the goal that we all admire in the ESA toward a 
species--is that going to create a chilling effect on local 
involvement, do you believe?
    Mr.  Holsinger. Absolutely, Congressman. That was a 
terrible shock, and a slap in the face to years and years of 
hard work, cooperation from the local governments, local 
landowners, the state, doing tremendously good things for 
Gunnison sage-grouse.
    And I think it is good to remember that the majority of 
habitat for rare species is either created or maintained by 
private land ownership and private landowners and their 
stewardship. This is a great example of no good deed goes 
unpunished. Many, many people were extremely unhappy at that 
decision. I think that is why the state of Colorado sued the 
Fish and Wildlife Service, local governments sued, as well. We 
hope there will be a better outcome.
    Mr.  Tipton. I found it interesting, going through our 
district, Garfield County, Glenwood Springs had spent an 
incredible amount of money to be able to do scientific mapping 
for the habitat for that species. That was ignored.
    In fact, reading through a lot of the testimony and some 
background information, the BLM's own people on the ground in 
the state of Colorado, their staff, utilizing geographically 
unique circumstances and data, those were discarded simply by 
Washington bureaucrats, as well.
    I would like to be able to enter, Mr. Chairman, into the 
record a letter from the Association of Northwest Governments 
out of Colorado regarding the issues, a letter that they sent 
to Secretary Zinke that is detailing the concerns that they 
have with regards to the Gunnison sage-grouse Secretarial Order 
3353.
    Mr.  Gohmert. Without objection.
    Mr.  Tipton. Thank you, sir.
    Mr. Holsinger, you work, obviously, a lot with the 
Associated Council, the Northwest Council of Governments in 
Colorado. Can you briefly describe and elaborate maybe a little 
more on the concerns that they have expressed in that letter?
    Mr.  Holsinger. You bet, Congressman. We have heard today a 
recurrent theme that the Federal Government has historically 
treated the states and local governments not as partners or 
neighbors, but as landlords. That desperately needs to change, 
and I was heartened to hear Mr. Sheehan speak to that.
    In this case, the local governments had tremendous local 
knowledge about greater sage-grouse. Garfield County's terrain 
is vastly different than almost anywhere else in greater sage-
grouse range. It is very varied, very hilly. So, the Federal 
Government just ignored all this great local data about ``here 
is what we actually have on the ground,'' and instead, 
blanketed great swaths of the county as greater sage-grouse 
habitat when it should not have been.
    So, many local governments have been very upset at the lack 
of participation.
    Mr.  Tipton. Now, quickly, do you believe there is 
transparency in the way listing decisions are made under the 
Endangered Species Act?
    Mr.  Holsinger. I think transparency is a huge problem. In 
fact, often these decisions rely on the USGS, the science arm 
of the Department of the Interior. We found them to be the most 
secretive of agencies. Their guidelines actually say that they 
believe their information is too important for the public to 
have access to it. So, we have real problems with transparency.
    Mr.  Tipton. I appreciate that and believe that if we are 
going to be making public policy, it ought to be publicly 
available, as well. I appreciate your comments.
    And with that, Mr. Chairman, I yield back.
    Mr.  Gohmert. The gentleman yields. I recognize the 
gentleman from Virginia, Mr. Beyer, for 5 minutes.
    Mr.  Beyer. Thank you, Mr. Chairman, very much.
    Mr. Holsinger, a quick followup. I think we will probably 
do this formally, but let me get a question to you about where 
in their guidelines it says it is too important to be shared 
with the public. I mean this is fascinating, and should be part 
of the record.
    Mr.  Holsinger. Yes, Congressman. That is actually in the 
USGS Information Quality Act guidelines. And when you read 
those guidelines against the Department of the Interior 
Guidelines and Policies on Scientific Integrity and 
Transparency, and the Information Quality Act itself, it is a 
huge chasm.
    Mr.  Beyer. Great, thank you for bringing that to our 
attention.
    Mr. Sheehan, congratulations on your acting status, I 
think.
    We have had the debate, for the measly 31 months I have 
been here, about the de-listing of wolves--Wyoming and the 
Western Lake states, specifically. So, if this legislation is 
successful, and the original Fish and Wildlife Service de-
listing process goes forward, and there is no judicial review, 
how long before the wolves are endangered again? If you can 
again hunt them and I know they are not particularly popular 
with the hunters and the ranchers.
    Mr.  Sheehan. Well, I think, as we look back at that, there 
is this, oftentimes, misbelief that states don't try to do good 
management conservation of all the species in their states. And 
I guess, coming as from a prior State Director, we did not 
agree with that. We believed that we could manage the species 
in our state.
    If you look to a congressional action that was done a 
number of years ago on de-listing wolves in Idaho and Montana, 
primarily, that was not subject to judicial review. I think 
that there would have been an outcry that soon these wolves in 
these two states that were no longer listed would soon be 
eradicated or back into a threatened condition.
    From the last data I have seen, and I think it is still 
pretty current and accurate, those populations of wolves in 
those states that were congressionally de-listed are still very 
similar to what they were 5 or 6 years ago, when that action 
was taken by Congress.
    So, I am not a believer that those are going to be de-
listed and suddenly eradicated off the face of the Earth. And 
part of the de-listing decision, it is important to realize, is 
that mechanisms must be in place by states before that de-
listing to protect those.
    Mr.  Beyer. Mr. Corwin, one of your criticisms of this 
piece of legislation was that it denies citizens access to the 
courts to challenge the Fish and Wildlife Service decision.
    Mr.  Corwin. Absolutely--the greatest opportunities for 
environmental stewardship. And when one has a chance to step up 
and speak out for a resource to be wisely managed, that 
individual has a duty, and we need to have a responsibility to 
provide them a voice and a proper environment to share their 
opinions.
    As for the wolves, while they are very polarizing, we know 
for a fact that the restoration of wolves in the Greater 
Yellowstone ecosystem brought about a tremendous sense of 
balance. Prior to the wolves, after they were extirpated since 
the end of the 19th century, there was one pair of beaver in 
the entire Yellowstone National Park. With the recovery of the 
wolves, it brought management of game to carrying capacity. 
Beavers came back, because they had access to willow. That 
willow then created waterways and aqua systems that caused an 
increase in amphibians.
    So, we can see how the restoration of endangered species 
can have a ripple effect as it plays its role as a keystone 
species.
    Mr.  Beyer. All right, thank you.
    Mr. Sheehan, this may have already been asked, but in 
Congressman Newhouse's bill on saving America's endangered 
species--or maybe the one before, H.R. 1274--he talks about 
automatically defining data submitted by states, tribes, and 
counties as scientifically--the exact language--best available 
science, and that Fish and Wildlife Service would have a 
problem with that.
    Will you recommend amending that to fix it so that the data 
can be submitted, but would be treated as data with comparable 
scientific integrity?
    Mr.  Sheehan. I think we would like an opportunity to work 
with the bill's sponsor on that, and make sure that that data 
is elevated and evaluated in a proper form and fashion, as you 
have suggested, Mr. Congressman. And, hopefully, we can work on 
that bill as it works its way through, so that we work out any 
bugs that may be in there.
    Mr.  Beyer. Thank you very much.
    Mr. Chair, I yield back.
    Mr.  Gohmert. Thank you. At this time the Chair recognizes 
the gentleman from Arizona, Dr. Gosar, for 5 minutes.
    Dr.  Gosar. Thank you, Mr. Chairman.
    Mr. Corwin, the Defenders of Wildlife is a particularly 
litigious special interest activist group. Just in the past few 
years, the Defenders have boasted of filing scores of species-
related lawsuits. Meanwhile, during the Obama administration, 
Defenders received about 10 grants from the Department of the 
Interior, totaling more than $150,000.
    Mr. Corwin, yes or no, are you here today as a 
representative of the Defenders of Wildlife?
    Mr.  Corwin. No, I am not.
    Dr.  Gosar. Mr. Corwin, yes or no again, the Director of 
Legislative Affairs for the Defenders of Wildlife directly 
submitted your written testimony to the Committee on your 
behalf. Did you author your own testimony for today's hearing?
    Mr.  Corwin. Absolutely.
    Dr.  Gosar. Mr. Corwin, neither the lengthy biography or 
disclosure form that you provided to the Committee indicate any 
type of affiliation with Defenders of Wildlife. What is your 
affiliation with the Defenders of Wildlife? Are you a member of 
their Board of Directors?
    Mr.  Corwin. I am not a member of the Board of Directors. I 
was before, but I have not been a member of the Board of 
Directors for some time.
    Dr.  Gosar. Is there a reason why you are no longer a board 
member?
    Mr.  Corwin. Because my term limit came to an end.
    Dr.  Gosar. Thank you.
    Mr. Sheehan, I wanted to talk to you about some of the 
inadequacies, particularly of one species where it has gone 
astray, and that is the Mexican gray wolf. You knew where I was 
going.
    Once again, under ESA we are actually looking at taking 
non-typical habitat and providing a habitat, particularly in 
Colorado and Utah, which wolves were never a part of. And Fish 
and Wildlife Services have actually looked at exploiting that, 
have they not?
    Mr.  Sheehan. Certainly a couple years back, and I will 
have to put on my past State Director hat, because as a 
director of Utah, we certainly engaged in conversations with 
leadership of the Fish and Wildlife Service about how they may 
view an expansion of habitat into Utah and Colorado.
    I will say, to the credit of the Fish and Wildlife Service, 
they were willing to come together with our states and our 
wildlife managers and re-evaluate some of the modeling that had 
been in place and scientific evaluations. We brought all of our 
best scientists together.
    And a new draft recovery plan came out just a few weeks ago 
that defines a recovery zone more into the area of the country 
of Mexico, rather than back north of Interstate 40, where we 
don't believe--or I did not, as a State Director in our state, 
and the Colorado State did not believe that that was historic 
habitat.
    Dr.  Gosar. But that was only after dismal failure, because 
the recovery plan was, at best, up to that point, a basic 
malpractice case. We saw an anemic recovery plan. We saw truly 
a process that did not actually work. And it actually shows 
that we need to have a better relationship, geospatially, with 
Mexico in that application.
    For Mr. Willms and Mr. Holsinger, we are now hearing about 
the sixth massive die-off. And the way that we are approaching 
the endangered species, wholesalely, does not work. You made, 
particularly, innuendos in regards to working with local 
communities, and particularly landowners. I want you to, if you 
have any extra ideas that you need more time to expand on 
besides what you gave to Ms. Cheney and to Mr. Tipton.
    I will start with you, Mr. Willms.
    Mr.  Willms. As far as better places for state engagement?
    Dr.  Gosar. Yes, absolutely.
    Mr.  Willms. I think we identified a few places in the 
Western Governors Association resolution. One of the places 
under Section 6 of the Endangered Species Act, there is a 
provision that calls for cooperating with states to the maximum 
extent practicable. What maximum extent practicable means is 
defined differently by every region of the Fish and Wildlife 
Service, and it can be as much as a phone call to working very 
cooperatively with states.
    So, I think a better understanding of what that means, and 
creating more opportunities for states to implement portions of 
the Act through that provision of the Act would be incredibly 
helpful.
    Dr.  Gosar. And wouldn't you agree that if a constituent 
actually gets to share and enjoy it, they actually have 
tentacles to provide and preserve?
    Mr.  Willms. Absolutely. One of the things we have been 
looking at is how do we go from having the Endangered Species 
Act being viewed as a hammer by the landowner community to one 
that is incentivizing involvement in conservation.
    Dr.  Gosar. Well, I appreciate it. I only have 10 seconds 
left, so let that come for another time. Thank you.
    Mr.  Gohmert. Thank you. The Chair yields to the gentleman 
from California, Mr. LaMalfa, for 5 minutes.
    Mr.  LaMalfa. Thanks, Mr. Chairman. A couple things here. 
In 2016, we had issues come to Northern California on water 
demands, water needs. And I will direct this to Mr. Sheehan.
    The need for--there were conflicting issues with the water 
up in Shasta Dam in Northern California. National Marine 
Fisheries Service wanted to reduce releases from Shasta to 
preserve salmon by keeping more cold water, keeping it longer 
into the year. At the same time, the Fish and Wildlife Service 
wanted to have increased flows going out the delta for smelt.
    So, they are completely conflicting in what the use of the 
water is supposed to be, coming out of that lake, even to the 
extent that they were not going to guarantee that farmers could 
get crop water in the spring because of a strategy to hold more 
cold water in behind Shasta until there was so much water in 
the lake that they figured they could get away with allowing 
farmers to farm.
    What I would ask from Mr. Sheehan, has the current 
administration taken a position on this issue of consolidation, 
or what steps can the Service take to improve the 
coordination--and that is the important part--and the decision 
making of agencies before executing plans that are counter to 
each other, and totally confusing for people that are on the 
sidelines trying to sort out what it is they should be doing 
for water supply issues they would have that are dependent on 
that water source?
    So, where you have Fish and Wildlife and Marine Fisheries 
in complete conflict, and the people caught in between, what 
has the Administration done to look at that?
    Mr.  Sheehan. Thank you, Mr. Congressman. That is an issue 
we need to rapidly engage discussion on with Marine Fisheries 
and Fish and Wildlife Service.
    You said the word exactly correctly. How do we coordinate 
that? How do we define what the proper balance of conservation 
is?
    I think that sometimes we see it as sort of these conflicts 
between the Federal agencies. All I could tell you is I worked 
on sage-grouse. In recent years, we saw--trying to work on 
landscape conservation efforts for these species. The rule book 
that we ran into with the Bureau of Land Management looked a 
little bit different than the rule book of what the Forest 
Service had for birds that shared the exact same habitat during 
the same----
    Mr.  LaMalfa. Well, you talk about the need to do so. Is 
there anything underway to review that and get an action going 
on that, we had plenty of water this year, and it kind of 
covered over a possible issue with that. But, if we don't get 
the type of rainfall, we don't have as full of a lake or 
system, then we could be caught right back in this again and 
again.
    With conflicting agencies that are supposed to work for the 
people, and they cannot decide, and people are caught in 
between, it is like, ``Go ask your father, go ask your 
mother,'' for some kid trying to decide what they want to do, 
only this is real life.
    Mr.  Sheehan. Sure. I guess all I could say at this point 
is I am pretty new coming into this role, and it is something 
that I really need to get on top of. I appreciate that 
feedback, and we would be glad to come back and report what we 
are learning right to you and your staff, if that would be 
helpful.
    Mr.  LaMalfa. Please. I would like that. Thank you. We will 
give you a shot at getting a good look at that.
    For Mr. Holsinger, we have had legislation by Mr. Huizenga, 
which was presented earlier, I understand. I had three 
committees this morning, I am sorry. I am co-sponsor of that 
and it will help with the end of the practice of groups suing 
the Federal Government as a business plan.
    So, would this actually help improve the ability of the 
Service to fulfill its mandates, in addition to just having a 
little litigation relief, where people are actually making a 
living at that? Would it be able to, instead, focus on what the 
mission is of fulfilling ESA and the Service's needs, instead 
of maybe frivolous lawsuits?
    Mr.  Holsinger. Yes, Congressman, I believe so. The Service 
has to spend an inordinate amount of time dealing with these 
deadline lawsuits. The budget issues, the attorney fees 
collected at the end of the day are a tremendous drain. This 
legislation would, I think, remove one of the worst incentives 
for that very kind of litigation.
    Mr.  LaMalfa. It is merely aligning it with the type of 
reimbursements paid on other types of litigation outside of 
this realm, right?
    Mr.  Holsinger. Yes. In addition to more flexibility on the 
deadlines to the Service, it would point to existing Federal 
law in regards to how attorney's fees are recovered.
    Mr.  LaMalfa. Yes, thank you. My time has expired. Thank 
you, Mr. Chairman.
    Mr.  Gohmert. Thank you. At this time the Chair recognizes 
the gentleman from Louisiana, Mr. Johnson.
    Mr.  Johnson. Thank you, Mr. Chairman. And I am echoing 
what has been said here. We are grateful for all of you for 
your time and your expertise today. I apologize in advance for 
any duplication in the questions. We are all bouncing in and 
out for other meetings and things today. You know how it works.
    Mr. Sheehan, a couple questions for you. A Government 
Accountability Office report on the deadline suits we have 
talked about a lot today--by the way, the report was 
commissioned by Ranking Member Grijalva--they found that the 
Service prioritizes the completion of listing actions mandated 
by closed-door settlement agreements resulting from the 
lawsuits, and that during Fiscal Years 2005 to 2015, the 
Service largely focused its Section 4 activities on completing 
actions required by those legal cases. And the 2011 mega-
settlement played a major role in the agenda.
    So, here is the question. If the Fish and Wildlife Service 
misses a deadline to make a determination on a listing or a de-
listing petition, they don't really have much of a defense when 
they are sued. Isn't that correct?
    Mr.  Sheehan. That is true. We are very limited and we 
have, obviously, limited resources to address every species 
that may come through the front door as a petition.
    Mr.  Johnson. In that regard, the agency is almost like a 
sitting duck for these legal attacks. That is what I will say. 
They are used as an offensive weapon.
    Mr.  Sheehan. Yes, and I don't mean to imply that we won't 
devote resources to those species. But hitting 90-day and 12-
month findings can be very challenging at times, and I think 
that has been demonstrated for quite a number of years now.
    Mr.  Johnson. The study also concluded that compliance with 
the mega-settlement agreement in 2011 that was pushed by these 
environmental groups swallowed nearly all of the petition and 
budget resources for that activity. Isn't that right?
    Mr.  Sheehan. I wasn't here during that time, but I could 
tell you that certainly that changed the focus on how and when 
the Service had to address priorities through this process.
    Mr.  Johnson. Let me ask you about an issue that is very 
perplexing in my state of Louisiana. Our Committee staff here 
met with your southeast regional staff last month to get an 
update on the Louisiana pine snake. And in that meeting, the 
Service's staff indicated that the region has been overwhelmed 
in its efforts to appropriately manage hundreds of species from 
the mega-settlement agreement.
    In your written testimony you said, ``The time and cost of 
litigation is one of the significant challenges we face in 
implementing the ESA.'' How did the mega-settlements impact 
implementing the ESA, both at the headquarters level and then 
in the regions themselves?
    Mr.  Sheehan. Thank you, Congressman. I am really still 
trying to learn, quite honestly, how much of our resources 
through our ecological service team--the folks that are out 
there, doing that--are providing data and addressing litigation 
that might be out there, not just on these timelines, but on 
other litigation that may exist, versus what our folks are able 
to do out in the field to affect good conservation.
    I come from a background where we try to do collaborative 
conservation. I think that is key, working with communities and 
partners, landowners. We have heard a lot of that today, but it 
is so true.
    I would hope we could get to an environment where we have 
more partnership arrangements, rather than litigation 
arrangements, because there is only ever going to be so many 
resources to go around in this agency or any other government 
agency. I hope we can do the best that we can with those, 
rather than tying up too much of that in litigation.
    Mr.  Johnson. Well, the Louisiana pine snake is a case 
study in absurdity. It has only been seen, like, five times 
since 1940, and it supposedly lives several feet underground. 
Yet, we have taken tens of thousands of forestry acres out of 
commerce for a snake that no one likes and is rarely ever seen.
    Let me go on. Mr. Holsinger, you were talking about the 
1,500 lawsuits that your study found since 1990--I believe that 
is right. As a former public interest law litigator, I am 
particularly concerned about the exorbitant attorney fee rates 
we have talked about for these environmental litigators. 
Wouldn't you agree that environmental law is no longer a rare 
or specialized field to the point that it justifies these 
higher attorney fee awards and hourly rates?
    Mr.  Holsinger. Yes, it is quite an extensive field these 
days, unfortunately.
    Mr.  Johnson. I remember when I was in law school 20 years 
ago and we started our environmental law clinic. It was this 
newfangled thing. Everybody was excited about it. Now every law 
school in the country, virtually, has one of those. Isn't that 
right?
    Mr.  Holsinger. It is quite prevalent.
    Mr.  Johnson. We used to charge no more than about $250 an 
hour for public interest law work, and these guys are getting 
close to $800 an hour. And it just does not seem justified any 
longer.
    I hope this legislation will correct a lot of these 
problems. I am out of time, but again, I agree and thank all of 
you for your time and expertise today.
    Mr.  Gohmert. Thank you. The gentleman from California, Mr. 
Costa, is recognized for 5 minutes.
    Mr.  Costa. Thank you very much, Mr. Chairman and Mr. 
Ranking Member, for holding this, I think, important hearing.
    I am not going to ask any questions to the witnesses as it 
relates to the need, I believe, to amend and make modifications 
in the Endangered Species Act since it was put into law in 
1973, but I would like to make a statement.
    Over the 13-plus years now that I have been in Congress, I 
have raised a number of concerns pertaining to how the 
Endangered Species Act is implemented, and how its 
implementation impacts not only the entire country, but what I 
am most familiar with in California and in the San Joaquin 
Valley.
    Many of the bills here today address concerns that I have 
raised in the past with regards to the ESA. For example, two of 
the pieces of legislation discussion are addressed with the 
notion of using sound science. I have long said that there is 
an entire body of scientific knowledge that should be 
considered in order to ensure that regulations and limitations 
on economic activity under the ESA are appropriate, fair, and 
increase the recovery of those listed species.
    As we know, the evolution of science continues to increase. 
We are better at it. We have more knowledge than we had in 1973 
and over the last four to five-plus decades.
    Another piece of legislation addresses non-native species. 
We have had to contend with non-native species issues in 
California for years. Let me give you an example. I have 
introduced and gotten legislation passed that would explore the 
impacts of striped bass predation on listed species, native 
species in California, salmon and delta smelt, to begin to 
address these by implementing programs that, in fact, remove 
these non-native species that were introduced into California 
waters in, I believe, 1876. And we know that hot spots in 
certain waterways create vast impacts of predation, but yet we 
don't contend to deal with that.
    However, if we believe that ESA policy uses sound science, 
that we know continues to increase and become more effective, 
we also need to have regular consultation with affected 
stakeholders. These principles must guide our response, whether 
we like the outcomes or not.
    More importantly, we must move past the talking points to 
get to constructive solutions that modernize the Endangered 
Species Act to address all the impacts that are sure to come, 
impacts on ecosystems. We know today, climate change makes a 
big difference, and we acknowledge the impacts of climate 
change as it relates to the implementation of the ESA, but not 
always evenhandedly or fairly.
    The Act must reform to accommodate some of these changes 
and develop the new science that continues to increase at a 
phenomenal rate. Provide flexibility in the Act, that is 
important. Obviously, the best way to avoid lands being 
regulated under ESA is to put policies in place to avoid the 
listing of species. Habitat conservation plans work well.
    So, there are a lot of things that we need to do. We know 
dinosaurs, of course, don't exist any more. And ecosystems that 
continue to change will endanger more species over time. But 
the fact is that, under the current policy, expansive critical 
habitat designations for some species with significant native 
consequences of economic development activities will need to be 
developed, or that the critical habitat designation under the 
process of the Act's regulations must be modified to be more 
adaptive. These are among many of the things that we need to 
do.
    Additionally, the Act regulations must allow for reasonable 
and prudent alternatives to be modified in new science brought 
to bear to understand these complexities and these changes. 
There is no simple answer to these challenges, but the truth is 
that the only path toward Republicans and Democrats coming 
together in this Committee to stop the political posturing, 
that too often is what we do in this Committee, to various 
special interest groups--and, in fact, we need to come together 
to have an honest discussion to address the needs of our 
communities in a thoughtful, constructive way that I think will 
allow us to move forward.
    Thankfully, in the absence of congressional action, 
governors across the West are having significant discussions on 
ways to reform the Endangered Species Act and to implement 
policies to avoid--to avoid--listing decisions.
    I appreciate my colleagues raising these issues. These 
pieces of legislation are important. I remain committed to 
finding common-sense solutions to actually move this forward in 
a real bipartisan action, and hopefully to put aside the 
political posturing that too often is how we characterize this 
discussion.
    Thank you, and I yield back the balance of my time.
    Mr.  Gohmert. Thank you. At this time the Chair recognizes 
the gentleman who replaced the current Secretary of the 
Interior from Montana, Mr. Gianforte.
    Mr.  Gianforte. Thank you, Mr. Chairman and Ranking Member 
Grijalva. And thank you to the Committee. I will add my thanks 
for your testimony today. I appreciate this conversation.
    I will direct my comments to Mr. Sheehan. The rules de-
listing the wolves were, as you mentioned in your testimony, 
based on the best-available science, were consistent with the 
requirements of the ESA, reflected extensive work with states, 
and a deliberative public comment process.
    I recently had the chance to go into the field in Montana 
with the Interagency Grizzly Bear Study Team, and learned about 
their habitat and the recovery that has gone on. That work had 
gone on for, as you are well aware, 40 years, collecting data 
on the grizzly bear. Their data analysis and scientific 
research has been central to the recovery of the grizzly bear 
population in the Yellowstone ecosystem, and the recent de-
listing was a win for the grizzly bear and for Montana.
    I also learned, while I was on the ground there, that in 
fact, the grizzly bear population in the Yellowstone ecosystem 
had reached maximum carrying capacity of the habitat 15 years 
ago. And, despite scientific evidence of their recovery, some 
groups believe it should continue to be listed as an endangered 
species in perpetuity. I was pleased to see in your testimony 
that you do not share the belief of several environmental 
groups, that species should be listed indefinitely.
    My questions really focus on the work of the U.S. Fish and 
Wildlife. In particular, what is the process for determining 
recovery goals for a given species on the list?
    Mr.  Sheehan. Well, it gets back to what we have talked 
about a number of times today, first of all, good science. What 
are those critical habitats? What are the measures that need to 
be evaluated that are in place?
    As they are listed--as I said, what do we need to do to get 
them out of the hospital as quick as we can? And I think that 
diagnosis--again, define your recovery plans, define those 
critical habitats, and the needs of that species, what are the 
functions that got them to that point in the first place? So, I 
think that there have been excellent efforts by the states and 
by many partners.
    You mentioned that interagency work group to do that. As we 
go through that, typically a recovery plan is going to lay out 
some timelines, some costs, some efforts that need to be 
undertaken. I think that is pretty systematic. I think where it 
gets gray is once we achieve the recovery, then what? And that 
is why I hope we would move forward for de-listing.
    Mr.  Gianforte. Yes, so science is at the heart of making 
the decision in the listing.
    Mr.  Sheehan. Absolutely.
    Mr.  Gianforte. But let me drill into that a little bit on 
the recovery goals. What is the process that the Service uses 
to determine when you have met those goals?
    Mr.  Sheehan. Well, again, normally some of those are very, 
very definitive. They could be population numbers, they could 
be numbers of acres of land that are protected in some 
permanent fashion. Any one of those recovery goals, depending 
on what the species is, is going to have a very different set. 
But they are going to be a consensus of the Fish and Wildlife 
Service, typically of states, typically of those who are 
engaged in that process.
    And again, dependent on if that is a fish species in 
Florida or a grizzly bear in Montana, this could be very 
different. But I think that the process of evaluating the needs 
of that species come first and foremost.
    Mr.  Gianforte. OK. And when a species is listed, are those 
definitive recovery goals always established when the species 
is put on the list?
    Mr.  Sheehan. No. Many species do not have recovery plans 
in place right now. That would be something that I would like 
to see the Service work toward.
    Mr.  Gianforte. Yes. It is kind of hard to hit a target 
when you don't have a----
    Mr.  Sheehan. Yes. I believe about a third of the species 
listed on the ESA do not have a recovery plan in place.
    Mr.  Gianforte. OK. Has the Service determined 
scientifically that the gray wolves have recovered in Wyoming 
and the Western Great Lakes?
    Mr.  Sheehan. Yes, Congressman. That was done in two 
different reports at two different times, or two different 
determinations, that all those factors have been met. The 
populations have been achieved that the regulatory mechanisms 
that exist in those states to protect those as a listed--
whereas now it would be a non-listed species--are sufficient to 
meet that bar to turn those over.
    That is a great accomplishment, and I think when we see 
those sorts of successes--be it wolves, be it grizzly bears, 
and any number of other species--we need to celebrate that. We 
need to turn that back over and say that is how the Endangered 
Species Act is showing success, not assuming that once we 
extract that species out of state management into Federal 
management, that once and for all it will live there forever.
    Mr.  Gianforte. OK. Thank you very much. I yield back, Mr. 
Chairman.
    Mr.  Gohmert. Thank you. At this time, the Chair welcomes 
back to the Committee, temporarily, the gentleman from 
Colorado, Mr. Polis, for 5 minutes.
    Mr.  Polis. Thank you, Mr. Chairman. I am honored to join 
the Committee today. As a previous member of the Committee, I 
was very interested in joining this conversation, and continue 
to be, about the importance of the Endangered Species Act.
    As you know, since 1973 the Endangered Species Act has 
rescued dozens of species from extinction, helped more than 
2,000 threatened species throughout the country. And those 
protections are critical to maintaining the diversity and 
functionality of our ecosystems.
    I represent a state and district where over 60 percent of 
the land is public land, and our wildlife is, frankly, the 
building block of our economy and jobs. And without the 
Endangered Species Act, my district and our state's economy 
would suffer severe damage.
    Mr. Corwin, I understand you discussed the black-footed 
ferrets during your statement. The ferrets are a great example 
of how the Endangered Species Act has been successful. In my 
own district in Colorado, we had a history-making day in 2014, 
thanks to the Endangered Species Act. In 2014, about 25 miles 
north of Fort Collins in my district, right near the Wyoming 
border, the black-footed ferret was released back into its 
native habitat on the Soap Stone Prairie Natural Area.
    As you know, it was twice declared extinct, incorrectly. 
But, because of the Endangered Species Act, between 1985 and 
1987, the species was saved, and the surviving 18 ferrets that 
the U.S. Fish and Wildlife began a breeding program with are 
now on their way to over 3,000 individuals.
    Would you say that, without the Endangered Species Act, Mr. 
Corwin, do you think states like Colorado would have 
successfully brought back black-footed ferrets into the wild? 
And what challenges still exist?
    Mr.  Corwin. Well, it is interesting. I remember filming 
the black-footed ferret almost 20 years ago, and it was not 
doing well. But one of the critical partners in the restoration 
of the black-footed ferret was the Denver Zoo. And the state of 
Colorado is a huge partner. I believe states are partners with 
the Federal Government in managing the species.
    But we know for a fact, when they are restored, there is 
great benefit. Look at the state of Florida. The recovery of 
the critically endangered alligator. We now know that this is a 
keystone species. And with the recovery of this species, we see 
healthier waterways, we see good prey abundance for predators. 
So, there is a tremendous benefit to the restoration of these 
species, both an aesthetic, recreational, and economic benefit. 
And I think both the state and Federal folks served as partners 
together.
    Mr.  Polis. Mr. Willms, moving on to that example of states 
working together, our states of Wyoming and Colorado have 
worked to protect the sage-grouse habitat, not only important 
for that particular bird, but of course, also for deer, elk, 
recreationalists, hunters, and so many others for whom 
protecting the sage brush ecosystem is such a high priority.
    I see the work done on sage-grouse as a huge success. It 
shows how flexible and accommodating the Endangered Species Act 
already is. I believe most of my Western colleagues agree that 
the last thing Western states and communities need is the BLM, 
a Washington agency, conducting a rushed internal review 
process, and substituting that over the hard work of our 
stakeholders in the states, 11 states and many years of hard 
work.
    My governor in Colorado, Governor Hickenlooper, a Democrat, 
along with Governor Mead of Wyoming, a Republican, have met and 
sent letters to Secretary Zinke about the states' efforts on 
sage-grouse, and have said that the plans do not need to be 
over-ruled by Washington insiders, and do not need significant 
change at this time.
    Can you explain why Wyoming invested so much time and 
effort into sage-grouse conservation, and why do you think 
there is this kind of Washington, DC attempt to overthrow what 
we are trying to do in our states?
    Mr.  Willms. Well, as far as why we invested money in sage-
grouse conservation, it is because it was the right thing to 
do. About 40 percent of all sage-grouse in the world are within 
the state of Wyoming, and we take our job to conserve wildlife 
for today and for future generations as critically important. 
So, we did it because it is the right thing to do.
    Mr.  Polis. Why do you think there is this effort at the 
Interior Department to kind of over-rule, and over-rule what we 
and our states have already done with regard to sage-grouse 
preservation?
    Mr.  Willms. I don't think I can speak to what the 
motivations behind what Interior is looking to do right now. We 
are looking forward to continuing to work closely with them, 
and hope that we can come up with solutions that work for all 
states, so that we can continue. Because right now, sage-grouse 
are still state birds, and we want to make sure we continue----
    Mr.  Polis. And I would like to highlight this success 
story, because in Colorado and Wyoming I think we have shown 
that the Endangered Species Act can encourage a collaborative, 
proactive approach involving not just state governments, but 
local governments, the private sector, and recreationalists. 
And protecting the sage-grouse habitat so that a listing 
wouldn't be necessary is, frankly, a great success story of, 
really, our local efforts coming up with a solution that works 
for our area. And I applaud both Wyoming and Colorado in that 
regard.
    Mr.  Gohmert. The gentleman's time has expired.
    Mr.  Polis. I thank the gentleman for the time, and I yield 
back.
    Mr.  Gohmert. Thank you. At this time the Chair recognizes 
the gentleman from Florida, Mr. Soto, for 5 minutes.
    Mr.  Soto. Thank you, Mr. Chairman. We all know why we are 
here today. In 1973, Congress finally had the vision to pass 
the Endangered Species Act. Before that, for decades, we saw so 
many critical species either go extinct or come to the brink of 
that. And the program has been a smashing success: 99 percent 
success rate.
    I come from Florida, where we have the Florida panther, the 
bald eagle, the Florida manatee, and the alligator, and I just 
want to thank you, Mr. Corwin, for talking about your 
experiences, because I think that gets lost in all this, this 
idea of what obstacles there are for certain businesses, but we 
don't look at the big picture. And I think that is what we 
really have to focus on here.
    Before the passage in 1973, how difficult was it, Mr. 
Corwin, to really protect our species here in the United 
States?
    Mr.  Corwin. Well, we had an incredible evolution in our 
country when it comes to conservation. And, in fact, you can 
look to one of the first creatures to be recognized for 
national conservation. It was the heath hen. It is a great 
example of when we sit back and we think a job is done, that 
you can have calamity.
    The heath hen was recovered and began to appear on the 
heaths of the various islands off the coast of New England. It 
had almost disappeared. The numbers exploded to over 2,000 
animals. They called it the heath hen because everyone would 
gather together and watch them in their little breeding leks. 
There is one very famous one named Booming Ben. A couple of bad 
winters, some feral cats and dogs, and one day there was only 
one heath hen left; it was Booming Ben. Every day he would come 
out, and boom, then one day it was quiet, and that was the end 
of the heath hen.
    So, I think it is incredibly important that we recognize 
the value of this policy, and also recognize that, 
historically, the ESA was not politically based. Remember, it 
was produced in an administration that had tremendous 
challenges. And if it wasn't for Richard Nixon and his 
policies, we would not have bald eagles today.
    I think what is unique about Americans is we recognize the 
value of our natural resources, we celebrate the value of 
natural resources going back to Teddy Roosevelt, John Muir, 
through the work of Rachel Carson. And today we, as Americans, 
are unique. We have such a splendid tableau of valuable species 
and landscapes, and it can only stay through wise, pragmatic, 
common-sense management. I believe the ESA is a big partner in 
that.
    Mr.  Soto. Sure. And we see a bevy of proposed bills today 
with the over-arching theme of potentially whittling away at 
the Endangered Species Act. What would be your recommended 
reforms? Is the system working? Are there things that we can 
improve upon it?
    Mr.  Corwin. I think there are many successes and many 
challenges with the Endangered Species Act. And there is always 
room for improvement.
    I do believe there is an incredible innate natural 
partnership that exists between the Federal Government and 
state agencies. And, in fact, as has been said here, many of 
the state folks, they are the ones that have skin in the game. 
This is their landscape, their resources.
    But in the end, when we protect a species such as the 
Louisiana pine snake, which I disagree with the Congressman, 
but I love that snake. It is an awesome species of snake, but 
that isn't just for Louisiana. Louisiana is the steward of that 
for our entire Nation. That snake has a very vital role to play 
in the ecosystem.
    I believe that there is improvement to be made, but I think 
in many ways we can strengthen the opportunities that the 
Endangered Species Act can use to ensure the conservation and 
survival of our most imperiled, uniquely American species.
    Mr.  Soto. I want to end with the economic benefits of the 
Endangered Species Act. A lot of people watch your show, 
obviously. They are very interested in seeing our environment. 
But there are also local tours, there are also wilderness 
hikes, and so many different things.
    What do you think it means, economically, for those types 
of industries, from television down to hiking, to have this Act 
in place, as it is now?
    Mr.  Corwin. There is huge value in nature. There is the 
aesthetic value, there is the symbol of nature as a 
representation of who we are as a nation. There is the economic 
and commercial value of natural resources. It is all about wise 
and pragmatic management.
    Coming from Florida, natural resources, when it comes to 
fishing, or when it comes to observing wildlife or connecting 
with a nice, clean, healthy coastal ecosystem, that is a big 
draw, economically, commercially, and recreationally, for your 
state.
    Mr.  Soto. Thank you.
    Mr.  Gohmert. Thank you. The gentleman's time has expired. 
At this time we have one last valued member of the Committee to 
recognize, the gentlelady from American Samoa, Mrs. Radewagen, 
for 5 minutes.
    Mrs.  Radewagen. Thank you, Mr. Chairman and the Ranking 
Member. I too would like to add my welcome to the panel for 
appearing today.
    I have a question for you, Mr. Sheehan. I understand one of 
the prior questions was casting doubt on the Interior 
Department's review of the BLM's greater sage-grouse plans. Do 
you want to comment on the importance of this review for 
several Western states?
    Mr.  Sheehan. Sure. Thank you, Congresswoman. I think the 
intent of that Secretarial Order from Secretary Zinke was to 
say, were the plans that were Federal plans--land management, 
Forest Service, but primarily BLM, as it is within the 
Department of the Interior--were those in concert with what the 
states' conservation plans looked like?
    Under a prior administration, Secretary of the Interior 
Salazar came to the states and said, ``Go identify good 
management in your states, we want to see what it looks like,'' 
because it is different, as we have heard today. Sage-grouse 
management in eastern Wyoming, or eastern Montana even, looks 
very much different than sage-grouse management in western 
Nevada or in southern Utah.
    So, the question was, as these plans came in, were they 
looking at a one-size-fits-all model, or were they looking at 
what the states had to define, what works well within their 
local sage-grouse management strategies, their plans, and do 
those best align themselves?
    So, I think it may have been premature for a discussion of 
how will this review under the Secretary be forthcoming to 
change those plans, or will it just acknowledge what exists at 
the states and see perhaps how those could be fine-tuned. That 
is yet to come. That will be released on the first of August, 
and then we will see what that tells us.
    Mrs.  Radewagen. Thank you.
    Mr. Sheehan, our friends across the aisle will point to 
funding as a solution to the problems that countless witnesses 
have highlighted with ESA over the past four Congresses.
    However, funding increased under the Obama administration, 
and yet the problems persisted. Problems that drained resources 
away from conservation and have been perpetuated by 
environmental groups through unending litigation and an 
onslaught of petitions. Each species on the list costs 
taxpayers money, including those species that have recovered 
and could be transferred to state management.
    How would the ability to de-list more recovered species 
impact available agency resources and allow for more focus on 
species that are in the recovery or listing process?
    Mr.  Sheehan. Thank you again. Getting more species off the 
lists helps us focus on those that are in need of care right 
now. And I would hope that it would also reduce some of the 
litigation that also detracts from our ability to do 
conservation.
    There is no doubt about it that, whether the budgets go up 
or down, we are still going to have to look to collaborate with 
our communities and the people on the ground. We have heard 
that over and over today, the people on the ground who are 
bringing resources, and sometimes that is industry, sometimes 
it is local government, and sometimes it is a private 
landowner. It comes from many different places. Those are, 
first and foremost, where the dollars are coming from to 
conserve species across America. It is not all coming through a 
Federal budget channel.
    We still need enough money within the Fish and Wildlife 
Service to administer a program. But if we cannot look to those 
folks outside to help, then I certainly don't think that we 
should have the Federal Government be the first stop for 
funding all conservation in America.
    Mrs.  Radewagen. Thank you. Actually, I have three or four 
more questions for you.
    Mr.  Sheehan. OK, I will be brief.
    Mrs.  Radewagen. I am really out of time here, but let me 
throw another one at you.
    Mr.  Sheehan. OK.
    Mrs.  Radewagen. Each species and candidate species 
requires agency investments in science, surveys, and data. 
While the Federal Government, in practice, relies upon mostly 
Federal information, such data is available from a variety of 
sources, including states, tribes, and local governments. Would 
the utilization of data from those sources free up some of the 
pressure on agency resources?
    Mr.  Sheehan. Absolutely. The more good data we can get 
from the more sources, the more good research we can get from 
the more sources, it is only going to make better decisions, 
and we will be able to, hopefully, expedite those decisions as 
well as we obtain that data.
    Mrs.  Radewagen. Mr. Chairman, I yield back. Thank you.
    Mr.  Gohmert. The gentlelady yields back.
    At this time, I want to thank all the witnesses for your 
patience and for your valuable testimony. It means a great 
deal. I appreciate the Members' questions.
    Under Committee Rules, members of the Committee may have 
some additional questions. If so, we ask that they submit them 
within 3 business days following the hearing by 5:00 p.m. The 
hearing record will be held open for 10 business days to 
receive the responses.
    I have three letters to enter into the record in support of 
H.R. 424. The first is from the Public Lands Council and 
National Cattlemen's Beef Association; the second is from the 
American Farm Bureau Federation; and the third is from the 
Minnesota Farmer's Union.
    Hearing no objection, it is so ordered.
    It just is a pleasure to have you here testifying as to 
your own experiences. It is a pleasure to be serving with, you 
heard the term ``Washington insiders,'' we are serving here on 
the Committee with Members who are elected from the states and 
really come here as outsiders. We appreciate your efforts and 
our efforts to return power to the states and people.
    If nothing further, this Committee is adjourned.

    [Whereupon, at 12:59 p.m., the Committee was adjourned.]

            [ADDITIONAL MATERIALS SUBMITTED FOR THE RECORD]

Rep. Grijalva Submissions

                    Humane Society Legislative Fund

                                                      July 24, 2017

Hon. Rob Bishop, Chairman,
Hon. Raul Grijalva, Ranking Member,
House Committee on Natural Resources,
Washington, DC 20515.

    Dear Chairman Bishop and Ranking Member Grijalva:

    When people think about the canned hunting of lions, where captive 
lions are stocked and shot within fenced enclosures, the African 
savanna is typically the location that comes to mind--but that might be 
about to change. If Congress passes H.R. 2603, the innocuous-sounding 
and deceptively named Saving America's Endangered Species Act, this 
despicable activity may become commonplace across the United States. 
The bill eviscerates protections established by the Endangered Species 
Act (ESA) for species that are nonnative to the United States. The 
legislation could have far-reaching implications not just for lions but 
also for many other species, including elephants, tigers, leopards, 
rhinos, and chimpanzees.
    Captive, or ``canned,'' hunting operations exist in numerous 
states, but thanks to ESA safeguards these operators cannot stock their 
enclosures with foreign ESA-listed species such as lions or elephants. 
Yet some members of Congress are intent on carving out ESA exemptions 
to this for the benefit of canned hunting ranches. After a federal 
court required ranch operators to apply to the U.S. Fish and Wildlife 
Service (FWS) for permits to shoot and kill three species of endangered 
African antelopes in canned hunts, Congress intervened to pass a bill 
removing the requirement. Another bill, the Sportsmen's Heritage and 
Recreational Enhancement Act, awaiting introduction to the House, gives 
a further nod to trophy hunters. Among other troubling provisions, the 
bill removes federal protections for gray wolves in Wyoming and the 
western Great Lakes, allowing the resumption of trophy hunting and 
trapping in those states, and creates an exemption to the ESA and 
Marine Mammal Protection Act for 41 trophy hunters to import the bodies 
of polar bears--a federally protected species--that they killed in 
Canada.
    H.R. 2603 also could increase the U.S. market for imperiled foreign 
species and their parts, thereby stimulating global wildlife 
trafficking. The United States is a principal end-market for ivory, the 
traffic in which causes the killing of more than 35,000 African 
elephants every year and fuels the rapid decline of the species. The 
ESA helps protect the African elephant--a threatened species under the 
Act--by banning, in most instances, the interstate sale of ivory. 
Although importing ivory from recently killed elephants is also 
illegal, wildlife traffickers regularly smuggle ivory into the country. 
If H.R. 2603 passes, the interstate commerce of ivory in the United 
States would likely become legal, spurring demand and providing an even 
greater incentive to traffickers to smuggle in their wares.
    Americans value and have great respect for the majestic nonnative 
wildlife the ESA protects, as evidenced two years ago when the nation 
issued a collective gasp of horror after Minnesota dentist Walter 
Palmer shot Cecil, a beloved African lion, just outside Hwange National 
Park in Zimbabwe. People launched online petitions, held vigils, and 
protested and boycotted Palmer's office for weeks. If H.R. 2603 passes, 
endless Cecils could be bred for the bullet and shot in pens by anyone 
willing to dish out a few dollars. After all, traveling across state 
lines to a canned hunt is a lot easier than flying to Africa.
    As people learn more about the macabre world of trophy hunting, and 
the organizations that promote it, such as Safari Club International, 
public disgust will continue to grow. A 2015 poll from HBO Real Sports/
Marist Poll, conducted after the death of Cecil, showed that a whopping 
86% of Americans find the sport hunting of big game such as lions and 
elephants distasteful, and 62% think it should be illegal.
    Endangered and threatened species, whether native to the United 
States or not, desperately need all the protection they can get. 
Removing ESA protections for imperiled foreign wildlife is nothing more 
than an accommodation of the Walter Palmers of the world, and sends a 
message that exploiting rare and endangered animals is acceptable as 
long as they are not native to our country.
    The Humane Society Legislative Fund strongly opposes H.R. 2603, and 
we urge the House of Representatives to do so too.

            Sincerely,

                                          Tracie Letterman,
                                   Vice President, Federal Affairs.

                                 ______
                                 

                      Union of Concerned Scientists

                                                      July 18, 2017

    Dear Representative:

    This Wednesday, the House Committee on Natural Resources is holding 
a legislative hearing on several bills, including H.R. 424, H.R. 717, 
and H.R. 1274. Together, these legislative proposals threaten the 
important role of science in implementing the Endangered Species Act 
and allow for politics to intrude into decisions about which species 
need protection. The Union of Concerned Scientists, representing more 
than 500,000 members and supporters across the country, urges you to 
oppose these bills as they are intended to undermine our nation's most 
effective science-based laws for protecting imperiled species on the 
brink of extinction.
    H.R. 424, the so-called Gray Wolf State Management Act, arbitrarily 
blocks federal Endangered Species Act protections for gray wolves in 
the Great Lakes states and Wyoming. The misguided bill would ignore the 
Endangered Species Act's science-based decision-making process and 
remove existing protections for gray wolves in the Midwest. 
Particularly egregious is the provision that would prohibit any 
judicial review of Congress's decision to remove science-based 
protections for gray wolves, eliminating any opportunity for the 
scientific community and the public to weigh in in the future. 
Legislative delisting measures like this only undermine scientific 
determinations that underpin the success of the Endangered Species Act 
and set a dangerous precedent for other vulnerable species.
    H.R. 717, the misleadingly named Listing Reform Act, allows 
decision-makers to put economic impacts, which can easily be tampered 
with, above best available scientific evidence. The decision to protect 
a threatened species would be overruled by economic considerations 
directly contrary to the goal of the act. The legislation goes one step 
farther by preventing the Department of Interior and the Department of 
Commerce from reconsidering the decision to not protect threatened 
wildlife unless there is new analysis showing that the species can be 
protected without having any of the aforementioned economic impacts.
    H.R. 1274, the deceptively named State, Tribal, and Local Species 
Transparency and Recovery Act, would undermine the Endangered Species 
Act's science-based determination process by prioritizing any 
information provided by states, tribes, or counties to constitute 
``best available science'' regardless of the scientific merit of that 
information. However, the Endangered Species Act already requires 
federal cooperation with state wildlife managers and local officials. 
In addition, decisions to list or delist a species are already required 
to use the best available science, which of course can include state, 
tribal, and local scientific studies when they are conducted in 
accordance with well-established scientific standards. Best available 
science is not something that can be determined based on region or 
state borders. It is a culmination of the efforts undertaken by 
scientists and wildlife experts at the U.S. Fish and Wildlife Service 
and the National Marine Fisheries Service, where they conduct studies, 
gather data and other information from the scientific community and the 
public, including collaboration with state, local, and tribal 
governments and industry, and then make a determination based on the 
best available science.
    In addition to these three bills, we also stand in solidarity with 
our partner organizations in opposition to H.R. 2603 and H.R. 3131. 
Combined with these three anti-science bills, both of these proposals 
attempt to substitute politics for scientific judgment and make it 
harder for the public to engage in wildlife stewardship. We urge you to 
oppose all five of these ill-informed pieces of legislation that 
undermine our nation's most effective science-based conservation law, 
the Endangered Species Act.

            Sincerely,

                                Andrew A. Rosenberg, Ph.D.,
                        Director, Center for Science and Democracy.

                                 ______
                                 

[LIST OF DOCUMENTS SUBMITTED FOR THE RECORD RETAINED IN THE COMMITTEE'S 
                            OFFICIAL FILES]

Rep. Gohmert Submission

    --Letter addressed to Vice-Chairman Gohmert from Phil Goss, 
            President of the United States Association of 
            Reptile Keepers dated July 10, 2017.

Rep. Peterson Submissions

    --Letter addressed to Representative Peterson from Thomas 
            O. Melius, Regional Director at the U.S. Fish and 
            Wildlife Service dated January 30, 2015.

    --Survey Description and Figures of Wolf Populations 
            conducted by the Minnesota Department of Natural 
            Resources dated July 2017.

    --Letter addressed to Chairman Bishop and Ranking Member 
            Grijalva from Ken Hamilton, Executive Vice 
            President of the Wyoming Farm Bureau Federation 
            dated July 17, 2017.

Rep. Grijalva Submissions

    --Letter from Alaska Wilderness League, American Rivers, 
            Animal Welfare Institute, Born Free USA, Center for 
            Biological Diversity, Defenders of Wildlife, 
            Earthjustice, Endangered Species Coalition, Howling 
            For Wolves, Humane Society Legislative Fund, 
            International Fund for Animal Welfare, League of 
            Conservation Voters, National Parks Conservation 
            Association, Natural Resources Defense Council, 
            Oceana, Save Animals Facing Extinction, Sierra 
            Club, WildEarth Guardians, and Wildlands Network 
            dated July 18, 2017.

    --Testimony of Kate Dylewsky, Senior Policy Advisor for the 
            Animal Welfare Institute dated July 19, 2017.

Rep. Tipton Submission

    --Letter from Bonnie Petersen, Executive Director of the 
            Associated Governments of Northwest Colorado to 
            Secretary Ryan Zinke, Department of the Interior 
            dated July 7, 2017.

                                 [all]
</pre></body></html>
